<html>
<title> - H.R. 623, H.R. 740, H.R. 841, H.R. 931, H.R. 1306, AND H.R. 1410</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   H.R. 623, H.R. 740, H.R. 841, H.R. 931, H.R. 1306, AND H.R. 1410

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 16, 2013

                               __________

                           Serial No. 113-17

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

80-981 PDF                WASHINGTON : 2014
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
           COLLEEN W. HANABUSA, HI, Ranking Democratic Member

Dan Benishek, MI                     Tony Cardenas, CA
Paul A. Gosar, AZ                    Raul Ruiz, CA
Markwayne Mullin, OK                 Eni F. H. Faleomavaega, AS
Steve Daines, MT                     Raul M. Grijalva, AZ
Kevin Cramer, ND                     Edward J. Markey, MA, ex officio
Doug LaMalfa, CA
Doc Hastings, WA, ex officio















                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 16, 2013...........................     1

Statement of Members:
    Hanabusa, Hon. Colleen W., a Representative in Congress from 
      the State of Hawaii........................................     3
        Prepared statement of....................................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of 
      Alaska.....................................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Araujo, Jaeleen Kookesh, General Counsel for Sealaska 
      Corporation................................................    38
    Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
      Department of the Interior.................................     6
        Prepared statement on H.R. 841, H.R. 931, and H.R. 1410..     8
    Enos, Diane, President, Salt River Pima-Maricopa Indian 
      Community..................................................    71
        Prepared statement on H.R. 1410..........................    72
    Leno, Reyn, Tribal Council Chair, The Confederated Tribes of 
      Grand Ronde................................................    27
        Prepared statement on H.R. 841 and H.R. 931..............    28
    Mallott, Byron, Member, Board of Directors, Sealaska 
      Corporation................................................    38
        Prepared statement on H.R. 740 and H.R. 1306.............    40
    McSwain, Robert, Deputy Director for Management Operations, 
      Indian Health Services, Department of Health and Human 
      Services...................................................    10
        Prepared statement on H.R. 623...........................    11
    Norris, Hon. Ned, Jr., Chairman, the Tohono O'odham Nation of 

      Arizona....................................................    61
        Prepared statement on H.R. 1410..........................    63
        Questions submitted for the record.......................    69
    Pena, Jim, Associate Deputy Chief, National Forest System, 
      U.S. Forest Service, Department of Agriculture.............    13
        Prepared statement on H.R. 740 and H.R. 1306.............    14
    Pigsley, Delores, Chairman, Confederated Tribes of Siletz 
      Indians of Oregon..........................................    31
        Prepared statement on H.R. 931...........................    32
    Rosenbruch, Jimmie Cannon, Edna Bay Community, Inc. and 
      Territorial Sportsmen, Inc.................................    54
        Prepared statement on H.R. 740...........................    56
    Teuber, Andy, Chairman and President, Alaska Native Tribal 
      Health Consortium..........................................    22
        Prepared statement on H.R. 623...........................    24
    Wiseman, Maria, Associate Deputy Director, Office of Indian 
      Gaming, Bureau of Indian Affairs, U.S. Department of the 
      Interior...................................................     6

Additional materials submitted for the record:
    Franks, Hon. Trent, a Representative in Congress from the 
      State of Arizona, Prepared statement of....................    95
    Gosar, Hon. Paul A., a Representative in Congress From the 
      State of Arizona, Prepared Statement of....................    94
    List of documents submitted for the record retained in the 
      Committee's official files.................................    96
    Markey, Hon. Edward J., Ranking Member, Committee on Natural 
      Resources, Prepared statement of...........................    94


H.R. 623, TO PROVIDE FOR THE CONVEYANCE OF CERTAIN PROPERTY 
    LOCATED IN ANCHORAGE, ALASKA FROM THE UNITED STATES TO THE 
    ALASKA NATIVE TRIBAL HEALTH CONSORTIUM, ``ALASKA NATIVE 
    TRIBAL HEALTH CONSORTIUM LAND TRANSFER ACT''; H.R. 740, TO 
    PROVIDE FOR THE SETTLEMENT OF CERTAIN CLAIMS UNDER THE 
    ALASKA NATIVE CLAIMS SETTLEMENT ACT, AND FOR OTHER 
    PURPOSES, ``SOUTHEAST ALASKA NATIVE LAND ENTITLEMENT 
    FINALIZATION AND JOBS PROTECTION ACT''; H.R. 841, TO AMEND 
    THE GRAND RONDE RESERVATION ACT TO MAKE TECHNICAL 
    CORRECTIONS, AND FOR OTHER PURPOSES, H.R. 931, TO PROVIDE 
    FOR THE ADDITION OF CERTAIN REAL PROPERTY TO THE 
    RESERVATION OF THE SILETZ TRIBE IN THE STATE OF OREGON; 
    H.R. 1306, TO PROVIDE FOR THE PARTIAL SETTLEMENT OF CERTAIN 
    CLAIMS UNDER THE ALASKA NATIVE CLAIMS SETTLEMENT ACT, 
    ``SOUTHEAST ALASKA NATIVE LAND CONVEYANCE ACT''; AND H.R. 
    1410, TO PROHIBIT GAMING ACTIVITIES ON CERTAIN INDIAN LANDS 
    IN ARIZONA UNTIL THE EXPIRATION OF CERTAIN GAMING COMPACTS, 
    ``KEEP THE PROMISE ACT OF 2013''
                              ----------                              


                         Thursday, May 16, 2013

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:55 p.m. in 
room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Gosar, Mullin, LaMalfa, 
Hanabusa, Ruiz, and Grijalva.
    Also Present: Representative Schweikert.
    Mr. Young. The Committee will come to order. First, let me 
apologize to the witnesses and everybody who waited a period of 
time. We had these unfortunate votes, but we had them anyway.
    The Subcommittee on Indian and Alaska Native Affairs is 
meeting today to hear testimony on six bills concerning Indian 
Tribes and Alaskan Native organizations.
    Under Committee Rule 4(f), the opening statements are 
limited to the Chairman and the Ranking Member of the 
Subcommittee so we will hear from our witnesses more quickly. 
However, I ask unanimous consent to include any other Members' 
opening statements in the hearing record if submitted to the 
clerk by close of business today. Hearing no objection, so 
ordered.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. The six bills we are hearing today resolve a 
variety of land related issues affecting tribes in Oregon, 
Arizona and Alaska, a Native health provider and a Native 
regional corporation.
    The sponsors represent the District of lands affected by 
their bills, and therefore, the legislation is an important 
constituent service for them.
    H.R. 740, a bill I introduced with Ranking Member 
Hanabusa----
    Ms. Hanabusa. Hanabusa.
    Mr. Young. Hanabusa; excuse me. Senator.
    [Laughter.]
    Mr. Young. Will authorize Sealaska, the regional Native 
corporation for southeast Alaska to finalize its 40 year old 
land settlement due under the Alaska Native Claims Settlement 
Act of 1971 by selecting Native lands from within a designated 
pool of land in southeast Alaska.
    First introduced over 6 years ago, this bill has undergone 
an extensive vetting process throughout the region and has 
resulted in meaningful changes such as providing for continued 
public access to lands and modifying certain land selections 
among them.
    In addition, the legislation allows Sealaska to move away 
from sensitive watersheds, to select a more balanced inventory 
of second growth and old growth, and to select most of its 
remaining ANCSA lands on the existing road system, preserving 
on balance as much as 40,000 acres of inventoried ``roadless 
old growth.''
    Furthermore, southeast Alaska communities face dire 
economic realities. Some of these communities have unemployment 
nearing 50 percent and many are in double digits. It was not 
always this way but through the mismanagement of the forest by 
the Forest Service and a continued siege from environmental 
groups, industry has suffered, and over the last couple of 
decades, the population has seen a consistent and steep 
decline.
    By permitting Sealaska to select its remaining entitlement 
lands from outside the withdrawal boxes, the Sealaska bill will 
help Sealaska to maintain jobs in rural and predominately 
Native communities. Sealaska provides hundreds of jobs and is 
the largest private employer in the entire region.
    For nearly 40 years since the passage of ANCSA, Sealaska 
has still not received conveyance of its full land entitlement. 
It is critical that Sealaska complete its remaining land 
entitlement under ANCSA in order to continue to meet the 
economic, social and cultural needs of its Native shareholders 
and the Native community throughout Alaska.
    The hearing agenda includes several other bills. H.R. 1306 
is an interim measure to sustain Sealaska's timber program 
until H.R. 740 can be enacted into law.
    H.R. 623 provides for a small conveyance of land for the 
Alaska Native Tribal Health Consortium to carry out its 
valuable medical services for Alaska Native people.
    H.R. 841 and H.R. 931 are sponsored by Congressman Schrader 
of Oregon to provide a smoother process for the Department of 
the Interior to process trust land applications filed by two 
tribes in his District.
    Finally, H.R. 1410 is a modified version of a bill passed 
by an overwhelming majority of the House last year to prohibit 
additional Indian casinos in the Phoenix area in accordance 
with the guarantees made by Arizona's Indian Tribes when the 
tribal-State compact was ratified.
    At this time, I will recognize the Ranking Member for her 
opening statement.
    [The prepared statement of Mr. Young follows:]
 Prepared Statement of The Honorable Don Young, Chairman, Subcommittee 
                  on Indian and Alaska Native Affairs
    The six bills on the hearing agenda today resolve a variety of 
land-related issues affecting tribes in Oregon and Arizona, an Alaska 
Native health provider, and a Native Regional Corporation. The sponsors 
represent the district of lands affected by their bills and therefore 
the legislation is an important constituent service for them.
    H.R. 740, a bill I introduced with Ranking Member Hanabusa, will 
authorize Sealaska, the regional Alaska Native Corporation for 
southeast Alaska, to finalize its 40-year old land settlement due under 
the Alaska Native Claims Settlement Act (ANCSA) of 1971 by selecting 
Native lands from within a designated pool of land in southeast Alaska.
    First introduced over 6 years ago, this bill has undergone an 
extensive vetting process throughout the region that has resulted in 
meaningful changes such as providing for continued public access to 
lands, and modifying certain land selections, among others.
    In addition, the legislation allows Sealaska to move away from 
sensitive watersheds, to select a more balanced inventory of second 
growth and old growth, and to select most of its remaining ANCSA lands 
on the existing road system, preserving on balance as much as 40,000 
acres of inventoried ``roadless old growth.''
    Further, southeast Alaska communities face dire economic realities. 
Some communities have unemployment nearing 50 percent and many more are 
in the double digits. It was not always this way, but through the 
mismanagement of the forest by the Forest Service and the continued 
siege from environmental groups, industry has suffered and, over the 
last couple decades, the population has seen a consistent and steep 
decline.
    By permitting Sealaska to select its remaining entitlement lands 
from outside of the withdrawal boxes, the Sealaska bill would help 
Sealaska maintain jobs in rural and predominately Native communities. 
Sealaska provides hundreds of jobs and is the largest private employer 
in the entire region.
    After nearly 40 years since the passage of ANCSA, Sealaska has 
still not received conveyance of its full land entitlement. It is 
critical that Sealaska complete its remaining land entitlement under 
ANCSA in order to continue to meet the economic, social and cultural 
needs of its Native shareholders, and the Native community throughout 
Alaska.
    The hearing agenda includes several other bills. H.R. 1306 is an 
interim measure to sustain Sealaska's timber program until H.R. 740 can 
be enacted into law.
    H.R. 623 provides for a small conveyance of land for the Alaska 
Native Tribal Health Consortium to carry out its valuable medical 
services for Alaska Native people.
    H.R. 841 and H.R. 931 are sponsored by Congressman Schrader of 
Oregon, to provide a smoother process for the Department of the 
Interior to process trust land applications filed by two tribes in his 
district.
    And finally, H.R. 1410 is a modified version of a bill passed by an 
overwhelming majority of the House last year, to prohibit additional 
Indian casinos in the Phoenix area in accordance with guarantees made 
by Arizona's Indian tribes when the tribal-state compact was ratified.
                                 ______
                                 

STATEMENT OF THE HON. COLLEEN W. HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Chairman Young. The six bills that 
are the subject of today's legislative hearing address 
important issues in Indian country, but today's agenda does not 
include the bill that provides a legislative fix to the 
Carcieri vs. Salazar decision, one of Indian country's top 
legislative priorities.
    Ranking Member Markey and I introduced H.R. 666 in February 
to address the misguided Supreme Court decision. I am proud to 
say that H.R. 666 is a bipartisan bill with 29 co-sponsors. We 
requested that our bill be included in today's agenda, but the 
Majority denied our request.
    For the record, Mr. Chairman, I respectfully renew our 
request to include H.R. 666 in the next legislative hearing 
agenda.
    Turning to today's agenda, H.R. 841 and 931 would authorize 
the Secretary of the Interior to use reservation criteria in 
evaluating land into trust applications by the Confederated 
Tribes of the Grand Ronde Reservation and the Confederated 
Tribes of the Siletz Indians of Oregon.
    These bills would enable these congressionally terminated 
tribes to rebuild and restore their original reservations.
    We learned in a hearing on identical bills last Congress 
that both tribes have important reasons to seek this change in 
secretarial authority, yet it is my understanding that this 
agreement between the tribes about the exterior boundaries of 
the Coast or the Siletz Coast Reservation remain, and that 
progress toward an accommodation of this issue has not been 
made.
    I hope that this Subcommittee can assist the parties in 
finding a reasonable and agreeable solution to this issue in 
order to enhance the Grand Ronde and Siletz Tribes' self 
governance authorities within their territories.
    Another important bill that we consider today is Chairman 
Young's bill, H.R. 740. I supported the previous version of the 
bill in the 112th Congress and I am an original co-sponsor of 
the legislation before us today.
    I strongly believe that the Sealaska Corporation has the 
best interest of its shareholders, some 20,000 Alaskan Natives, 
in mind when it proposed transferring ownership of lands into 
Tongass National Forest under H.R. 740.
    This bill would potentially end years of conflict over 
Sealaska's remaining land entitlement under the Alaska Native 
Claims Settlement Act, and bring closure to an issue that has 
dragged on for three Congress' and two Administrations.
    Against this backdrop, I look forward to hearing from 
Sealaska and the Administration witnesses about compromises 
that have been made in the 2 years since this Subcommittee held 
a hearing on the subject.
    I believe such discussion will benefit the Subcommittee 
members in understanding the hard work that has gone into the 
legislation.
    Finally, H.R. 1410 is a bill that would define the Phoenix 
metropolitan area to impose a geographic limitation on tribes 
that seek to conduct Class II and Class III gaming activities 
on land acquired in trust after April 9, 2013. This prohibition 
would remain in place until the current Tribal State Gaming 
Compact expires in 2027.
    This is an issue that has been litigated with a decision 
being released just over a week ago, and still has unresolved 
questions.
    I look forward to hearing from Chairman Norris and 
Chairwoman Enos about how this bill affects their tribes, and 
from Director Black regarding the Administration's view.
    I welcome all our witnesses here today, and I yield back, 
Mr. Chairman.
    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of The Honorable Colleen W. Hanabusa, Ranking 
        Member, Subcommittee on Indian and Alaska Native Affairs
    Thank you, Chairman Young.
    The six bills that are subject to today's legislative hearing 
address important interests in Indian country. But today's agenda does 
not include a bill that provides a legislative fix to the Carcieri v. 
Salazar decision, one of Indian country's TOP legislative priorities. 
Ranking Member Markey and I introduced H.R. 666 in February to address 
the misguided Supreme Court decision. I am proud to say that H.R. 666 
is a bipartisan bill with 29 cosponsors. We requested that our bill be 
included in today's agenda, but the majority denied our request. For 
the record, Mr. Chairman, I respectfully renew our request to include 
H.R. 666 in the next legislative hearing agenda.
    Turning to today's agenda, H.R. 841 and H.R. 931 would authorize 
the Secretary of the Interior to use ``on reservation'' criteria in 
evaluating land into trust applications by the Confederated Tribes of 
the Grand Ronde Reservation and the Confederated Tribes of Siletz 
Indians of Oregon. These bills would enable those congressionally-
terminated tribes to rebuild and restore their original reservations.
    We learned in a hearing on identical bills last Congress that both 
tribes have important reasons to seek this change in Secretarial 
authority. Yet it is my understanding that disagreement between the 
tribes about the exterior boundaries of the ``Coast'' or the ``Siletz 
Coast'' Reservation remain, and that progress toward an accommodation 
on this issue has not been made. I hope that this Subcommittee can 
assist the parties in finding a reasonable and agreeable solution to 
this issue in order to enhance Grand Ronde and Siletz tribes' self-
government authorities within their territories.
    Another important bill that we will consider today is Chairman 
Young's bill, H.R. 740. I supported the previous version of the bill in 
the 112th Congress and am an original cosponsor of the legislation 
before us today. I strongly believe that the Sealaska Corporation has 
the best interests of its shareholders, some 20,000 Alaska Natives, in 
mind when it proposed transferring ownership of lands in the Tongass 
National Forest under H.R. 740. This bill would potentially end years 
of conflict over Sealaska's remaining land entitlement under the Alaska 
Native Claims Settlement Act, and bring closure to an issue that has 
dragged on for three Congresses and two Administrations.
    Against this backdrop, I look forward to hearing from Sealaska and 
the Administration's witnesses about compromises that have been made in 
the 2 years since this Subcommittee held a hearing on the subject. I 
believe such discussion will benefit the Subcommittee members in 
understanding the hard work that has gone into the legislation.
    Finally, H.R. 1410 is a bill that would define the Phoenix 
metropolitan area to impose a geographic limitation on tribes that seek 
to conduct Class II and Class III gaming activities on land acquired in 
trust after April 9, 2013. This prohibition would remain in place until 
the current tribal-state gaming compact expires in 2027. This is an 
issue that has been litigated with a decision being released just over 
a week ago and still has unresolved questions.
    I look forward to hearing from Chairman Norris and Chairwoman Enos 
about how this bill affects their tribes and from Director Black 
regarding the Administration's views.
    I welcome all our witnesses here today, and I yield back.
                                 ______
                                 
    Mr. Young. I thank the good lady, and just one comment on 
Carcieri. We are going to have a hearing and a markup on that 
bill, but these are constituent bills here individually. That 
is why we are doing it. Thank you, ma'am.
    Ms. Hanabusa. Thank you.
    Mr. Young. I am glad you reminded me.
    Ms. Hanabusa. Thank you, I have to remind you about these 
things.
    Mr. Young. Thank you. I am getting mature, so be careful.
    I look forward to hearing our witnesses now. Michael Black, 
Director of Bureau of Indian Affairs. Robert McSwain, Deputy 
Director for Management Operations, Department of Health and 
Human Services, and Jim Pena, Associate Deputy Chief, National 
Forest System, U.S. Forest Service. That is my first panel.
    Gentlemen, again, I do apologize for not being here. These 
things happen in this crazy world we live in.
    I believe you all know the rules. Five minutes. The little 
red lights will go on when you are up on your 5 minutes. Try to 
keep it short. If you are really enthralling with your 
testimony, I might let you go longer. If you are not, I will 
cut you off shorter. Keep that straight.
    I guess that is it. We will start out with Mr. Black.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

ACCOMPANIED BY: MARIA WISEMAN, ASSOCIATE DEPUTY DIRECTOR, OFFICE OF 
            INDIAN GAMING, BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF 
            THE INTERIOR
    Mr. Black. Good afternoon, Chairman Young, Ranking Member 
Hanabusa, and members of the Subcommittee. My name is Michael 
Black and I am the Director of the Bureau of Indian Affairs. 
Accompanying me today is the Associate Deputy Director from the 
Office of Indian Gaming, Maria Wiseman.
    Thank you for the opportunity to present the Department of 
the Interior's views on three bills, H.R. 931, a bill to 
provide for the addition of certain real property to the 
Reservation of the Siletz Tribe, which the Department supports; 
H.R. 841, a bill to amend the Grand Ronde Reservation Act, to 
make technical corrections and for other purposes, which the 
Department also supports; and H.R. 1410, a bill that will 
prohibit Class II and Class III gaming activities on lands 
acquired in trust by the Secretary of the Interior for the 
benefit of an Indian tribe within a defined Phoenix 
metropolitan area.
    The prohibition would last from April 9, 2013 until January 
2, 2027. The Department opposed H.R. 1410.
    I have previously testified before this Subcommittee in 
support of the previous versions of H.R. 931 and H.R. 841, and 
since these bills have not changed significantly, the 
Department continues to support H.R. 931 and H.R. 841.
    In order to stay within my allotted time, I will not 
restate the details in my testimony on those two bills.
    However, since H.R. 1410 is new, I will spend my time on 
this bill. H.R. 1410 would prohibit Class II and Class III 
gaming on any lands taken into trust for an Indian tribe by the 
Secretary of the Interior if those lands are within the defined 
Phoenix metropolitan area. The Phoenix metropolitan area is 
defined in Section 3 of the bill.
    This gaming prohibition would retroactively begin April 9, 
2013 and expire on January 1, 2027.
    While H.R. 1410 does not name a specific Tribe nor amend a 
particular law, the Department concludes, based on the subject 
matter, that this bill has a similar effect of the bill 
introduced in the previous 112th Congress involving the Tohono 
O'odham Nation and its 53.54 acre parcel in Maricopa County, 
Arizona.
    The Tribe has requested that the Secretary acquire this 
land in trust pursuant to the Gila Bend Indian Reservation 
Lands Replacement Act of 1986, also known as the Gila Bend Act.
    The Gila Bend Act was intended to remedy damage to the 
tribes' lands caused by flooding and the construction of the 
Painted Rock Dam.
    The United States and the Tohono O'odham Nation agreed to 
terms of the Gila Bend Act, which included restrictions on 
where and how the nation could acquire replacement lands. In 
the accompanying 1987 agreement between the Federal Government 
and the tribe, the tribe gave up its right and title to 9,880 
acres of land and approximately 36,000 acre-feet of Federal 
Reserve water rights.
    The Gila Bend Act authorized the Secretary of the Interior 
to take up to 9,880 acres of unincorporated land in Pima, 
Pinal, and Maricopa Counties in the trust for the nation, 
subject to certain other requirements, and mandated that the 
land ``shall be deemed to be a Federal Indian Reservation for 
all purposes.''
    Congress was clear when it originally enacted the Gila Bend 
Act in which it stated that ``Replacement lands shall be deemed 
to be a Federal Indian Reservation for all purposes.''
    By this language Congress intended that the nation be 
permitted to use the replacement lands as any other tribe would 
use for its own Reservation trust lands for all purposes.
    H.R. 1410 would impact the nation's Gila Bend Act by 
imposing additional restrictions beyond those agreed upon by 
the United States and the Tohono O'odham Nation nearly 25 years 
ago.
    H.R. 1410 would negatively impact the nation's all purposes 
use of selected lands under the Gila Bend Act by limiting the 
nation's ability to conduct Class II and Class III gaming on 
such selected lands. H.R. 1410 would also alter the Indian 
Gaming Regulatory Act that prohibits gaming on lands acquired 
by the Secretary and a trust for the benefit of an Indian tribe 
after October 17, 1988 except in certain circumstances.
    The effect of H.R. 1410 would be to add a tribe specific 
and area specific limitation to IGRA. The process for 
determining whether lands qualify for an exception to this 
prohibition is firmly established.
    To wrap up, Mr. Chairman, the Department is aware that the 
nation's request to acquire land in trust for gaming purposes 
in Maricopa County has been the subject of significant 
contention among tribes and local governments in the State of 
Arizona, and the Assistant Secretary's decision to approve the 
trust acquisition pursuant to congressional mandate has been 
the source of litigation which is still pending.
    However, IGRA already establishes a process to determine 
whether lands are eligible for gaming, and that question is 
currently pending before the Department. The Department 
respects Congress' authority to legislate in this area. 
However, we are concerned about establishing a precedent for 
singling out particular Tribes through legislation to restrict 
their access to equal application under the law.
    This Administration has consistently held the position that 
fair and equal application of our laws toward all tribes is 
essential to upholding the United States' nation-nation 
relationship with Indian tribes.
    Thank you, and I am happy to answer any questions the 
Subcommittee may have.
    [The prepared statement of Mr. Black follows:]
  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
 Affairs, U.S. Department of the Interior, on H.R. 841, H.R. 931, and 
                               H.R. 1410
           h.r. 841--to amend the grand ronde reservation act
    Chairman Young, Ranking Member Hanabusa, and members of the 
Subcommittee, my name is Michael Black and I am the Director of the 
Bureau of Indian Affairs. Thank you for the opportunity to present the 
Administration's views on H.R. 841, a bill to amend the Grand Ronde 
Reservation Act to make technical corrections, and for other purposes. 
The Department of the Interior (Department) supports H.R. 841.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, the Department has made the restoration of tribal homelands a 
priority.
    H.R. 841 amends an act to establish a reservation for the 
Confederated Tribes of the Grand Ronde Community of Oregon, Pub. L. No. 
100-425 (Sept. 9, 1988), to authorize the Secretary of the Interior to 
place in trust approximately 288 acres of real property located within 
the boundaries of the original 1857 reservation of the Confederated 
Tribes of the Grand Ronde Community of Oregon if the real property is 
conveyed or otherwise transferred to the United States by or on behalf 
of the tribe. Furthermore, the bill provides that the Secretary is to 
treat all applications to take land into trust within the boundaries of 
the original 1857 reservation as an on-reservation trust acquisition, 
and that all real property taken into trust within those boundaries 
after September 9, 1988, are to be considered part of the tribe's 
reservation.
    Again, the Department supports H.R. 841. Thank you for the 
opportunity to present testimony on H.R. 841. I will be happy to answer 
any questions you may have.
 h.r. 931--a bill to provide for the addition of certain real property 
     to the reservation of the siletz tribe in the state of oregon
    Chairman Young, Ranking Member Hanabusa, and members of the 
Subcommittee, my name is Michael Black and I am the Director for the 
Bureau of Indian Affairs. Thank you for the opportunity to present the 
Department of the Interior's (Department) views on H.R. 931, a bill to 
provide for the addition of certain real property to the reservation of 
the Siletz Tribe.
    Taking land into trust is one of the most important functions that 
the Department undertakes on behalf of Indian tribes. Homelands are 
essential to the health, safety, and welfare of the tribal governments. 
Thus, this Administration has made the restoration of tribal homelands 
a priority. This Administration is committed to the restoration of 
tribal homelands, through the Department's acquisition of lands in 
trust for tribes, where appropriate. While the Department acknowledges 
that tribes near the Siletz Tribe oppose H.R. 931, the Department 
supports H.R. 931.
    H.R. 931 would amend the Siletz Tribe Indian Restoration Act, 25 
U.S.C. Sec. 711e, to authorize the Secretary of the Interior to place 
land into trust for the Siletz Tribe. The lands lie within the original 
1855 Siletz Coast Reservation and are located in the counties of 
Benton, Douglas, Lane, Lincoln, Tillamook, and Yamhill, which are all 
located within the State of Oregon. H.R. 931 would also provide that 
such land would be considered and evaluated as an on-reservation 
acquisition under 25 CFR Sec. 151.10 and become part of the tribe's 
reservation. The bill does not make the original Siletz Reservation 
into a reservation for the Siletz Tribe or create tribal jurisdiction 
over the original Siletz Reservation.
    Thank you for the opportunity to present the Department's views on 
this legislation. I will be happy to answer any questions you may have.
                               h.r. 1410
    Good morning, Chairman Young, Ranking Member Hanabusa, and members 
of the Committee. My name is Michael Black. I am the Director of the 
Bureau of Indian Affairs at the Department of the Interior 
(Department). I am here today to provide the Department's testimony on 
H.R. 1410, the Keep the Promise Act of 2013, which is a bill that if 
enacted would prohibit Class II and Class III gaming activities on 
lands, within a defined ``Phoenix metropolitan area'', acquired in 
trust by the Secretary of the Interior for the benefit of an Indian 
tribe after April 9, 2013, and such prohibition shall expire on January 
1, 2027.
    H.R. 1410, the ``Keep the Promise Act'' would prohibit Class II and 
III gaming on any lands taken into trust for an Indian tribe by the 
Secretary of the Interior, if those lands are within the ``Phoenix 
metropolitan area,'' as defined in Section 3 of H.R. 1410, and the 
prohibition of Class II and Class III gaming on such lands taken into 
trust for an Indian tribe would retroactively begin April 9, 2013, and 
expire on January 1, 2027. The Department opposes H.R. 1410.
    H.R. 1410 does not specifically identify a tribe or amend a 
particular law, but because of the subject matter of the bill, the 
Department concludes that this bill has a similar effect as a bill 
introduced in the previous 112th Congress involving the Tohono O'odham 
Nation (Nation) and the Nation's 53.54 acre parcel (Parcel 2) in 
Maricopa County, Arizona, which the Nation has requested that the 
Secretary acquire the land in trust pursuant to the Gila Bend Indian 
Reservation Lands Replacement Act (Public Law 99-503) (Gila Bend Act).
Background
    The Tohono O'odham Nation (Nation) is a federally recognized tribe 
located in southern and central Arizona. The Nation has approximately 
30,000 enrolled members, and has one of the largest tribal land bases 
in the country.
    The San Lucy District is a political subdivision of the Nation. It 
was created by Executive Order in 1882 and originally encompassed 
22,400 acres of land. In 1960, the U.S. Army Corps of Engineers (Corps) 
completed construction of the Painted Rock Dam on the Gila River. Both 
the Bureau of Indian Affairs (BIA) and the Corps assured the Nation 
that flooding would not impair agricultural use of lands within the San 
Lucy District.
    Nevertheless, construction of the dam resulted in continuous 
flooding of nearly 9,880 acres of land within the San Lucy District, 
rendering them unusable for economic development purposes. Included 
among the destruction was a 750-acre farm that had previously provided 
tribal revenues. The loss of these lands forced a number of the 
Nation's citizens to crowd onto a 40-acre parcel of land.
Gila Bend Indian Reservation Lands Replacement Act Pub. L. 99-503
    Congress first moved to remedy the plight of the Nation's San Lucy 
District in 1982, when it directed the Secretary of the Interior to 
study the flooding and identify replacement lands within a 100-mile 
radius. After attempts to find replacement lands failed, Senators Barry 
Goldwater and Dennis DeConcini, along with then-Congressmen John McCain 
and Mo Udall, sponsored legislation to resolve the situation. Congress 
enacted the Gila Bend Indian Reservation Lands Replacement Act (Public 
Law 99-503) (Gila Bend Act) in 1986 to redress the flooding of the 
Nation's lands.
    The Gila Bend Act authorized the Nation to purchase private lands 
as replacement reservation lands. In the accompanying 1987 agreement 
between the Federal Government and the Nation, the Nation gave up its 
right and title to 9,880 acres of land and approximately 36,000 acre-
feet of Federal reserved water rights. The Gila Bend Act authorized the 
Secretary of the Interior to take up to 9,880 acres of unincorporated 
land in Pima, Pinal, or Maricopa Counties into trust for the Nation, 
subject to certain other requirements, and mandated that the land 
``shall be deemed to be a Federal Indian Reservation for all 
purposes.''
Assistant Secretary's Decision
    The Nation purchased a 53.54 acre parcel (Parcel 2) in Maricopa 
County, Arizona, and requested that the Secretary acquire the land in 
trust pursuant to the Gila Bend Act. On July 23, 2010, Assistant 
Secretary Echo Hawk issued a letter to Ned Norris, Jr., Chairman of the 
Tohono O'odham Nation, stating that the Nation's request for the trust 
acquisition of Parcel 2 satisfied the legal requirements of the Gila 
Bend Act and that the Department was obligated to, and therefore would, 
acquire the land in trust pursuant to congressional mandate. This 
decision is currently the subject of several related lawsuits, one of 
which is pending before the United States Court of Appeals for the 
Ninth Circuit.
H.R. 1410
    H.R. 1410, would negatively impact the Nation's ``all purposes'' 
use of selected lands under the Gila Bend Act by limiting the Nation's 
ability to conduct Class II and Class III gaming on such selected 
lands.
    Congress was clear when it originally enacted the Gila Bend Act in 
1986, in which it stated that replacement lands ``shall be deemed to be 
a Federal Indian Reservation for all purposes.'' By this language, 
Congress intended that the Nation be permitted to use replacement lands 
as any other tribe would use its own reservation trust lands ``for all 
purposes''.
    The Gila Bend Act was intended to remedy damage to the Nation's 
lands caused by flooding from the construction of the Painted Rock Dam. 
The United States and the Tohono O'odham Nation agreed to the terms of 
the Gila Bend Act, which included restrictions on where and how the 
Nation could acquire replacement lands. H.R. 1410 would specifically 
impact the Nation's Gila Bend Act by imposing additional restrictions 
beyond those agreed upon by the United States and the Tohono O'odham 
Nation 25 years ago. The Department cannot support legislation that 
specifically impacts an agreement so long after the fact.
    While the purpose of H.R. 1410 would be to restrict the Nation from 
conducting gaming on the 53.54 acre parcel in Maricopa County, Arizona, 
the effect of H.R. 1410 would reach all remaining selectable lands 
under the Gila Bend Act.
    H.R. 1410 would also alter established law that prohibits gaming, 
authorized under the Indian Gaming Regulatory Act (IGRA), on lands 
acquired by the Secretary into trust for the benefit of an Indian tribe 
after October 17, 1988, except in certain circumstances. The effect of 
this legislation would be to add a tribe-specific and area-specific 
limitation to the IGRA. The process for determining whether lands 
qualify for an exception to this prohibition is firmly established.
    The Department is aware that the Nation's request to acquire land 
in trust for gaming purposes in Maricopa County has been the subject of 
significant contention among tribes and local governments in the State 
of Arizona. As previously noted, the Assistant Secretary's decision on 
July 23, 2010, to approve the trust acquisition pursuant to 
congressional mandate has been the source of litigation, which is still 
pending. However, IGRA already establishes a process to determine 
whether lands are eligible for gaming, and that question is pending 
before the Department. The Department's opposition to H.R. 1410 is not 
based upon any particular analysis of whether the land in Maricopa 
County would be eligible for gaming, but rather for the other policy 
concerns expressed in this testimony.
    The Department respects Congress's authority to legislate in this 
area. However, we are concerned about establishing a precedent for 
singling out particular tribes through legislation to restrict their 
access to equal application of the law. This Administration has 
consistently held the position that fair and equal application of our 
laws toward all tribes is essential to upholding the United States' 
nation-to-nation relationship with Indian tribes.
    For these reasons, the Department opposes H.R. 1410. This concludes 
my prepared statement. I am happy to answer any questions the 
Subcommittee may have.
                                 ______
                                 
    Mr. Young. Thank you, Mr. Black.
    Mr. McSwain?

  STATEMENT OF ROBERT McSWAIN, DEPUTY DIRECTOR FOR MANAGEMENT 
 OPERATIONS, INDIAN HEALTH SERVICES, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Mr. McSwain. Good afternoon, Mr. Chairman and members of 
the Committee. I am Robert McSwain, the Deputy Director for 
Management Operations, and I had the pleasure of appearing 
before you before on a land issue.
    I am pleased to have the opportunity to testify on H.R. 
623, the Alaska Native Tribal Health Consortium Land Transfer 
Act, providing for the conveyance of certain Indian Health 
Service real property located in Anchorage, Alaska to ANTHC.
    First of all, I want to say that the Indian Health Service 
supports this bill and views it as the proposed transfer of 
furthering the special relationship the Indian Health Service 
enjoys with Indian tribes, specifically Alaska Native 
Governments in this case.
    Moreover, it actually furthers the President's Memorandum 
on Administrative Flexibility as it pertains to tribal 
governments.
    Now having said that, we do have some comments on the bill 
itself, and I just would like to point those out, in the 
interest of brevity, you have my whole statement.
    We believe that H.R. 623 could be improved in four 
particular areas. One, the conveyance language should be 
revised to allow no less than 90 days for the property to be 
transferred. Second, the environmental liability language needs 
to be clarified so that ANTHC is responsible for any 
environmental contamination which may have occurred since the 
control it assumed in 1999 to the date of conveyance.
    The reversionary clause language should be clarified to 
apply in the case of retrocession in any event, although I 
certainly would believe this is highly unlikely. We only have 
four throughout the country since 1975.
    The legal description needs to be changed to describe 
accurately the property being conveyed. We have had some later 
descriptions on that, and I can certainly respond to those.
    The whole process is now underway, and I think it would be 
important for the Committee to know we have been working with 
ANTHC on a quick claim deed, which is going through all the 
various processes that are necessary to transfer the land under 
that authority, and certainly the bill actually would transfer 
it under a warranty deed, which is one that is rare. We have 
had some experiences certainly with the previous transfer to 
the Maniilaq, and we have gone to school on that one, and it is 
our first experience, and that has occurred very satisfactorily 
to both the tribe and the Indian Health Service.
    With that, I will end my remarks, and be pleased to answer 
any questions the Committee may have. Thank you.
    [The prepared statement of Mr. McSwain follows:]
 Prepared Statement of Robert McSwain, Deputy Director for Management 
   Operations, Indian Health Service, Department of Health and Human 
                                Services
 h.r. 623--to provide for the conveyance of certain property from the 
united states to the alaska native tribal health consortium located in 
                           anchorage, alaska
    Mr. Chairman and members of the Committee:
    Good afternoon. I am Robert McSwain, Deputy Director for Management 
Operations of the Indian Health Service (IHS). I am pleased to have the 
opportunity to testify on H.R. 623, the Alaska Native Tribal Health 
Consortium (ANTHC) Land Transfer Act, providing for the conveyance of 
Indian Health Service (IHS) real property located in Anchorage, Alaska 
to ANTHC.
    The Indian Health Service (IHS) plays a unique role in the 
Department of Health and Human Services (HHS) because it is a health 
care system that was established to meet the Federal trust 
responsibility to provide health care to American Indians and Alaska 
Natives (AI/ANs). The mission of the IHS, in partnership with American 
Indian and Alaska Native people, is to raise the physical, mental, 
social, and spiritual health of AI/ANs to the highest level. The IHS 
provides comprehensive health service delivery to approximately 2.1 
million AI/ANs through 28 Hospitals, 61 health centers, 33 health 
stations and 3 school health centers. Tribes also provide healthcare 
access through an additional 16 hospitals, 235 health centers, 164 
Alaska Village Clinics, 75 health stations and 6 school health centers. 
In support of the IHS mission, the IHS and tribes provide access to 
functional, well maintained and accredited health care facilities and 
staff housing.
    H.R. 623 would provide for the conveyance of certain property 
located in Anchorage, Alaska from the Federal Government to the Alaska 
Native Tribal Health Consortium (ANTHC) in Anchorage, Alaska. ANTHC 
assumed responsibility for the provision of the IHS-funded health care 
services in 1999 under the authority of the Indian Self-Determination 
and Education Assistance Act (ISDEAA). The Federal property described 
in H.R. 623, which is used in connection with health and related 
programs in Anchorage, Alaska by the IHS, is currently in the process 
of being transferred through quitclaim deed to the ANTHC.
    On April 26, 2013, IHS executed a Memorandum of Agreement (MOA) 
with ANTHC, which sets forth terms and conditions under which easements 
will be established so IHS may transfer ownership of the Anchorage 
property to ANTHC by quitclaim deed. H.R. 623 provides for the 
conveyance of the Anchorage property from the United States to the 
ANTHC and proposes to replace the pending quitclaim deed transfer by 
authorizing the use of a warranty deed. The easements, which will be 
established under the MOA, must remain intact if a warranty deed is 
executed.
    The IHS supports this bill because it views the proposed transfer 
as furthering the special partnership that exists with American Indian 
and Alaska Native tribal governments, and, moreover, is in keeping with 
the Presidential Memorandum on Administrative Flexibility as it 
pertains to tribal governments. It is important to emphasize that, as a 
normal practice, we do not transfer properties via the warranty deed 
mechanism. However, we will support an exception in this case because 
of the ANTHC initiative to expand access to its health care system for 
IHS beneficiaries from throughout Alaska. This proposal will give the 
ANTHC flexibility to leverage additional resources because ownership of 
the property under a warranty deed will give them unencumbered 
ownership of the property described in H.R. 623.
    We believe the language, relating to the following issues needs to 
be clarified and/or revised:

    <bullet>  Conveyance language should be revised to allow no less 
than 90 days to convey the property to ANTHC;
    <bullet>  Environmental Liability language needs to be clarified so 
the ANTHC is responsible for any environmental contamination which may 
have occurred since its control of the property began in 1999, or for 
contamination that may occur or arise ``as of, or after, the date of 
the 2013 conveyance''; and,
    <bullet>  ``Reversionary Clause'' language should be clarified to 
apply in case of retrocession by ANTHC from their ISDEAA compact.
    <bullet>  Legal Description language needs to be changed to 
describe accurately the property to be conveyed.

    We believe that reasons to use this mechanism in future cases are 
limited. IHS anticipates no problems with the quitclaim deed currently 
being processed by IHS for ANTHC. Traditionally, Alaska Native 
Corporations have preferred to leave the title of their facilities 
previously operated by the IHS with the Federal Government and the 
majority of the health care facilities used by the tribes in the other 
35 States are located on tribally owned lands. This warranty deed 
transfer would be the fourth of its kind in Alaska. IHS is currently 
preparing three warranty deeds authorized by Congress to transfer 
parcels of land to the Maniilaq Association previously transferred 
through a quitclaim deed. On other numerous occasions properties were 
transferred to tribes or tribal organizations through quitclaim deeds.
    We think retrocession is unlikely. We can count only four 
retrocessions since the enactment of ISDEAA in 1975. Three were only 
small program components which have been re-assumed by the tribes. None 
of these were in the Alaska Area.
    We look forward to working with you, Mr. Chairman, on measures like 
these to improve the health of the Alaska Native population. Mr. 
Chairman, this concludes my testimony. I appreciate the opportunity to 
appear before you to discuss H.R. 623. I will be happy to answer any 
questions the committee may have. Thank you.
                                 ______
                                 
    Mr. Young. Thank you, sir.
    The next panelist is Mr. Pena.

STATEMENT OF JIM PENA, ASSOCIATE DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, U.S. FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Pena. Thank you, Mr. Chairman, Ranking Member Hanabusa, 
and members of the Committee. Thank you for the opportunity to 
appear before you today to provide the Department of 
Agriculture's views on H.R. 740, the Southeast Alaska Native 
Land Entitlement Finalization and Jobs Protection Act, and H.R. 
1306, the Southeast Alaska Native Land Conveyance Act.
    H.R. 740 is a comprehensive bill. H.R. 1306 is what might 
be called a stopgap measure until a comprehensive bill can be 
completed.
    I will first address H.R. 740. The Department of 
Agriculture supports the principal objectives of this 
legislation to finalize Sealaska's remaining Alaska Native 
Claims Settlement Act entitlement, and promptly complete 
conveyance of it.
    Under Secretary Harris Sherman expressed such support 
nearly 2 years ago during hearings in both Houses on similar 
legislation in the 112th Congress. The Under Secretary 
concluded his testimony by saying the Department would continue 
to work with Sealaska and all interested parties to resolve 
concerns and find solutions that worked for everyone.
    We are grateful that H.R. 740 incorporates many of the 
provisions that would move us toward that solution. In this 
way, it is a significant improvement over previous legislation.
    However, H.R. 740 leaves out key provisions essential to a 
balanced solution and adds others that make reaching such a 
solution more difficult.
    Consequently, the Department of Agriculture does not 
support enactment of H.R. 740 as written. We appreciate the 
work the Chairman has put in to this legislation and recognize 
its importance to the State of Alaska. We hope to continue 
working with Sealaska and the Committee to resolve the 
remaining concerns and find solutions acceptable to all 
parties.
    Now, I will address H.R. 1306, the Southeast Alaska Native 
Land Conveyance Act. Under H.R. 1306, two of the parcels 
contained in H.R. 740, the North Election Creek and the North 
Cleveland parcels, would be conveyed to Sealaska within 60 days 
of enactment of the bill.
    These two parcels would be conveyed without the carefully 
negotiated provisions of 740 related to special use 
authorizations and public access that many stakeholders see as 
essential.
    We believe it is far better to resolve the remaining issues 
associated with Sealaska's land entitlement selections with a 
comprehensive settlement such as H.R. 740 than to enact partial 
measures such as 1306 that does not finalize Sealaska's 
remaining entitlement.
    For these reasons, USDA does not support enactment of H.R. 
1306.
    This concludes my testimony, and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Pena follows:]
Prepared Statement of Jim Pena, Associate Deputy Chief, National Forest 
 System, U.S. Forest Service, U.S. Department of Agriculture, on H.R. 
                           740 and H.R. 1306
 h.r. 740, the ``southeast alaska native land entitlement finalization 
                       and jobs protection act''
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. 740, the ``Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act,'' and, the 
``Southeast Alaska Native Land Conveyance Act.'' The former is a 
comprehensive bill; the latter is what might be called a stopgap 
measure until a comprehensive bill can be completed. I will now address 
H.R. 740, the comprehensive measure, with H.R. 1306 addressed in 
separate written testimony.
    H.R. 740 would allow the Sealaska Corporation, a Regional 
Corporation established under the Alaska Native Claims Settlement Act 
of 1971 (ANCSA), to obtain its remaining land entitlement under ANCSA 
from portions of the Tongass National Forest outside of the withdrawal 
areas to which Sealaska's selections are currently restricted by law.
    The Department of Agriculture supports the principal objectives of 
this legislation, to finalize Sealaska's remaining ANCSA entitlement, 
and promptly complete conveyance of it. Under Secretary Harris Sherman 
expressed such support nearly 2 years ago during hearings in both 
houses on similar legislation of the 112th Congress. The Under 
Secretary concluded his testimony by saying the Department would 
continue to work with Sealaska and all interested parties to resolve 
concerns and find solutions that work for everyone.
    Soon after those hearings, at the request of Senators Murkowski and 
Bingaman, USDA and the Forest Service began working closely with Senate 
staff, the Department of the Interior, Sealaska, and others to develop 
a balanced, compromise bill to resolve the long-standing issues that 
have delayed the completion of Sealaska's ANCSA entitlement. We are 
grateful that H.R. 740 incorporates many of the provisions developed in 
those discussions; in this way, it is a significant improvement over 
previous legislation. However, H.R. 740 leaves out key provisions 
essential to a balanced solution and adds others that make reaching 
such a solution more difficult. Consequently, the Department of 
Agriculture opposes enactment of H.R. 740 unless it is amended as 
described in this statement.
    Under H.R. 740, if the Sealaska board of directors approves the 
conveyances contemplated by the bill within 90 days of its enactment, 
the Secretary of the Interior would convey to Sealaska 25 parcels of 
Federal land on the Tongass National Forest totaling some 69,235 acres 
within 60 days. Sealaska would also be allowed to apply within 2 years 
to the Secretary of the Interior for 127 cemetery sites and historical 
places. This conveyance would be limited to a total of 840 acres. If 
any of these sites were rejected, Sealaska could apply for additional 
cemetery sites. These conveyances totaling 70,075 acres of Federal land 
would be the full and final satisfaction of Sealaska's remaining land 
entitlement under ANCSA.
    USDA has several significant policy concerns with H.R. 740: It 
excludes a provision to offset the impact of conveying thousands of 
acres of young growth forest to Sealaska; it also excludes provisions 
to establish conservation areas to balance the overall impacts of the 
bill and other provisions that would bolster the protection of three 
highly productive salmon streams on lands being conveyed to Sealaska; 
it would allow Sealaska to apply for 127 cemetery sites and historical 
places, scores of which are in existing Wilderness areas; and it would 
require expedited conveyance of more parcels of Federal lands that have 
not been agreed to in the negotiations conducted over the last 2 years.
    USDA has serious concerns with the potential effects of the bill on 
the transition to young growth forest management in southeast Alaska. 
USDA is making extensive efforts to transition the Tongass timber 
program, and the timber industry in southeast Alaska, away from a 
reliance on old-growth timber towards a reliance primarily on the 
harvest of young growth stands. We believe this transition is essential 
to the long-term social and economic sustainability of the industry, 
and of the local economies of the communities in southeast Alaska.
    Under H.R. 740, many of the oldest second-growth stands on the 
Tongass would be conveyed to Sealaska. That would accelerate Sealaska's 
young growth program, but substantially delay the development of the 
Forest Service's young growth program on the Tongass unless additional 
steps are taken. The steps recommended by the Administration relate to 
the ``Culmination of Mean Annual Increment,'' or CMAI. This is a 
provision of the National Forest Management Act which, in lay terms, 
generally limits the harvest of young growth forest stands until they 
have reached their maximum rate of growth. In order for the Tongass to 
continue its transition to harvesting young growth without any delay 
caused by the transfer of lands to Sealaska, the Administration 
recommends that a limited amount of young growth timber on the Tongass 
be expressly exempted from CMAI. This exemption is not precedent-
setting; it would apply only to the Tongass National Forest, due to the 
unique situation presented by this legislation. The existing CMAI 
provision contained in the NFMA would not be amended. We recognize that 
this issue is controversial, and negotiations are continuing among 
several parties. The absence of the provision recommended by the 
Administration poses a primary obstacle to enactment of H.R. 740.
    The conservation areas and stream buffer provisions of the Senate 
companion bill, S. 340, are also viewed as essential components of a 
balanced, compromise solution to the long-standing debate over how to 
resolve Sealaska's remaining ANCSA land entitlement. We urge the 
Committee to add those provisions to H.R. 740.
    Section 6 of H.R. 740 would allow Sealaska to apply for up to 127 
additional cemetery sites and historical places. Forty-six of these are 
within congressionally designated Wilderness areas on the Tongass 
National Forest. One is on private land and is not listed in the Wilsey 
and Ham report referenced in the bill. Three more sites are within the 
25 parcels of Federal lands that would be conveyed under Section 5 of 
H.R. 740. Finally, one of the sites has been selected by the State of 
Alaska and is not available for conveyance to Sealaska. Therefore, we 
recommend that Section 6 of H.R. 740 be amended to limit the number of 
sites to 76 and otherwise conform with Section 5 of the Senate bill, S. 
340.
    Finally, H.R. 740 would convey seven parcels of land not agreed to 
in the discussions that have taken place over the last 2 years. USDA 
has consistently recommended limiting the number of small inholdings on 
the Tongass, to minimize the confusion and inconvenience to the public 
and management problems that result from them. Each of these sites is 
believed to have potential for future hydropower development. All were 
specifically rejected during previous discussions, due partly to pre-
existing development interests. Energy development has been proposed 
and abandoned at two of the sites due to conflicts with their high 
recreational use. Additionally, one of these sites is designated as a 
Special Interest Area in the Tongass Forest Plan to protect the area's 
recreational values. For all these reasons, we urge the Committee to 
amend H.R. 740 to reflect the compromise package of conveyances 
contained in S. 340.
    There are several other technical amendments that we believe are 
needed. We hope to continue working with Sealaska and the Committee on 
these issues.
     h.r. 1306, the ``southeast alaska native land conveyance act''
    Under H.R. 1306, two of the parcels contained in H.R. 740, the 
North Election Creek and North Cleveland parcels, would be conveyed to 
Sealaska within 60 days of enactment of the bill. These two parcels, 
which include 3,380 acres of Federal land, would be conveyed without 
the carefully negotiated provisions of H.R. 740 related to special use 
authorizations and public access that many stakeholders see as 
essential. We believe that it is far better to resolve the remaining 
issues associated with Sealaska's land entitlement selections under 
ANCSA with a comprehensive settlement such as H.R. 740 with the changes 
already discussed, than to enact a piece-meal, stopgap measure such as 
H.R. 1306 that does not finalize Sealaska's remaining entitlement.
    For these reasons, USDA opposes enactment of H.R. 1306.
    This concludes my testimony; I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Young. Thank you, sir. Questions? Ms. Hanabusa?
    Ms. Hanabusa. Thank you, Mr. Chairman. First of all, I 
would like to begin with Director McSwain. I just want to 
clarify what your issues are with H.R. 623. You said you do not 
like the 30 days and you would prefer it to be 90 days, and the 
other issue I heard was a quick claim versus a warranty deed.
    Is there anything else I am missing in your objections or 
your concerns?
    Mr. McSwain. The other issues I raised was simply the legal 
description, the reversionary clause, and the environmental 
language, but to answer your question you just raised, the 
difference between a quick claim and certainly a warranty deed, 
the quick claim is one that is authorized under the Indian 
Self-Determination Act.
    It requires us to have a reversionary clause in the event 
the tribe ever chooses to return the program to us under a 
retrocession. So, it is a nice little mechanical process, but 
the warranty deed removes that reversionary clause, and we then 
transfer the land in total without encumbrances, except for 
agreed upon easements.
    Ms. Hanabusa. You would want the reversionary clause. You 
would like a quick claim because of the reversionary clause 
aspects of it so that in the event, for whatever reason, the 
health corporation no longer does what it is intended to do, 
those lands will return plus the functions will return to the 
Government? Am I understanding correctly?
    Mr. McSwain. That is correct, because then the Government 
would be responsible then for carrying out the services and 
would need a location to do that.
    Ms. Hanabusa. Thank you. Director Black, I am going to 
focus on 1410. You said you do not really have any issues with 
841 or 931, but you do have issues with 1410.
    You basically are concerned that with the role of Congress, 
that Congress is playing in the resolution of this particular 
dispute, in other words, they have come to Congress to ask for 
a resolution between basically the Plaintiffs and the 
Defendants in a particular lawsuit that is pending. Is that 
correct?
    Mr. Black. I think the nexus of the lawsuits would be what 
is on 1410; yes.
    Ms. Hanabusa. Let me ask you this, because it does trouble 
me that we are trying to resolve an issue between basically not 
only one tribe but a group of tribes on one side and one nation 
on the other side.
    Now the problem I have is in reading the recent decision 
that came down about a couple of weeks ago, it is very clear 
there are certain issues that the court could not resolve, and 
because of the fact they are sovereign nations, they would have 
had to waive their sovereign immunities before certain types of 
arguments could be heard.
    In particular, those in equity versus those in compact or 
those in contract. Now, what I want to know is does Interior or 
any part of the Interior, whether it is BIA or whoever, have a 
mechanism by which they can address these concerns prior to 
them coming to Congress?
    If they are not justiciable, for lack of a better term, and 
they have no place else to go, it would seem Congress is where 
the are going to come.
    Do you have a mechanism to basically give them an 
alternative to coming to Congress?
    Mr. Black. I would probably have to go back and provide you 
a better answer than I am probably going to give you right now, 
but on the face of it, I would say, no, we do not. We are 
largely implementing the Gila Bend Act on behalf of the Tohono 
O'odham Nation here in their acquisition of this 53.54 acres of 
land that happens to be in the Glendale area there within the 
Phoenix area.
    Ms. Hanabusa. I understand that, Mr. Black. I am not being 
specific to the particular dispute that is before us. What I am 
asking you about is that issue generally, when two tribes, 
sovereign in and of themselves, have a dispute such as this 
where sovereign immunity is not waived for the judicial system 
to make the decision, do you know of any mechanism within 
Interior that could assist in that resolution?
    To make it comparable, like being able to go to the Hague 
Tribunal or maybe the United Nations or something like that. Do 
you have a mechanism like that?
    Mr. Black. I do not know of anything right offhand, but I 
will take that back and provide the information if there is 
anything out there.
    Ms. Hanabusa. If you could, I would appreciate it. It seems 
like in a situation where we are at a stalemate such as this, 
they have no choice and we would be the final arbiter.
    With that, Mr. Chair, I yield back.
    Mr. Young. I thank the madam. Mr. Lamalfa?
    [No response.]
    Mr. Young. Who is next? My good friend, you were here first 
so I will let you ask the question first.
    Mr. Grijalva. Thank you. For my edification, does 
Sealaska's proposed selections include high value old growth 
timber as part of the selections they made?
    Mr. Pena. Yes, the parcels that we have negotiated with 
Sealaska includes some high value old growth timber. It also 
involves second growth timber, a mix of timber types.
    Mr. Grijalva. Conservation priority watersheds, are they 
part of it as well?
    Mr. Pena. Did you say priority watersheds?
    Mr. Grijalva. Yes.
    Mr. Pena. I am not sure what that term means. The Tongass 
Forest plan does not use the term ``priority watersheds,'' but 
I know there are important watersheds included in the parcels. 
We have some concerns about protection for those, particularly 
three important salmon rivers and protections on those.
    Mr. Grijalva. Can you define ``high grading'' for me?
    Mr. Pena. High grading, in my context, I am a forester so 
most of my career is in putting up timber sales and dealing 
with timber sales, and high grading in that context has been 
going into a particular area and cutting the best trees and 
leaving the rest.
    I am not exactly sure what the context is that you are 
using, but----
    Mr. Grijalva. Targeting logging old growth as a priority.
    Mr. Young. Will the gentleman yield?
    Mr. Grijalva. Absolutely.
    Mr. Young. I hope you are not misinterpreting, ``old growth 
timber'' in Southeast is truly old growth and is dead, it has 
little value because we eliminated the pulp mills. Those are 
the facts. Old growth is not naturally good timber. It is the 
new timber that we are frankly interested in.
    Mr. Grijalva. The point I am leading to is that the Tongass 
Timber Reform Act has an explicit ban on that harvesting, if I 
am not correct. I want to know if that ban would be applicable 
to the legislation that we are talking about.
    Mr. Pena. OK.
    Mr. Grijalva. Given the Chairman's comments.
    Mr. Pena. Thank you for that clarification. The Tongass 
Timber Reform Act does reference a prohibition on using the 
term ``high grading,'' and it is my understanding that the act 
specifically applied that to two timber sales that at the time 
were in question, and that beyond those two timber sales, there 
is no prohibition on using the term ``high grading'' on the 
Tongass National Forest.
    Mr. Grijalva. Thank you. Let me just ask on H.R. 1410 
before my time is up. You mentioned the Administration is 
concerned that H.R. 1410, if enacted, would set a negative 
precedent for singling out tribes to make them ineligible for 
legislation that was intended to apply equally to all tribes.
    H.R. 1410 is that kind of a slippery slope in that respect, 
and why would that be bad policy in terms of the precedent it 
sets or does not set? Sir?
    Mr Black. H.R. 1410 would directly amend IGRA and make the 
opportunities available to all tribes, unavailable to one tribe 
in this case. It is also a slippery slope largely because it 
sets precedence for disturbing existing settlements that are 
out there, such as the Gila Bend Act.
    Mr. Grijalva. The legal complications when this whole issue 
began, my position and I think at the time most of the 
delegation's position was to let the court work its will. I 
think there have been three administrative decisions, eight 
court decisions, and the most recent one made seven, that 
summary judgment with two areas to be consulted later, some 
time at the end of May, that ruled in favor of the O'odham 
Nation, so this legislation, if it is hurried, past the 29th, 
would preempt all those court decisions and administrative 
hearings and decisions of record that have happened up to this 
point; correct?
    Mr. Black. If you do not mind, sir, I am going to turn this 
question over to Maria Wiseman.
    Mr. Grijalva. Please.
    Ms. Wiseman. Thank you. I am Maria Wiseman, Associate 
Deputy Director of the Office of Indian Gaming. You are right, 
there have been several decisions on these matters, one on the 
Secretary's decision to take the land in trust in 2010, and 
that has been litigated before the district court and in the 
9th Circuit and now it is pending in the 9th Circuit.
    Up until this point, the Secretary has prevailed in the 
litigation, and the courts have determined it could be lawfully 
taken into trust under the Gila Bend Act.
    When you are talking about the decision that came out last 
week, which was a decision about the compact itself, the 
district court ruled that on its face, the compact was not 
violated. There is no prohibition on gaming in the Phoenix 
metropolitan area, and therefore, the compact is not violated.
    We are following these cases and these will determine the 
outcome really of these issues.
    Mr Grijalva. I think that was the original intent, Mr. 
Chairman. I know this is a constituent issue. It is a 
constituent issue for me as well, and I know how important that 
is to you, Mr. Chairman. The O'odham Nation is in the district 
that I happen to have the privilege to represent, so their 
interests are important as constituents as well.
    I mention that because Ranking Member Markey and I had 
asked for a continuance on this until the May 29th re-hearing 
with the judge in terms of the two items to be further 
discussed and an opinion on, and to allow the full process of 
the court to work its will. This legislation would not allow 
that. One of the reasons for the opposition on my part is 
exactly that, and I yield back.
    Mr. Young. Thank you, sir. Mr. Ruiz?
    Dr. Ruiz. Thank you very much. The first question, Director 
Black, is are local counties given a voice to either approve or 
object to land into trust applications under the current on or 
off reservation land into trust criteria?
    Mr. Black. Yes, sir, they are. It varies. An off 
reservation trust application, the concerns, comments, 
objections of State and county local governments are given 
probably a little more weight, a little more analysis than they 
are on an on reservation application.
    Dr. Ruiz. What was their response to this scenario?
    Mr. Black. From?
    Dr. Ruiz. From the county, the local counties. Do they have 
any concerns on H.R. 1410?
    Mr. Black. That, I do not know about, sir.
    Dr. Ruiz. OK. Does the Secretary take land into trust over 
the objections of impacted non-Indian communities?
    Mr. Black. We have in the past, yes, sir. I am sorry. I 
apologize. I was a little confused with what bill you were 
referring to exactly. Yes, there were concerns that did come in 
on the old bill or the Tohono O'odham.
    Dr. Ruiz. Can you elaborate on that more?
    Mr. Black. I do not have the specifics of what the exact 
objections were. I think a lot of those are some of the cases 
that have been brought before in litigation.
    Dr. Ruiz. Would H.R. 1410 amend the exceptions to gaming on 
after acquired lands under the Indian Gaming Regulatory Act?
    Mr. Black. On that question, sir, if you do not mind, I 
would like to turn that over to Maria.
    Dr. Ruiz. OK.
    Ms. Wiseman. Thank you. Well, I think it certainly would 
affect those exceptions because the bill prohibits all gaming, 
Class II and Class III inside of that area, and IGRA would 
allow that, it would allow Class II and Class III inside those 
areas. It really does effectively limit that, so yes.
    Dr. Ruiz. OK. I yield back my time.
    Mr. Young. Thank you. On H.R. 1410, Mr. Black, the concern 
I have, the way I have followed this, and in the last hearing 
we had, all the tribes signed the compact. The public was sold 
that compact through advertisement and it was a compact that 
was agreed there would be no more advanced gambling within the 
Phoenix area. How do we justify you taking land in the trust 
and having gambling take place when that compact was passed? It 
had to be passed by the State, by the way. How do you 
arbitrarily break the contract?
    Mr. Black. First, let me answer kind of the first part of 
the question and then turn it over to Maria, if that is OK, Mr. 
Chairman.
    Mr. Young. Fine.
    Mr. Black. We brought land into trust under the Gila Bend 
Act, which specified under that act that the tribes can bring 
land into trust for all purposes. Beyond that, on the specifics 
of the compact, I know Maria has a lot more understanding of 
that and how that worked out and Prop 202 in Arizona. I would 
ask her to expand on that.
    Mr. Young. On the compact signed by the State Governor and 
signed by all the tribes, including this one the argument is 
about. How do you break the contract or compact?
    Ms. Wiseman. Thank you. The compact itself in Section 3(j) 
identifies the areas that can be gamed in, and in that Section 
3(j), there is no prohibition on gaming in the Phoenix 
metropolitan area.
    When we look really closely at this, and there are 
limitations in the compact on the number of machines and the 
number of casinos, but there is no limitation that pertains to 
the Phoenix metropolitan area.
    Mr. Young. That is not what they sold to the public. That 
is not what was signed. I have the letters. No more gambling in 
the Phoenix area. That is in the compact.
    Ms. Wiseman. If I may, if you were to look at Section 3(j), 
and I know you have, it actually does not have a prohibition. 
When we are looking at the validity of a compact or a violation 
of the compact, we have to look to the words of the compact 
itself.
    I know the court, the district court, in their opinion last 
week, was raising some other issues and they are still looking 
at that.
    In that opinion, the court said the compact itself, the 
words of the compact do not prohibit gaming in the Phoenix 
metropolitan area, so there is no violation of the compact.
    Mr. Young. Well, do any of the promises to the public have 
any binding effect?
    Ms. Wiseman. I think that is an issue for the courts, and 
the court is looking at that. They are looking under the State 
law. In terms of the compact itself and what was in the compact 
and what was agreed to by the voters in Prop 2 and what was 
signed by the State and by the tribe, there is no prohibition.
    Mr. Young. Well, again, I would like to yield to my Ranking 
Member, she is a brighter lawyer than I am. Madam Senator, 
would you mind addressing that for me?
    Ms. Hanabusa. I am interested that the representations that 
are made here today are accurate and correct because this is a 
critical issue, and like my colleague, Congressman Grijalva, I 
also feel that we must wait or we should wait to hear the final 
briefings on this issue.
    I have the Decision and the Order. I disagree with you on a 
couple of things. One is that the court was very clear that 
because the sovereign immunity claims were raised on the 
contract or the compact, promissory estoppel, which would be 
the basis of the arguments raised that my good colleague here 
is saying, are barred because of the fact that you did not 
waive sovereign immunity or they did not waive sovereign 
immunity.
    However, it is also clear from the decision that the court 
did not completely dispose of this case because there are 
issues under the restatement of contracts, specifically section 
201, subsection (2), I believe it is, because of the facts that 
the issues that have to be raised, and this is where the 
further briefing's are going to take place to the court, and if 
I can read it for the record because of the fact that I think 
this is very critical for all of us to understand, that the 
plaintiffs claim ``The nation actively encouraged the 
understanding of the compact while secretly planning to build a 
casino in the Phoenix metropolitan area. plaintiffs argue that 
this is enough under 202(2) of the restatement second of 
contracts for the court to interpret the compact in accordance 
with the State's understanding.
    Additional briefing is required before the court can decide 
whether this claim can be resolved by summary judgment or 
whether a trial is required.''
    This is essential, and that is why my questions of Mr. 
Black were when the tribes do not waive sovereign immunity on a 
claim, and we all know promissory estoppel is when an equity as 
opposed to a contract claim, and because it was not waived, the 
court clearly said ``Because the claim is not based on the 
compact, it does not fall within section 2710, subsection 
(d)(7)(a)(ii), waiver of sovereign immunity.''
    I think it is very critical that when you come before us 
and you say there are outstanding issues, that we be very clear 
as to what was decided, what cannot be decided, and the reason 
why it cannot.
    Chairman Young's questions are about really technically 
that which rises in promissory estoppel, which is an equitable 
claim and therefore cannot be determined under sovereign 
immunity.
    That is what I think is really unfortunate about this 
particular situation because I think when you strip everything 
down, it does come down to were there representations made that 
not only the other tribes may have relied upon but in addition 
to that, under Proposition 202, I hope I have that number 
correct, as well as the voters when they voted and the Governor 
when signed.
    All I am saying is we need to have the accurate description 
when you come before this Committee and you are telling us what 
the court said. I think we can all agree many of the issues, 
yes, were disposed of, notwithstanding it is still not a final 
decision and this order could result, depending on what the 
further briefing has, with us continuing or this issue 
continuing to trial on restatement of contracts, 201, 
subsection (2).
    Do you agree with my reading of this order?
    Ms. Wiseman. No, I do not, and I appreciate the 
clarification. There is certainly more briefing to be done. 
There are these questions about what was said and what was 
agreed to. That is still pending. That is absolutely correct.
    I think this case could still go to appellate court and 
further. You are absolutely right. The district court made its 
decision and we have that, but we expect further litigation on 
this point.
    Ms. Hanabusa. They did not quite make their full decision 
because they are expecting further briefing which could 
determine whether this thing goes further on to trial.
    Ms. Wiseman. You are right.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    Mr. Young. I will tell you we had this--what was that?
    Mr. McSwain. Maniilaq.
    Mr. Young. Maniilaq transfer, and work with my staff and 
let's see if we can get this done as quickly as possible.
    Mr. McSwain. If I can just respond.
    Mr. Young. Yes.
    Mr. McSwain. I was thinking about why at least 90 days, our 
experience with Maniilaq is we had asked for 180. We did it in 
90. It takes about that long because of some phase two issues 
we have with the environmental, but we have the experience now 
having done one. We can do it in 90 if the bill were to change 
to 90, we can do it in 90 as opposed to what we asked for. I 
think in the Maniilaq bill, we asked for 180 days.
    Because we have done so much of the work already and so 
fresh with the quick claim that is currently pending, we could 
wrap this up in 90 days.
    Mr. Young. Good. All right. I want to thank the panel. You 
got off easy, Mr. Black. I got a call from your boss, be easy 
on him, you know.
    [Laughter.]
    Mr. Young. I would like to call up the next panel. Andy 
Teuber, Board Chair and President, Alaska Native Tribal Health 
Consortium. Reyn Leno, Tribal Council Chair, The Confederated 
Tribes of Grand Ronde. Delores Pigsley, Tribal Chairman, 
Confederated Tribes of Siletz Indians of Oregon. Byron Mallott, 
Member, Board of Directors, Sealaska Corporation, who is 
accompanied by Jaeleen Kookesh Araujo, General Counsel of 
Sealaska.
    Mr. Teuber, you are up first.

STATEMENT OF ANDY TEUBER, CHAIRMAN AND PRESIDENT, ALASKA NATIVE 
                    TRIBAL HEALTH CONSORTIUM

    Mr. Teuber. Good afternoon, Chairman Young, and Ranking 
Member Hanabusa, members of the Committee. My name is Andy 
Teuber. I am the Chairman and President of the Alaska Native 
Tribal Health Consortium.
    Thank you for the opportunity to testify in support of H.R. 
623. ANTHC, as it is known, is a statewide tribal health 
organization that serves all 229 federally recognized tribes 
and over 140,000 Alaskan Natives and American Indians in the 
State of Alaska.
    We are the largest and most comprehensive tribal health 
organization in the United States. Through a self governance 
compact, ANTHC provides health services that were previously 
provided by the Indian Health Service.
    ANTHC jointly operates the Alaska Native Medical Center 
with Southcentral Foundation. Located in Anchorage, this 150 
bed hospital is the statewide tertiary care center for over 
140,000 Alaskan Natives and American Indians who reside in 
Alaska.
    Annually, we provide over 287,000 outpatient visits; 54,000 
emergency department visits; over 8,000 inpatient admissions; 
1,500 infant deliveries, and 10,000 surgical procedures.
    We believe that ANMC is one of the finest facilities in the 
Indian health service. As a Level II Trauma Center, ANMC is the 
highest certified trauma hospital in Alaska. This recognition 
certifies our ability to provide quality care to people who 
suffer traumatic injuries 24 hours a day, 365 days a year.
    Today, Alaska Natives are healthier and living longer as a 
result of the care provided at ANMC and the Alaska Tribal 
Health System.
    However, there is much work to be done. One of our main 
challenges is meeting the increased demand for health services 
of an ever increasing population of Alaskan Natives. The 
population we serve has increased by over 34 percent since ANMC 
first opened, increasing from about 105,000 in 1997 to nearly 
142,000 in 2012.
    To meet current and future needs, ANTHC has developed a 
comprehensive campus facilities master plan. We have identified 
an immediate need for increased patient housing to increase 
capacity and throughput at ANMC.
    As ANMC serves as the referral hospital for tertiary cases 
in the entire health system, many of the patients we serve are 
from villages many hundreds of miles outside of Anchorage. For 
these individuals, the biggest challenge in accessing specialty 
care services at ANMC is the lack of housing and an affordable 
place to stay while in Anchorage.
    ANTHC has undertaken extraordinary efforts to accommodate 
traveling patients as best we can with limited resources. 
However, the cost of providing housing to patients and escorts 
under the current system has risen dramatically and will be 
unsustainable in the future.
    In 1999, the cost of providing housing for patients and 
escorts was $600,000. This cost has increased eight fold, to 
$4.8 million in 2012. Because we receive only minimal 
reimbursements for providing patient housing, we expect an 
estimated net loss of $4.5 million for fiscal year 2012 for 
providing this patient housing.
    This cost is borne solely by ANTHC from ANMC operating 
funds and our current capacity for patient residential housing 
is 52 rooms at our ``Q House,'' as it is known, Quyana House, 
managed by ANMC, and 80 hotel rooms that ANMC contracts for at 
considerable expense.
    In order to provide improved patient care and contain costs 
for providing this housing to our patients who receive care at 
ANMC, we need to construct a 170 room residential and 
outpatient guest room facility. Estimated construction cost of 
the housing facility is $40 million. Currently, this cost would 
increase an estimated 7 percent due to inflation for every year 
of delay.
    The construction of the housing facility would save ANTHC 
an estimated $2 million per year. The patient housing facility 
will be built on the closest open land to ANMC located directly 
across the road north of ANMC. The housing facility will be 
connected to ANMC via a sky bridge maximizing patient care and 
minimizing transportation expenses.
    The title to this land is currently held by the Indian 
Health Service. There are no buildings on the 2.79 acre parcel 
ANTHC is seeking to obtain title to and it is currently being 
used for parking.
    To address parking issues that may arise from this 
displacement, ANTHC is in a design phase of constructing a 
parking garage on the parcel.
    In order to obtain the financing necessary to achieve our 
long term expansion needs, it is necessary that ANTHC hold an 
unencumbered title to the land on which the patient housing 
facility will be located. This can only be accomplished through 
Federal legislation, thus the need for H.R. 623.
    We respectfully request favorable consideration of H.R. 
623, which will allow us to successfully continue to fulfill 
the Federal Government's trust responsibility by providing for 
the current and future health care needs of Alaskan Natives and 
American Indians.
    This concludes my testimony, Mr. Chair. I would be happy to 
respond to any questions that may arise from prior testimony, 
and thank you very much.
    [The prepared statement of Mr. Teuber follows:]
   Prepared Statement of Andy Teuber, Chairman and President, Alaska 
                    Native Tribal Health Consortium
   h.r. 623--alaska native tribal health consortium land transfer act
    Good afternoon Chairman Young and members of the Committee. My name 
is Andy Teuber. I am the Chairman and President of the Alaska Native 
Tribal Health Consortium. Thank you for the opportunity to testify in 
support of H.R. 623.
    ANTHC is a statewide tribal health organization that serves all 229 
federally-recognized tribes and over 140,000 Alaska Natives and 
American Indians in Alaska. We are the largest, most comprehensive 
tribal health organization in the United States. Through a Self-
Governance Compact, ANTHC provides health services that were previously 
provided by the Indian Health Service.
    ANTHC jointly operates the Alaska Native Medical Center (ANMC) with 
Southcentral Foundation. Located in Anchorage, this 150-bed hospital is 
the statewide tertiary care center for over 140,000 Alaska Natives and 
American Indians who live in Alaska. Annually, we provide over:

    <bullet>  287,000 outpatient visits;
    <bullet>  54,000 emergency department visits;
    <bullet>  8,000 inpatient admissions;
    <bullet>  1,500 infant deliveries; and
    <bullet>  10,000 surgical procedures.

    We believe ANMC is one of the finest facilities in the Indian 
health system. As a Level II Trauma Center, ANMC is the highest 
certified trauma hospital in Alaska. This recognition certifies our 
ability to provide quality care to people who suffer traumatic injuries 
24 hours a day, 365 days a year. Today, Alaska Natives are healthier 
and living longer as a result of the care provided at ANMC and by the 
Alaska Tribal Health System.
    However, there is much more work to be done. One of our main 
challenges is meeting the increased demand for health services of an 
ever-increasing population of Alaska Natives. The population we serve 
has increased by over 34 percent since ANMC first opened, increasing 
from about 105,000 in 1997 to nearly 142,000 in 2012. To meet current 
and future needs ANTHC has developed a comprehensive campus facilities 
master plan. We have identified an immediate need for increased patient 
housing to increase capacity at ANMC.
    As ANMC serves as the referral hospital for tertiary cases for the 
entire Alaska Tribal Health System, many of the patients we serve are 
from villages many hundreds of miles outside of Anchorage (see Exhibit 
A, attached). For these individuals, the biggest challenge in accessing 
specialty services at ANMC is the lack of housing and an affordable 
place to stay while in Anchorage. ANTHC has undertaken extraordinary 
efforts to accommodate traveling patients as best we can with limited 
resources. However, the cost of providing housing to patients and 
escorts under the current system has risen dramatically and will be 
unsustainable in the future.
    In 1999 the cost of providing housing for patients and escorts was 
$600,000. This cost has increased 8-fold to $4.8 million in FY 2012. 
Because we receive only minimal reimbursements for providing patient 
housing, we expect an estimated net loss of $4.5 million for in FY 2012 
for providing patient housing. This cost is borne solely by ANTHC from 
ANMC operating funds. Our current capacity for patient residential 
housing is 52 rooms at our Quyana House, managed by ANMC, and 80 hotel 
rooms that ANMC contracts for at considerable expense.
    In order to improve patient care and contain costs for providing 
housing to patients (and their escorts) who receive care at ANMC, we 
need to construct a 170-room residential and outpatient guest room 
facility. Estimated construction cost of the housing facility is $40 
million currently (this cost would increase an estimated 7 percent due 
to inflation for every year of delay). The construction of the housing 
facility would save ANTHC an estimated $2 million per year upon 
completion.
    The Patient Housing Facility will be built on the closest open land 
to ANMC, which is located directly across the road, north of ANMC. The 
housing facility will be connected to ANMC via a sky bridge, maximizing 
patient care and minimizing transportation expenses.
    The title to this land is currently held by the Indian Health 
Service. There are no buildings on the 2.79 acre parcel ANTHC is 
seeking to obtain title to and it is currently being used for parking 
(the 2.79 acre parcel is in the process of being subdivided from a 
larger 4.19 acre parcel--see Exhibits B and C, attached). To address 
parking issues that may arise from displacement, ANTHC is also in the 
design phase of constructing a parking garage on the parcel.
    In order to obtain the financing necessary to achieve our long-term 
expansion needs, it is necessary that ANTHC hold an unencumbered title 
to the land on which the Patient Housing Facility will be located on. 
This can only be accomplished through Federal legislation, thus the 
need for H.R. 623.
    We respectfully request favorable consideration of H.R. 623, which 
will allow us to successfully continue to fulfill the Federal 
Government's trust responsibility by providing for the current and 
future health care needs of Alaska Natives and American Indians 
throughout Alaska.
    This critical legislation would help to improve the accessibility 
of much needed health services for Alaska Natives and American Indians 
whose health care status, despite years of progress, continues to lag 
far behind other populations in Alaska and the rest of the United 
States.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
    Mr. Young. Thank you, Andy.
    Mr. Leno?

STATEMENT OF REYN LENO, TRIBAL COUNCIL CHAIR, THE CONFEDERATED 
                     TRIBES OF GRAND RONDE

    Mr. Leno. Thank you. Chairman Young, Ranking Member 
Hanabusa, members of the Subcommittee, my name is Reyn Leno, 
and I am the Tribal Council Chairman of the Confederated Tribes 
of Grand Ronde in Oregon.
    Thank you for providing me the opportunity to testify in 
support of H.R. 841. I want to thank Representative Schrader 
for introducing H.R. 841 and the entire Oregon Delegation for 
their support of the legislation.
    H.R. 841 has the support of the Bureau of Indian Affairs 
and the unanimous support of Polk and Yamhill County 
Commissioners, the two counties affected by this bill.
    Except for several updated land descriptions, H.R. 841 is 
identical to the legislation which received a hearing in the 
Subcommittee on July 24, 2012.
    As a result of the Federal Government's allotment and 
termination policies, Grand Ronde lost both its Federal 
recognition and its original Reservation of more than 60,000 
acres. The Grand Ronde Restoration Act restored 9,811 acres of 
the tribe's original Reservation to the Grand Ronde people.
    Since 1988, the tribe has pursued the goal of securing its 
sovereignty by acquiring additional parcels of its original 
Reservation and providing on-Reservation jobs and services to 
tribal and community members.
    The tribe is hampered in its efforts to restore land within 
its original Reservation by lengthy and cumbersome Bureau of 
Indian Affairs' process. After it acquires a parcel in fee, the 
tribe must prepare a fee to trust application package for BIA. 
The BIA then processes the application as either an on-
Reservation acquisition or an off-Reservation application.
    Because the tribe does not have exterior Reservation 
boundaries, instead has distinct parcels deemed Reservation 
through legislation, all parcels are processed under the more 
rigorous off-Reservation acquisition regulations, even if the 
parcel is located within the boundaries of the original 
Reservation.
    After the land is accepted in the trust, the tribe must 
take an additional step of amending its Reservation Act through 
Federal legislation to include the trust parcels in order for 
the land to be deemed Reservation land.
    Grand Ronde has been forced to come to the U.S. Congress 
three times in the last 20 years to amend its Reservation Act 
to secure Reservation status for its trust lands. This process 
is unduly time consuming, expensive, bureaucratic, and often 
takes years to complete.
    H.R. 841 would streamline the Department's land into trust 
responsibilities to Grand Ronde, saving time and money which 
could better be utilized serving its membership.
    Based on the universal support of H.R. 841 and the 
importance of the legislation to the tribe, I request the 
legislation to be included in the Committee's first markup.
    I look forward to any questions you may have on H.R. 841.
    I would like to take my remaining allotted time to provide 
views on H.R. 931. Grand Ronde is opposed to H.R. 931 as it 
would significantly infringe on the rights of the Grand Ronde 
and other tribes in western Oregon.
    Grand Ronde would be supportive of legislation if amended 
to limit the scope of the legislation to Lincoln County, 
consistent with the Siletz Indian Tribe Restoration Act.
    The Coast Reservation has never been designated exclusively 
for the Siletz, but for many tribes throughout western Oregon, 
including the antecedent tribes and bands of the Grand Ronde, 
such as the tribes of the Willamette Valley, Umpqua Valley and 
Rogue River Valley.
    While Grand Ronde, the Confederated Tribes of Coos, Lower 
Umpqua and Siuslaw Indians and others oppose the legislation, 
they can agree to disagree with the Siletz Tribe regarding its 
claim of primacy to the Coast Reservation.
    Let me provide three simple facts. Number one, it is 
opposed by at least two Oregon tribes with legitimate cultural 
and historical claims to the areas involved; two, fails to 
enjoy the support of each of the six counties affected by the 
legislation; and number three, does not have the support of the 
Congress and the Representatives who represent four of the six 
counties contained in the legislation.
    Thank you.
    [The prepared statement of Mr. Leno follows:]
Prepared Statement of Reyn Leno, Tribal Council Chair, The Confederated 
             Tribes of the Grand Ronde Community of Oregon
 h.r. 841--to amend the grand ronde reservation act to make technical 
                  corrections, and for other purposes
    Chairman Young, Ranking Member Hanabusa, members of the 
Subcommittee.
    My name is Reyn Leno. I am the Tribal Council Chair of the 
Confederated Tribes of Grand Ronde in Oregon. I am proud to be here 
today representing over 5,000 tribal members and appreciate the 
opportunity to provide views on H.R. 841, a bill to amend the Grand 
Ronde Reservation Act to make technical corrections, and H.R. 931, a 
bill to provide for the addition of certain real property to the 
reservation of the Siletz Tribe in the State of Oregon.
    I ask that my complete written testimony, which includes An 
Administrative History of the Coast Reservation by Dr. David G. Lewis 
and Dr. Daniel L. Boxberger, supporting resolutions from Polk and 
Yamhill County Commissioners, and correspondence pertaining to both 
bills from Representative Kurt Schrader be included in the record.
    First, I want to thank Representative Schrader for introducing H.R. 
841, which has the bipartisan support of the entire Oregon 
Congressional Delegation and the Bureau of Indian Affairs, as well as 
the unanimous support of the Polk and Yamhill County Commissioners, the 
two counties affected by this legislation. The legislation is not 
opposed by any other tribe or affected interests and, except for 
several updated land descriptions, is identical to legislation which 
received a hearing in the Subcommittee on July 24, 2012.
    I was a child when Congress passed the Western Oregon Indian 
Termination Act ending Federal recognition of all western Oregon 
tribes, including Grand Ronde. As a result of the Federal Government's 
allotment and termination policies, Grand Ronde lost both its Federal 
recognition and its original reservation of more than 60,000 acres. 
Following the tribe's termination in 1954, tribal members and the 
tribal government worked tirelessly to rebuild the Grand Ronde 
community.
    In 1983, these efforts resulted in the Grand Ronde Restoration Act, 
followed by the Grand Ronde Reservation Act in 1988, which restored 
9,811 acres of the tribe's original reservation to the Grand Ronde 
people. Since 1988, the tribe has pursued the goal of securing its 
sovereignty by acquiring additional parcels of its original reservation 
and providing on-reservation jobs and services to tribal members.
    The tribe's restored reservation is located in the heart of the 
original Grand Ronde Indian Reservation. Today, the tribe owns a total 
of 12,535.70 acres of land, 10,312.66 of which have reservation status. 
10,052.38 acres of the reservation land is forested timber land, and 
the remaining 260.28 acres accommodates the tribe's headquarters, 
housing projects, casino complex, Pow Wow Grounds, and supporting 
infrastructure.
    The tribe is hampered in its efforts to restore land within its 
original reservation by a lengthy and cumbersome Bureau of Indian 
Affairs (``BIA'') process. After it acquires a parcel in fee, the tribe 
must prepare a fee-to-trust application package for the BIA. The BIA 
then processes the application as either an ``on-reservation 
acquisition'' or an ``off-reservation acquisition.'' Because the tribe 
does not have exterior reservation boundaries (instead, it has distinct 
parcels deemed reservation through legislation), all parcels are 
processed under the more extensive off-reservation acquisition 
regulations--even if the parcel is located within the boundaries of the 
original reservation.
    After the land is accepted into trust, the tribe must take an 
additional step of amending its Reservation Act through Federal 
legislation to include the trust parcels in order for the land to be 
deemed reservation land. Grand Ronde has been forced to come to the 
U.S. Congress three times in the last 20 years to amend its Reservation 
Act to secure reservation status for its trust lands. This process is 
unduly time consuming, expensive, and often takes years to complete.
    In order to make both the fee-to-trust and reservation designation 
process less burdensome, Representative Kurt Schrader introduced H.R. 
841 which would: (1) establish that real property located within the 
boundaries of the tribe's original reservation shall be (i) treated as 
on-reservation land by the BIA, for the purpose of processing 
acquisitions of real property into trust, and (ii) deemed a part of the 
tribe's reservation, once taken into trust; (2) establish that the 
tribe's lands held in trust on the date of the legislation will 
automatically become part of the tribe's reservation; and (3) correct 
technical errors in the legal descriptions of the parcels included in 
the Reservation Act.
    H.R. 841 would not only save Grand Ronde time and money that could 
be better utilized serving its membership, but would also streamline 
the Interior Department's land-into-trust responsibilities to Grand 
Ronde, thus saving taxpayer money. At a time when Federal financial 
support for Indian Country is dramatically decreasing, Grand Ronde 
should be afforded the tools necessary to reduce its costs and maximize 
savings.
    Senate companion legislation, S. 416, was introduced by Senator 
Merkley and Senator Wyden. Prior to introduction, Grand Ronde was 
requested to reconfirm the support of the two counties in Oregon 
affected by this legislation, Polk and Yamhill, which it has done. The 
Bureau of Indian Affairs detailed its support for the legislation at a 
February 2, 2012 hearing before the Senate Indian Affairs Committee.
    While it has been suggested that the Grand Ronde and Siletz 
legislation must advance together through the legislative process, I 
would like to highlight Representative Schrader's March 18, 2013 letter 
to Ranking Member Hanabusa, in which he states that ``H.R. 841 is one 
of my highest legislative priorities.'' Representative Schrader also 
states the following about H.R. 931:

        I have also introduced H.R. 931 on behalf of The Confederated 
        Tribes of Siletz Indians to simplify the fee-to-trust process 
        for them as well. Though H.R. 931 is similar in nature to H.R. 
        841, I am working with the Siletz Tribe to address concerns 
        raised by other Oregon Indian tribes and county governments to 
        the legislation. Whereas H.R. 841 and H.R. 941 were introduced 
        to address the individual needs of each tribe, I feel it is 
        important that each bill be considered by the Committee on its 
        own merits and support and should not be considered as paired.

    Grand Ronde has worked long and hard to develop a consensus-based 
legislative proposal to assist the tribe in reacquiring lands within 
its original reservation. Based on the universal support of H.R. 841 
and the importance of the legislation to the tribe, I request the 
legislation be included in the Committee's first markup.
    I would like to take my remaining allotted time to provide views on 
H.R. 931.
    While Grand Ronde is opposed to H.R. 931 as currently drafted, we 
again reiterate our support for the legislation if it is amended to 
limit its scope to Lincoln County, consistent with the Siletz Indian 
Tribe Restoration Act.
    We support the Siletz's objective of taking land into trust in 
Lincoln County that has historically been within the exclusive 
reservation land of the tribe, but we do not support the re-writing of 
history to expand the Siletz Reservation in a manner that excludes 
other federally recognized tribes from their hereditary land claims.
    Unlike Grand Ronde's bill--which seeks to improve the process of 
acquiring lands in trust and return to reservation status those lands 
the Siletz Tribe reacquires within its original reservation--we believe 
the purpose of the Siletz legislation is to eliminate the historic 
claims of other tribes to the former Coast Reservation (which was set 
aside for all tribes in western Oregon) by equating the boundaries of 
the Siletz Reservation (established 1875) with the boundaries of the 
Coast Reservation (established 1855).
    The Coast Reservation, as described in the Executive order dated 
November 9, 1855, was never designated exclusively for the Siletz. It 
was set aside for Indians throughout western Oregon, including the 
antecedent tribes and bands of Grand Ronde, such as the tribes of the 
Willamette Valley, Umpqua Valley, and Rogue River Valley. The Siletz 
are aware that Grand Ronde has made its own historic claims to the 
Coast Reservation. Their proposed legislation is nothing more than a 
veiled attempt to eradicate the claims of Grand Ronde and other western 
Oregon tribes to the Coast Reservation.
    The Federal Government has not supported the Siletz's expansive 
view of its reservation boundaries, holding that the tribe's 1977 
Restoration Act and its 1980 Reservation Act define its reservation 
boundaries. For example, a 1994 opinion issued by the Assistant 
Regional Solicitor of the Department of the Interior stated that the 
1977 and 1980 Restoration and Reservation Acts for the Siletz 
constitute the tribe's reservation for the purpose of processing tribal 
requests for trust land acquisitions.\1\ In subsequent litigation by 
the Siletz, challenging the BIA's interpretation of its land 
acquisition regulations, the Department of Justice supported the 1994 
opinion by the Regional Solicitor. In a response brief filed on behalf 
of the Federal Government, the Department of Justice stated:
---------------------------------------------------------------------------
    \1\ Definition of ``On-Reservation'' for Land Acquisition Purposes 
at Siletz Reservation, Memorandum Opinion by the Assistant Regional 
Solicitor, U.S. Department of the Interior, June 1, 1994 (``. . . 
Congress made clear in the [Siletz] Tribe's 1977 Restoration Act that 
`any reservation' for the tribe is that established pursuant to 
Sec. 711e of the Act. Thus, the reservation established pursuant to the 
1980 Act adopting the reservation plan constitutes the tribe's 
reservation for purposes of the land acquisition regulations in 25 CFR 
Part 151.'' (citations omitted)).

        [The 1994 opinion] analyzed the regulatory provision and 
        concluded that it would not be consistent with the intent 
        behind the regulations to consider all land located within the 
        boundaries of the former Siletz or Coast Reservation to be 
        within the tribe's reservation.\2\
---------------------------------------------------------------------------
    \2\ Brief of U.S. Department of the Interior at 4, City of Lincoln 
v. U.S. Dept. of the Interior and Confederated Tribes of Siletz Indians 
of Oregon, No. 99-330 (D. Or. June 23, 2000).

    Despite these precedents, the Siletz Tribe is seeking to expand its 
reach from Lincoln County into five additional counties. For example, 
Yamhill County, which is included in H.R. 931, is part of the Grand 
Ronde Indian Reservation, as defined by its Restoration and Reservation 
Acts. While H.R. 931 allows for the easing of requirements to take land 
into trust for the Siletz in Yamhill County, no part of the Siletz 
Tribe's reservation is located in Yamhill County. Additionally, the 
Siletz Tribe has never attempted to take land into trust in Yamhill 
County.
    Yamhill County does not support legislation to allow the Siletz to 
acquire land there, as documented by a July 12, 2012 letter expressing 
unanimous opposition to H.R. 931 by the Yamhill County Commissioners. 
While opposed to the legislation in its current form, Yamhill County 
Commissioners, like Grand Ronde, would support the legislation if 
limited to Lincoln County.
    Tillamook County is also included in H.R. 931. Many members of the 
Tillamook tribes (Nestucca, Nehalem, Salmon River and Tillamook) 
married into families living at the Grand Ronde Reservation, while 
continuing to hunt, fish and reside along the Oregon Coast. The entire 
Tillamook Territory of the Oregon coast is not the sole claim of any 
one reservation and it would be inappropriate to allow Siletz to assert 
such a claim today. In addition, Grand Ronde owns land in Tillamook 
County, one of the counties identified by the Congress in the Grand 
Ronde Restoration Act as the area where the tribe could acquire trust 
land to re-establish its Reservation.
    H.R. 931 is also opposed by the Confederated Tribes of Coos, Lower 
Umpqua and Siuslaw Indians (``CTCLUSI'') and infringes on their 
historic lands. Even though the CTCLUSI are separately recognized by 
the United States as an independent sovereign, the Siletz Tribe takes 
the position that it is the legal successor in interest to this tribal 
confederation.\3\
---------------------------------------------------------------------------
    \3\ See Letter from Delores Pigsley, Tribal Chairwoman, 
Confederated Tribes of Siletz Indians, to The Honorable Ron Wyden, U.S. 
Senator, at 2, April 17, 2013 (``The Siletz Tribe is the legal 
successor in interest to the historical Coos, Siuslaw and Lower Umpqua 
tribes of Indians.'').
---------------------------------------------------------------------------
    While Grand Ronde, CTCLUSI and others opposed to the legislation 
can agree to disagree with the Siletz Tribe regarding its claim of 
primacy to the Coast Reservation, the simple facts are that H.R. 931: 
(1) is opposed by at least two Oregon tribes with legitimate cultural 
and historical claims to the areas involved; (2) fails to enjoy the 
support of each of the six counties affected by the legislation; and 
(3) does not have the support of the Representatives who represent four 
out of the six counties contained in the legislation.
    For these reasons, we urge the Committee not to proceed with 
further consideration of H.R. 931 in its current form.
                                 ______
                                 
    Mr. Young. I thank the gentleman.
    Ms. Delores Pigsley?

STATEMENT OF DELORES PIGSLEY, CHAIRMAN, CONFEDERATED TRIBES OF 
                    SILETZ INDIANS OF OREGON

    Ms. Pigsley. Chairman Young, Ranking Member Hanabusa, and 
members of the Committee, thank you for holding the hearing 
today on H.R. 931.
    My name is Dee Pigsley and I serve as Chairman of the 
Confederated Tribes of Siletz Indians of Oregon, and have for 
28 years.
    I want to thank Congressman Schrader, Walden and 
Blumenauer, Senator Merkley and Widen, and the Bureau of Indian 
Affairs for support of our legislation.
    Our legislation is not opposed by anyone other than our two 
neighboring tribes. Their contentions have been refuted and 
resolved by testimony, documentation, letters and responses to 
this Committee by the Bureau of Indian Affairs.
    Our neighbors will never drop their opposition no matter 
what the real history is.
    I ask the Committee to look at the record and the facts and 
give the Siletz Tribe the same treatment sought by the Grand 
Ronde Tribe for their tribe.
    This legislation is identical to the bill introduced by 
Congressman Schrader last Congress, which received a hearing in 
this Subcommittee. Its companion bill in the Senate was heard 
by the Indian Affairs Committee.
    The need for this legislation for Siletz's is the same as 
for our neighbors. In both cases, the Federal Government robbed 
us of our land and even our Reservation boundary. When Siletz 
was restored to Federal recognition in 1977, it did not address 
the issue of the original Coast Reservation boundary. This 
creates a problem that most tribes do not have.
    Every parcel of ancestral land we seek to place in trust is 
considered off-reservation by the Bureau of Indian Affairs, 
even if it lies within our historic reservation. This adds 
significant time, costs and resources to place the land in 
trust. It has taken over 8 years for the Siletz's to place a 
parcel of land into trust.
    We have an ongoing critical need to acquire additional 
lands in trust to meet the needs of the tribe for housing and 
other purposes. We are not a wealthy tribe and we purchase land 
as we are able.
    Every effort to reduce the cost and time of the process 
will directly help our membership. This legislation would 
accomplish this processing fee-to-trust applications within the 
boundary of our former reservation as on-reservation.
    Let me briefly respond to baseless allegations raised by 
the other two tribes against our legislation. Their claims 
amount to saying that the Siletz Tribe is not the successor 
tribe to the Siletz Reservation.
    The simple fact is that the Confederated Tribes of Siletz 
Indians have consistently been recognized by the Federal 
Government as the tribe representing the original Siletz Coast 
Reservation since its creation.
    Through determination and restoration, no other tribe can 
substantiate this claim.
    The Siletz's claim to the Siletz Reservation was validated 
by the Bureau of Indian Affairs in testimony and in questions, 
for the record, last year. The Siletz's would like to resubmit 
historic and legal information that resolves this issue beyond 
any question.
    This legislation is critical for our tribe to rebuild a 
small portion of our historic reservation so that we can house, 
feed and care for our membership.
    We support the Siletz and the Grand Ronde bills which are 
identical in purpose in moving forward.
    In closing, this is the third Congressional hearing on this 
legislation within a year. We have answered every question and 
provided substantial documentation to validate our answers, and 
we ask that the Committee review the record and advance our 
legislation, and we thank you.
    [The prepared statement of Delores Pigsley follows:]
  Prepared Statement of Delores Pigsley, Chairman of the Confederated 
                   Tribes of Siletz Indians of Oregon
  in support of h.r. 931--to provide for the addition of certain real 
property to the reservation of the siletz tribe in the state of oregon.
Need for This Legislation
    The Confederated Tribes of Siletz Indians of Oregon (``Siletz 
Tribe'') is seeking Federal legislation to recognize the boundaries of 
the tribe's original 1855 reservation, established by Executive order 
of Franklin Pierce on November 9, 1855, as ``on-reservation'' in order 
to clarify the Secretary of Interior's authority to take land into 
trust for the Siletz Tribe under the Interior Department's fee-to-trust 
regulations at 25 CFR Part 151. Enactment of this legislation will not 
create a reservation for the Siletz Tribe, and will not affect the 
jurisdiction or authority of State or local governments. The purpose of 
the legislation is to allow for more timely processing of the Siletz 
Tribe's fee-to-trust applications by allowing those applications to be 
approved at the Bureau of Indian Affairs' regional level. Defining a 
geographic boundary for a tribe that lacks a recognized exterior 
reservation boundary provides an historical reference point for the 
Bureau to process those applications under the Department's on-
reservation rather than off-reservation criteria. No land acquired in 
trust by the Siletz Tribe under the proposed legislation may be used 
for gaming purposes
    The Siletz Tribe's modern situation is a product of a number of 
Federal policies, laws and history that, working together, adversely 
affected the tribe over the last 175 years. Most Indian tribes have 
reservations with well-defined exterior reservation boundaries where 
the tribe owns all or a large portion of the land within that boundary. 
While land within that boundary may have transferred to non-Indian 
ownership because of Federal policies such as the Allotment Act, the 
reservation boundary remains intact for Federal purposes. The 
definition of ``Indian country'' under Federal law, which defines the 
outer extent of tribal territorial authority, includes all land within 
the boundaries of an Indian Reservation. See 18 U.S.C. Sec. 1151. While 
this is a criminal statute, the definition has been applied by the U.S. 
Supreme Court in civil contexts also.
    The Siletz Tribe's 1855 original 1.1 million acre reservation was 
reduced over time by Executive order, statute, the Allotment Act, and 
finally, was completely extinguished by the tribe's termination in 
1954.
    When the Siletz Tribe was restored to federally recognized status 
in 1977 by Federal statute, 25 U.S.C. Sec. 711 et seq., no lands were 
restored to the tribe although the act called for the future 
establishment of a reservation. 25 U.S.C. Sec. 711e. Congress created 
the new Siletz Reservation in 1980 and added to that reservation in 
1994. Pub. L. No. 96-340, Sept. 4, 1980, 94 Stat. 1072; Pub. L. No. 
103-435, Nov. 2, 1994, 108 Stat. 4566. The Siletz Tribe's reservation 
consists of approximately 50 separate, scattered parcels of reservation 
land. Each parcel has its own ``exterior'' boundary. There is no 
overall reservation boundary. A map showing the Siletz Tribe's original 
1855 reservation and the tribe's current reservation and other trust 
lands is attached as Exhibit A.
    The Indian Reorganization Act at 25 U.S.C. Sec. 465 authorizes the 
Secretary of Interior to acquire land in trust for Indian tribes. This 
provision was enacted to reverse the devastating loss of lands suffered 
by Indian tribes between 1887 and 1934 (over 90 million acres) and to 
restore a minimally adequate land base for those tribes. The Siletz 
Restoration Act applies this section to the Siletz Tribe. 25 U.S.C. 
Sec. 711a(a). Federal regulations implementing this section appear at 
25 CFR part 151. These regulations distinguish between on-reservation 
and off-reservation trust acquisitions. Because of these Federal 
regulations and the Siletz Tribe's history, any additional land the 
Siletz Tribe seeks to have placed in trust status under Federal law is 
considered to be ``off-reservation'' because the land is located 
outside the boundaries of what is recognized as the Siletz Tribe's 
current reservation.
    There are no geographic limitations on the Secretary of Interior's 
authority to take land into trust for an Indian tribe under Section 
465. No regulations implementing this provision of the 1934 IRA were 
enacted until 1980. See 45 Federal Register 62036 (Sept. 18, 1980). No 
distinction between on and off reservation fee-to-trust requests by 
tribes was included in the original regulations. It was not until 
passage of the Indian Gaming Regulatory Act in 1988 and the subsequent 
requests from some tribes to place off-reservation land in trust for 
gaming purposes that changes to the regulations were considered. The 
Department began enforcing an internal on-reservation/off-reservation 
fee-to-trust policy in 1991, and in 1995 added this distinction into 
the fee-to-trust regulations. See 60 Federal Register 32879 (June 23, 
1995). No consideration or discussion of the situation of terminated 
and restored tribes like the Siletz Tribe's factual situation was 
included in making these regulatory changes.
    The current fee-to-trust regulations distinguish between on-
reservation trust acquisitions (25 CFR Sec. 151.10) and off-reservation 
trust acquisitions (25 CFR Sec. 151.11). The requirements for a Tribe 
obtaining land in trust off-reservation are more restrictive, more 
costly and time-consuming, and require additional justification. 
Because of the Siletz Tribe's unique history, all fee-to-trust requests 
by the tribe are reviewed under the off-reservation process, even close 
to the tribe's current reservation lands and even within the boundaries 
of the tribe's historical reservation. This application of Federal law 
and regulations discriminates against the Siletz Tribe in relation to 
treatment of other Indian tribes.
    H.R. 931 will place the Siletz Tribe on the same legal footing as 
all other federally-recognized Indian tribes who did not suffer through 
the tragedy of termination and the loss of their reservations. It will 
treat the Siletz Tribe's fee-to-trust requests within its historical 
reservation the same as fee-to-trust requests from other tribes within 
their historical reservations. It will facilitate the gradual re-
acquisition of a tribal land base for the Siletz Tribe so the tribe can 
meet the needs of its members. It will reduce cost, time and 
bureaucratic obstacles to the tribe obtaining approval of its land into 
trust requests. The legislation is consistent with the definition of 
on-reservation as set out in the current fee-to-trust regulations at 25 
CFR Sec. 151.2(f).
    The Siletz Tribe has an ongoing critical need to acquire additional 
lands in trust to meet the needs of the tribe and its members. The 
tribe received a modest approximately 3,630 acres in trust as a 
Reservation in 1980, comprised of 37 scattered parcels. This land was 
primarily former BLM timber lands, and was calculated at the time to 
allow the tribe to generate revenue to provide limited services to its 
members and to support tribal government. The revenue generated from 
these parcels has been insufficient to meet growing tribal needs. The 
Reservation Act also returned a tribal cemetery and Pow-Wow grounds to 
the tribe. Since 1980 the tribe has obtained additional 804 acres of 
land in trust to meet some of the tribe's needs for housing, health and 
social services, natural resources, and economic development including 
a gaming operation. Currently the tribe has a total of 63 separate 
trust properties, for a total acreage of 4,434.01 acres. Tribal needs 
have not been met, however, and the tribe has a continuing need to 
acquire additional lands in trust. This is a long-term objective of the 
tribe because of the tribe's limited financial resources, which only 
allow it to purchase land a little at a time.
Legislative History and Administration Position
    H.R. 931 is identical to legislation introduced in the 112th 
Congress by Congressman Kurt Schrader of Oregon. That legislation, and 
its Senate companion bill, received legislative hearings in the House 
Subcommittee on Indian & Alaska Native Affairs and the Senate Committee 
on Indian Affairs.
    In the Senate, the Bureau of Indian Affairs objected to language 
giving counties additional authority in the on-reservation fee-to-trust 
process, objecting to the precedential nature of such new authority. 
Siletz agreed to have that language removed, which was from the House 
version of the bill. Both the House and Senate bills introduced in the 
113th Congress responded to the Bureau's concern on that matter.
    The Administration testified in support of the Siletz bill in July 
2012. In responses to questions for the record from the Subcommittee on 
Indian and Alaska Native Affairs, the Bureau of Indian Affairs put to 
rest allegations against the bill made by the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw Indians, and the Confederated Tribes of 
the Grand Ronde Community. The Bureau confirmed that the Siletz Tribe 
has always been the only recognized tribal governing body over the 
original 1855 Siletz Coast Reservation.
    Attached, for the record, are those responses from BIA as well as 
Siletz' response to Grand Ronde's criticisms of BIA's response.
Historical and Legal Background
    Numerous bands and tribes of Indians resided aboriginally in 
western Oregon, from the crest of the Cascade Mountains to the Pacific 
Ocean. Early Federal Indian policy was to enter into treaties with 
Indian tribes to obtain the cession of their aboriginal lands to clear 
title for non-Indian settlement. A ``reservation policy'' evolved to 
place the Indians who entered into these treaties on small remnants of 
their aboriginal lands, but to open most of those lands for future 
development and settlement. In most cases each tribe that entered into 
a treaty was left with its own reservation somewhere within its 
aboriginal territory. Entering the 1850s, this Federal policy evolved 
into a new reservation policy, particularly along the west coast, to 
place as many tribes as possible on one reservation. This freed up 
additional land for settlement and simplified administration of the 
remaining Indians. See Charles F. Wilkinson, The People Are Dancing 
Again: A History of the Siletz Tribe (U. of Washington Press 2010).
    Treaties negotiated with western Oregon Indian tribes in the early 
1850s by Anson Dart were rejected by the Senate because they did not 
implement this new policy and instead provided for individual 
reservations within a tribe's historical territory. The subsequent 
Indian Superintendent in Oregon in the 1850s, Joel Palmer, was given 
the task of negotiating treaties with all of the tribes in western 
Oregon and finding a permanent reservation where they could all be 
settled. Superintendent Palmer first considered moving all the western 
Oregon tribes east of the Cascade Mountains to the Klamath Reservation, 
but none of the western Oregon tribes wanted to go there. In early 1855 
he located what became the Siletz or Coast Reservation and communicated 
its suitability as the permanent reservation for all the western Oregon 
tribes to his superiors in Washington, D.C. Because of the long time 
lag in communication between the east and west coasts in the 1850s, 
Palmer provisionally set aside the Coast Reservation on his own 
authority on April 17, 1855. This action was subsequently ratified by 
the Department of the Interior.
    There was no one method or procedure by which the tribes and bands 
that are part of the Confederated Tribes of Siletz Indians entered into 
treaties or came to the Siletz Reservation. A map showing the ancestral 
lands and tribes that make up the Siletz Tribe is included in the 
hearing record as Exhibit B. The Siletz Tribe has a legal relationship 
to seven ratified treaties (Treaty with the Rogue River, Sept. 10, 
1853, 10 Stat. 1018; Treaty with the Umpqua-Cow Creek Band, Sept. 19, 
1853, 10 Stat. 1027; Treaty with the Rogue River, Nov. 15, 1854, 10 
Stat. 1119; Treaty with the Chasta, Nov. 18, 1854, 10 Stat. 1122; 
Treaty with the Umpqua and Kalapuya, Nov. 29, 1854, 10 Stat. 1125; 
Treaty with the Molala, Dec. 21, 1855, 12 Stat. 981; Treaty with the 
Kalapuya, Jan. 22, 1855, 10 Stat. 1143), and one unratified treaty 
(Treaty with the Tilamooks and other confederate tribes and bands 
residing along the coast, Aug. 11, 1855 (``Coast Treaty'')). To 
complicate things further, there are also several additional unratified 
treaties negotiated in 1851 with the northern Oregon coastal tribes and 
bands, known as the Anson Dart treaties. Indians from all of these 
tribes and bands also ended up on the Siletz/Coast Reservation.
    In some of these treaties, such as the 1854 Rogue River Treaty and 
the unratified Coast Treaty, the signatory tribes were ``confederated'' 
by the Federal Government into one tribe. The Federal Government 
treated other tribes that were settled on the Siletz Coast Reservation 
as confederated with these original confederations. The Confederated 
Tribe of Siletz Indians is the federally-recognized tribe that is the 
legal and political successor to these original tribes. See United 
States v. Oregon, 29 F.3d 481, 485-86 (9th Cir. 1994) (Yakama Nation 
comprised of the Indians who moved to the reservation under the Yakama 
Treaty; Nez Perce Tribe comprised of Nez Perce Bands who signed Nez 
Perce Treaty and moved to diminished Nez Perce Reservation).
    Movement of the tribes, bands and Indians to the Siletz Reservation 
was also not clean or uniform. Some tribes moved in several waves to 
the Siletz Reservation, at different times. In some cases only parts of 
the tribe, smaller groups or individual families ended up on the 
Reservation. In other cases individuals or small groups who were moved 
to the Siletz Reservation left the Reservation and returned to their 
aboriginal areas; other individuals hid and were never moved. Some of 
the individuals who left the Siletz Reservation and returned to their 
aboriginal areas were rounded up and returned to the Siletz 
Reservation. For example, member of the Coos and Lower Umpqua Tribes 
who left the Siletz Reservation and returned to their aboriginal area 
were forcibly returned to the Reservation in round-ups conducted by the 
Interior Department with military assistance.
    In all of these cases and under all of these treaties, both 
ratified and unratified, the tribes and bands in question were moved to 
the Siletz Reservation and became part of the Confederated Tribes of 
Siletz Indians. This early history of the Siletz Tribe and Siletz 
Reservation is set out in various Federal court decisions, including 
Rogue River Tribe v. United States, 64 F.Supp. 339, 341 (Ct.Cl. 1946); 
Alcea Band of Tillamooks v. United States, 59 F.Supp. 934, 942 (Ct.Cl. 
1945); Coos, Lower Umpqua, and Siuslaw Indian Tribes v. United States, 
87 Ct. Cl. 143 (1938); and Tillamook Tribe of Indians v. United States, 
4 Ind. Cl. Comm'n 31-65 (1955). Copies of these decisions are included 
in the record as Exhibit C. The Siletz Tribe also submits some of the 
Interior Department and Oregon Indian Agency correspondence from this 
period (1855-1875), documenting the settlement of various tribes and 
bands on the Siletz Reservation pursuant to these treaties, as Exhibit 
D. Historical summaries chronicling additional Federal policy toward 
the Siletz Reservation are attached as Exhibit E. The settlement of 
various tribes on the Siletz Reservation is also documented in various 
academic publications such as a report prepared by Historian Dr. 
Stephen Dow Beckham. See ``The Hatch Tract: A Traditional Siuslaw 
Village Within the Siletz Reservation, 1855-1875,'' prepared by Dr. 
Stephen Dow Beckham for the Confederated Tribes of Coos, Lower Umpqua 
and Siuslaw, Dec. 4, 2000, pp. 12-14 (``On July 20, 1862, Linus Brooks, 
Sub-Agent, confirmed that the removal of the Coos, Lower Umpqua, and 
Siuslaw Indians onto the Siletz Reservation was complete,'' and ``On 
July 21, 1864, Sub-Agent George W. Collins confirmed the presence of 
the tribes on the Siletz Reservation''.).
    The Confederated Tribes of Siletz Indians was recognized as the 
governing body and tribe representing all of the tribes and bands 
settled on the Siletz Reservation as early as 1859. See, e.g. Indian 
Traders License issued by the Siletz Indian Agent on June 16, 1859, to 
trade with ``The Confederated Tribes of Indians . . . within the 
boundary of the Siletz Indian agency district Coast Reservation.'' 
(Copy attached as Exhibit E); Tillamook Tribe of Indians, supra, 4 Ind. 
Cl. Comm'n at 31 (``Confederated Tribes of Siletz Indians, . . . a duly 
confederated and organized group of Indians having a tribal 
organization and recognized by the Secretary of the Interior of the 
United States'' is the only entity with standing to prosecute claims 
against the United States involving the Siletz Reservation). Many other 
instances of Federal recognition of the Confederated Siletz Tribe are 
included in the historical summaries attached as Exhibit E. It has 
consistently been recognized by the Interior Department as the only 
tribe representing the original Siletz or Coast Reservation since that 
time. As such it is the legal and political successor to all of the 
tribes and bands of Indians settled on or represented on the Siletz 
Reservation.
    This legal principle was established and has been repeatedly 
confirmed in the U.S. v. Washington Puget Sound off-reservation treaty 
fishing rights litigation. See, e.g., United States v. Washington, 593 
F.3d 790, 800 at n.12 (9th Cir. 2010) (``Samish''), citing to U.S. v. 
Washington, 384 F.Supp. 312, 360 (W.D. Wash. 1974) (Lummi) and to U.S. 
v. Washington, 459 F.Supp. 1020, 1039 (W.D. Wash. 1978) (Swinomish) 
(Lummi and Swinomish successors in interest to tribes and bands settled 
on their reservations under Treaty of Point Elliott; both tribes 
successors in interest to the Samish Indian Tribe); Evans v. Salazar, 
604 F.3d 1120, 1122 n. 3 (9th Cir. 2010), citing U.S. v. Washington, 
459 F.Supp. 1020, 1039 (W.D. Wash. 1978) (Tulalip Tribes recognized 
governing body and successor to tribes and bands settled on the Tulalip 
Reservation under the Treaty of Point Elliott); U.S. v. Washington, 520 
F.2d 676, 692 (9th Cir. 1975) (Muckleshoot Tribe, which did not exist 
at the time of the Treaty of Point Elliott and Treaty of Medicine 
Creek, recognized as a tribe by the United States and is a successor in 
interest to its constituent tribes which were settled on the 
Muckleshoot Reservation under the two treaties).
    Two other legal principles, confirmed by Ninth Circuit Court of 
Appeals decisions, also confirm the Confederated Tribes of Siletz 
Indians as the only federally-recognized Indian tribe representing the 
tribes and bands who were settled on the Siletz Reservation, and as the 
only Indian tribe with a legal interest in and title to the original 
1855 Siletz or Coast Reservation. The first legal principle involves 
groups or bands of Indians who either refused or did not move to the 
reservation designated for them under a treaty or other Federal action, 
or who subsequently left that reservation or refused to move to a 
reconfigured reservation. In U.S. v. Oregon, 29 F.3d 481, 484-85 (9th 
Cir. 1994), the Ninth Circuit rejected the claim of the Colville 
Confederated Tribes to have treaty and successorship rights under the 
Yakama and Nez Perce Treaties of 1855 because bands of the tribes that 
had signed those treaties had refused to move to the reservations 
established under those treaties, or had subsequently left those 
reservations, and instead had ended up settling on the Colville 
Reservation. The Ninth Circuit concluded that those bands, by refusing 
to move to the treaty reservations or subsequently leaving those 
reservations, had abandoned their right to treaty status or 
successorship of the original tribes.
    Like the situation of Lummi and Swinomish, whose reservations were 
set aside for all the Indians who signed the Point Elliott Treaty, both 
the Siletz and Grand Ronde Reservations were for example expressly set 
aside for settlement of the Willamette Valley Tribes, and members of 
those tribes settled on both the Siletz and Grand Ronde Reservations. 
Under the Ninth Circuit's decisions in U.S. v. Washington, both the 
Siletz and Grand Ronde Tribes are successors to the historical 
Willamette Valley Tribes and the three ratified treaties signed by 
those tribes.
    This legal principle applies to the claims of the modern day 
Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians 
(comprised of individual Indians from those tribes who either refused 
to move to the Siletz Reservation or who subsequently left the Siletz 
Reservation and moved back to the Coos Bay area) to have legal claim to 
the original Siletz Reservation. It also applies to the claim of the 
Confederated Tribes of the Grand Ronde Community of Oregon to be a 
successor to the Rogue River Tribe (a band or small group of Rogue 
River Indians refused in 1857 to move to the Siletz Reservation, 
designated as the permanent reservation for that tribe, and stayed 
instead on the Grand Ronde Reservation; Federal officials confirmed in 
correspondence that the Rogue River Tribe moved to the Siletz 
Reservation in 1857), and to have a claim through that tribe to the 
Siletz Reservation.
    The second additional legal principle that applies to the Siletz 
Tribe's factual situation involves where one tribe is not originally 
settled on a reservation under a treaty, but individual members of that 
``unaffiliated'' tribe end up on the reservation of another tribe, 
either by obtaining allotments on that reservation or for other 
reasons. This was the situation in United States v. Suquamish Indian 
Tribe, 901 F.2d 772, 777 (9th Cir. 1990), where the Ninth Circuit 
rejected the Suquamish Tribe's claim to be the successor to the 
Duwamish Tribe on the grounds that ``individual Duwamish had moved to 
and settled at'' the Suquamish Reservation, obtaining allotments there. 
The court found that no group or band of Duwamish moved there. Id.2 
This test was clarified in United States v. Oregon, supra, where the 
Ninth Circuit concluded that for one tribe to be able to claim 
successorship to another tribe, the first tribe would have to show ``a 
cohesive communal decision by the Duwamish to unite with the 
Suqamish,'' otherwise the Suquamish ``could not successfully claim that 
it was a `political successor' to the treaty time Duwamish Tribe.'' 29 
F.3d at 484. Movement and settlement of individual Indians does not 
result in successorship, under settled principles of law.
    This legal principle applies to the claims of the Grand Ronde Tribe 
that it has an interest in the original Siletz Reservation through its 
asserted successorship to the Nehalum Tribe, for example. Case law to 
which the Grand Ronde Tribe was a party and is therefore bound 
concluded that the Nehalum Tribe had moved as a tribe to the Siletz 
Coast Reservation, and that the Siletz Tribe is the successor the 
Nehalum Tribe: ``Plaintiffs Chinook, Clatsop and the Ne-ha-lum tribes 
were placed on the Coast Reservation.'' Alcea Band of Tillamooks, 
supra, 59 F.Supp. at 954. Grand Ronde claims successorship to the 
Nehalum Tribe only because a few individual Nehalum Indians later moved 
to and settled on the Grand Ronde Reservation. Under established 
Federal precedent, the fact that some individual Nehalum Indians moved 
to the Grand Ronde Reservation did not make the Grand Ronde Tribe a 
successor to the Nehalum Tribe. Grand Ronde claims that the Nehalums 
and others were counted under the Grand Ronde Agency's census and 
therefore must have resided on the Grand Ronde Reservation, but the 
historical summary included as Attachment E shows conclusively that 
these Indians actually resided on the Siletz Reservation along the 
coast, and that the Grand Ronde Indian Agency improperly attempted to 
assert jurisdiction over them, an assertion that was expressly 
rejected, several times, by the Commissioner of Indian Affairs.
    The Court in U.S. v. Oregon contrasted the factual situation of the 
Suquamish and Duwamish Tribes with that of the Muckleshoot and Tulalip 
Tribes, who were not tribes at the time of the treaty but became tribes 
recognized by the Federal Government comprised of small neighboring 
bands of Indians who signed the treaties and moved as bands to the 
designated reservation. 901 F.2d at 776. Those bands who resided 
together on the same reservation ``became known as the Tulalip and 
Muckleshoot Indians,'' Id., and were recognized by the Federal 
Government as such.
    The Siletz Reservation has been referred to by various names in its 
history, but has been known often as the Siletz or Siletz Coast 
Reservation since 1857. See Attachment E. The Reservation was 
originally referred to as the Coast Reservation before it was reserved 
by Oregon Indian Agent Joel Palmer because it was located on the Oregon 
Coast, because it was set aside for the ``Coast, Umpqua, and Willamette 
Tribes of Indians in Oregon Territory,'' and because the unratified 
1855 Treaty was made between the United States and the ``chiefs and 
headmen of the confederate tribes and bands of Indians residing along 
the coast. '' After official establishment by Executive order on 
November 9, 1855, it was referred to variously as the Siletz, Siletz or 
Coast, or Siletz/Coast Reservation. Starting in 1857, use of the term 
Siletz Reservation became common, see, e.g., letter dated July 20, 1857 
(Annual Report of Grand Ronde Indian Agency) (``Early in the month of 
May the greater portion of the Rogue River and all of the Shasta 
Indians were removed, with their own consent, to the Siletz Coast 
Reservation . . . In consequence of the removal of the majority of 
these tribes to the Siletz Reservation'', and Congress formally 
referred to the reservation as the Siletz Reservation in legislation 
enacted in 1868 and 1875. Act of July 27, 1868, 15 Stat. 198, 219 
(``For Indians upon the Siletz Reservation . . . to compensate them for 
losses sustained by reason of executive proclamation taking from them 
that portion of their reservation called Yaquina Bay''); act of March 
3, 1875, 18 Stat. 420, 446 (``Secretary of the Interior . . . is 
authorized to remove all bands of Indians now located upon the Alsea 
and Siletz Reservation, set apart for them by Executive order dated 
November 9, 1855''). A summary of all of these references is included 
as Exhibit E, and copies of these Federal statutes are attached as 
Exhibit F.
    The Siletz Reservation was established by Executive order on 
November 9, 1855 as a permanent homeland for all the tribes and bands 
of Indians in western Oregon, who were to be confederated together and 
settled upon it, and make the remaining ceded land available for 
settlement. The original Siletz Reservation stretched for over 100 
miles along the central Oregon Coast, from the ocean to the western 
boundary of the 8th Range, Willamette Meridian, around 1.1 million 
acres. A copy of the original map of this reservation made sometime 
between 1857 and 1865 is attached as Exhibit G. Treaty tribes such as 
the Rogue Rivers, Shastas and Umpquas were moved to the Siletz 
Reservation by May 1857 in fulfillment of the terms of their treaties 
to settle them on a permanent treaty reservation. The Siletz 
Reservation, under well-established case law, became a formal treaty 
reservation at that time. The Siletz Reservation was then reduced over 
the coming years by various Federal actions--Executive order in 1865, 
Federal statute in 1875, and an agreement and legislation implementing 
allotment and surplusing of the remaining reservation in 1892. A map of 
the original Siletz Reservation showing the various reductions of the 
Siletz Reservation is attached as Exhibit H. A map showing the original 
Siletz Reservation in context to the State of Oregon and to modern 
Oregon cities is attached as Exhibit I.
    Various Court of Claims and Indian Claims Commission cases have 
addressed whether the tribes that were located on the Siletz 
Reservation were entitled to compensation for the taking of their 
aboriginal lands, or for the various diminishments of the Siletz 
Reservation. These cases--Rogue River, Alcea Band of Tillamooks, Coos, 
Lower Umpqua and Siuslaw Indian Tribes, and Tillamook Tribe of Indians, 
are cited above. These cases document the connection of the Siletz 
Tribe to the original Siletz Reservation. As such, they also show that 
the original Siletz Reservation meets the definition of on-reservation 
as set out in the fee-to-trust regulations at 25 CFR Sec. 151.2(f): 
``[W]here there has been a final judicial determination that a 
reservation has been disestablished or diminished, Indian reservation 
means that area of land constituting the former reservation of the 
tribe.'' See Citizen Band Potawatomi Indians v. Collier, 17 F.3d 1325 
(10th Cir. 1998)(processing fee-to-trust request within former 
reservation of Potawatomi Tribe). Enacting H.R. 6141 will allow the 
Siletz Tribe to request fee-to-trust transfers on the same basis as 
other Indian tribes within their original reservations.
Response to Specific Issues:
    Some questions have been raised before this hearing about specific 
aspects of the proposed legislation. I want to address some of those 
issues here, and can respond to other issues during my oral testimony.
    Question.  Does this bill make the original Siletz Reservation into 
a reservation for the Siletz Tribe, or create tribal jurisdiction or 
authority over the original Siletz Reservation area?
    Answer. No. All H.R. 931 does is to designate a geographic area 
within which the Siletz Tribe's fee-to-trust requests will be processed 
under the BIA's on-reservation rather than off-reservation fee-to-trust 
criteria. The jurisdictional status of individual fee-to-trust parcels 
changes once those parcels go into trust status, but that happens 
whether or not this bill passes, and whether or not the on-reservation 
or off-reservation criteria are used. The existing jurisdictional 
status of the original Siletz Coast Reservation is not affected by this 
legislation. This issue was addressed by the Federal courts in Yankton 
Sioux Tribe v. Podhradsky, 606 F.3d 994, 1013 (8th Cir. 2010) (``While 
it is true that the original 1858 [reservation] boundaries are no 
longer markers dividing jurisdiction between the tribe and the State, 
that does not mean they have lost their historical relevance for the 
Secretary's discretionary acts [of taking land into trust pursuant to 
25 U.S.C. Sec. 465]).'' Under H.R. 6141, the original 1855 Siletz 
Reservation will become an historical reference point for the BIA in 
deciding whether to process a Siletz fee-to-trust application as on-
reservation or off-reservation under the fee-to-trust regulations at 25 
CFR part 151. The bill does nothing more.
    Question.  Does the Siletz Restoration Act limit the Siletz Tribe 
to taking land into trust only within Lincoln County?
    Answer. No. The original Siletz Reservation extends into six 
current Oregon counties, although the heart of the original Siletz 
Reservation became Lincoln County when that portion of the reservation 
was removed by Congress in 1894. The counties within which the original 
Siletz Reservation is located are shown on the map attached as Exhibit 
A. As you can see, two of the counties have barely any land involved. 
Some parties have asserted that Federal law--the Siletz Restoration 
Act--limits the Siletz Tribe to taking land into trust only within 
Lincoln County. The section of the Restoration Act in question, at 25 
U.S.C. Sec. 711e(d), is addressed only to the original reservation plan 
called for by the Restoration Act. It limits any land designated under 
the reservation plan to Lincoln County. This plan was finalized in 
1979.
    The question of whether this provision of the Siletz Restoration 
Act, 25 U.S.C. Sec. 711e(d), limits the BIA permanently from taking 
land in trust for the Siletz Tribe only to Lincoln County was addressed 
immediately after passage of the Siletz Restoration Act by the Office 
of the Solicitor, in 1978 and 1979. Those opinions concluded that the 
statutory restriction at Sec. 711e(d) applied only to the original 
Siletz Reservation Plan, and did not limit the authority of the 
Secretary from taking land in trust for the Siletz Tribe elsewhere. 
This conclusion was reached in part because the Siletz Restoration Act 
expressly makes 25 U.S.C. Sec. 465--section 5 of the IRA--applicable to 
the Siletz Tribe, without restriction. This is not true of any other 
restored tribe in Oregon. Copies of the two Solicitor Opinions reaching 
this conclusion are attached as Exhibit J. In its response to questions 
from the 2012 hearing on this legislation, supra, the BIA reaffirmed 
its position on this issue.
    The Siletz Tribe has acquired land in trust outside of Lincoln 
County since restoration. For example, the tribe has a 20-acre parcel 
of land in trust in Salem, Marion County, Oregon, within the tribe's 
historical territory.
    Question. Will H.R. 6141 allow the Siletz Tribe to acquire land in 
trust and use that land for gaming under the Indian Gaming Regulatory 
Act?
    Answer. No. There is an express prohibition in H.R. 6141 on using 
land acquired in trust under the bill for gaming. The Siletz Tribe 
already has a successful gaming operation at Chinook Winds Casino 
Resort on its current reservation. The tribe does not need to acquire 
land in trust for a gaming operation within its original reservation 
boundaries.
                                 ______
                                 
    Mr. Young. Thank you, Delores.
    Now, last but not least, Mr. Byron Mallott, a good friend, 
will speak on H.R. 740 and H.R. 1306.

    STATEMENT OF BYRON MALLOTT, MEMBER, BOARD OF DIRECTORS, 
                      SEALASKA CORPORATION

ACCOMPANIED BY: JAELEEN KOOKESH ARAUJO, GENERAL COUNSEL FOR SEALASKA 
            CORPORATION
    Mr. Mallott. Thank you, Mr. Chairman, and Ranking Member 
Hanabusa. I would just mention very quickly that I have known 
Congressman Young for nearly 50 years now, and he still 
butchers my name.
    [Laughter.]
    Mr. Young. Good thing you are not named LoBiondo. It took 
me 10 years to pronounce that name.
    Mr. Mallott. I would also like to mention, members of the 
Committee, if I could, that I am very proud to have Jaeleen 
Kookesh Araujo sitting next to me. If I were to introduce her 
myself, I would call her ``Jaeleen Kookesh,'' which was her 
maiden name.
    I had the honor of speaking at her high school graduation 
in the small village school of Angoon, and it makes me so 
incredibly proud to have her sitting next to me as General 
Counsel during this hearing. She will be available to answer 
any questions that I am unable to, which will likely be most.
    Very quickly, Mr. Chairman, in terms of time, when the 
Alaska Native Claims Settlement Act first began its 
germination, it was a time in Alaska when Prudhoe Bay in the 
late 1960s had just been discovered, the largest oil discovery 
in North American history, and one of the very largest in the 
world, the need was to build a pipeline from the North Slope to 
Tidewater, in order to move that oil.
    It was a time during which Alaska had been a State for less 
than a decade and was very quickly acting to select 103 million 
acres that it had the right to select from public lands in 
Alaska under the Alaska Statehood Act.
    It was a time in the Tongass Forest when there were two 
very large public pulp mill contracts, two very large pulp 
mills just having been built, one in Ketchikan and one in 
Sitka, harvesting hundreds of millions of board feet of timber 
and generating an economy in an area of our State where 
previously there had been none.
    The military had been gone for less than a decade, was just 
beginning to rebuild after the Second World War. It was in this 
maelstrom that the Alaska Native Claims Settlement Act emerged.
    In many ways, the Alaskan Natives collectively were not 
anywhere near in charge of the events that would shape their 
lives, as some have characterized before this Committee in the 
various hearings on this legislation, which by the way, Mr. 
Chairman, I think as you have already mentioned, has been 
before this Committee for some 6 years, and notwithstanding 
your incredible efforts to try to get this bill passed by the 
full Congress.
    H.R. 740 will allow Sealaska to select lands outside of the 
original withdrawal's established under ANCSA in Southeast, 
which were very limited withdrawal areas, the consequence of 
the very large pulp mill contracts that I have already 
mentioned.
    We will, if allowed to select lands as identified in H.R. 
740, out of our original withdrawal areas, be impacting far 
less old growth acreage than we would otherwise be if we stayed 
within our withdrawal areas.
    It would give Sealaska greater flexibility to work with the 
National Forest Service in bringing about a transition to 
second growth timber, which will be the long term enterprise on 
forest lands in the Tongass National Forest. It will allow us 
some flexibility in selecting sacred sites which are so 
important to us as Alaska's Native peoples, and the first 
inhabitants of the Tongass National Forest, which we believe 
passionately are our and known to be our homelands.
    H.R. 740 will allow us to in a very modest way begin 
identifying new uses for very small parcels of land within the 
Tongass.
    It will allow the Native Corporation, the Native peoples of 
Southeast, where many of our shareholders still live and where 
our original villagers still have our people, unbroken since as 
far back in time as we know, and who still live in those 
villages, the opportunity to create on our lands and in 
cooperation with the U.S. Forest Service, the State of Alaska 
and others, a lifestyle, a society, an economic opportunity, 
that we obviously and all these institutions believe are so 
important to the future of the Tongass National Forest.
    Because we have had at least 6 years of congressional 
activity on this bill, we have a companion bill which would 
allow very modest selections of economically harvestable timber 
closely adjacent to current Sealaska lands, although out of the 
withdrawal areas, and able to be accessed on a transition basis 
in the event that the Congress is once again unable to act on 
the overall settlement.
    Directly responding to a question, a general question, 
earlier by Congresswoman Hanabusa, it is different than it was 
at the hearing several years ago. I do not think there has been 
a week or at least a month gone by where there have not been 
very meaningful meetings in Washington, D.C., in Alaska, having 
to do with being responsive to the concerns, with the 
suggestions, with the desires of communities, agencies, 
institutions, local governments, in order to try to make this 
bill more responsive, and ultimately a bill that as many folks 
as possible within our region and elsewhere can support.
    We believe that we are very, very close. I would like to 
close by saying that I was there during those land claims days. 
I was a very young man. I remember knowing that there were far 
greater forces at play than we could in any way meaningfully 
affect, which I have outlined to you, having to do with the 
nation, having to do with kick starting a brand new economy in 
a brand new State, and the Native community trying to achieve 
justice and equity and retain some of our homelands in our own 
ownership, and acquiring tools that would allow us to be both 
part of the economic and ultimately the societal development of 
our State.
    But ultimately, there were far greater forces at play, and 
I think Congress recognized that when it passed the Alaska 
Native Claims Settlement Act, because it has been very gracious 
and open, one of the most complex laws ever passed by the 
United States, to allow changes to that law to also be passed 
into law, and some of those changes, as you know, Mr. Chairman, 
have been very, very substantive indeed.
    Thank you very much for the opportunity to appear before 
you.
    [The prepared statement of Mr. Mallott follows:]
   Prepared Statement of Byron Mallott, Member, Board of Directors, 
            Sealaska Corporation, on H.R. 740 and H.R. 1306
    Chairman Young and members of the Subcommittee:
    Thank you for the opportunity to submit testimony on behalf of 
Sealaska, the regional Alaska Native Corporation for southeast Alaska, 
regarding H.R. 740, the ``Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act,'' a bill that we refer to as Haa 
Aani. ``Haa Aani'' is the Tlingit way of referring to our ancestral and 
traditional homeland and the foundation of our history and culture. We 
also appreciate the opportunity to testify on H.R. 1306, the Southeast 
Alaska Native Land Conveyance Act, which we call our ``Bridge timber'' 
bill to address conveyance of a small portion of the lands included in 
H.R. 740.
    My name is Byron Mallott, and I am a Director of Sealaska 
Corporation, as well as a former President and CEO of Sealaska. I am 
from Yakutat, an Alaska Native village, and I am Shaa-dei-ha-ni (Clan 
Leader) of the Kwaashk'i Kwaan. My Tlingit name is K'oo deel taa.a.
    Most of our testimony relates to H.R. 740, but H.R. 1306 is very 
much related. H.R. 1306 would transfer a small subset of the land in 
H.R. 740 and does not detract from the purpose of H.R. 740. H.R. 1306 
provides an interim solution to preserve jobs vital to the region's 
delicate economy if Congress does not act on H.R. 740 this year.

                               Background

    Sealaska is one of 12 Native Regional Corporations established 
pursuant to the Alaska Native Claims Settlement Act (``ANCSA'') of 
1971. Our shareholders are descendants of the original Native 
inhabitants of southeast Alaska--the Tlingit, Haida and Tsimshian 
people. ANCSA authorized a land settlement for the Natives of southeast 
Alaska. Today, Sealaska seeks legislation that will define the location 
of the last 70,000 acres of land we will receive under ANCSA. Our 
people will own these lands in perpetuity. The land will support our 
villages and will help sustain our people and our culture.
    H.R. 740 would convey just 70,000 acres in the southeast Alaska 
region, a region with almost 23 million acres of land; 85 percent of 
the region is already in some form of conservation, wilderness or other 
protected status. Putting the acreage in perspective, Sealaska's 
remaining land entitlement represents about \1/3\ of 1 percent of the 
total land mass in southeast Alaska.
    This legislation also represents a significant opportunity for the 
public, this Congress, the Obama Administration, the Forest Service, 
communities, environmental groups and others to get it right in the 
Tongass. H.R. 740 protects ecologically sensitive areas, sustains jobs 
and communities, and returns important cultural lands to southeast 
Alaska's Native people.
    This legislation does not give Sealaska one acre of land in 
addition to that which was originally promised by Congress under ANCSA. 
Sealaska has worked closely with the timber industry, conservation 
organizations, tribes and Native institutions, local communities, the 
State of Alaska, and Federal land management agencies to craft 
legislation that provides the best possible result--the most balanced 
solution--for the people, communities and environment of southeast 
Alaska.
    For you, Members of Congress and staff, who must consider this 
legislation, one thing should be clear by now: Every acre of southeast 
Alaska is precious to someone. And given the vast array of interests in 
southeast Alaska, there is simply no way to achieve absolute consensus 
on where and how Sealaska should select its remaining lands. We 
believe--and we hope you will agree--that this legislation offers a 
balanced solution as a result of our congressional delegation's 
engagement with all regional stakeholders.

        Can Sealaska Select its Remaining Land Under Current Law

    Under ANCSA, as amended, Sealaska is required to select land from 
within 10 ``withdrawal boxes''. Opponents of the legislation say that 
Sealaska asked to select land from within the 10 withdrawal boxes in 
1976, and today Sealaska should be forced to select the remaining 
70,000 acres to which it is entitled under current law. Let's set the 
record straight.
    ANCSA authorized the distribution of approximately $1 billion and 
44,000,000 acres of land to Alaska Natives and provided for the 
establishment of 12 Regional Native Corporations and more than 200 
Village Corporations to receive and manage the funds and land to meet 
the cultural, social, and economic needs of Native shareholders.
    Under section 12 of ANCSA, each Regional Corporation, except 
Sealaska, was authorized to receive a share of land based on the 
proportion that the number of Alaska Native shareholders residing in 
the region of the Regional Corporation bore to the total number of 
Alaska Native shareholders, or the relative size of the area to which 
the Regional Corporation had an aboriginal land claim bore to the size 
of the area to which all Regional Corporations had aboriginal land 
claims.
    Sealaska received its land only under section 14(h) of ANCSA. 
Sealaska did not receive land in proportion to the number of Native 
shareholders or in proportion to the size of the area to which Sealaska 
had an aboriginal land claim because, in part, in 1968, minimal 
compensation was paid to the Tlingit and Haida Indians pursuant to a 
U.S. Court of Claims decision, which held compensation was due for the 
taking of the 17 million acre Tongass National Forest and the 3.3 
million acre Glacier Bay National Park. The 1968 settlement provided by 
the Court of Claims did not compensate the Tlingit and Haida for 
2,628,207 acres of land in southeast Alaska also subject to aboriginal 
title. The court also determined the value of the lost Indian fishing 
rights at $8,388,315, but did not provide compensation for those 
rights. It's also important to understand that the U.S. Court of Claims 
did not compensate at anything close to fair market value. The 
settlement worked out to just 43.8 cents per acre.
    The 1968 settlement also should be viewed in context with the 
universal settlement reached by Congress, just 3 years later, which 
allowed for the return of 44 million acres and almost $1 billion to 
Alaska's Native people. Land was always the ultimate goal. With a 
population that represented more than 20 percent of Alaska's Native 
population in 1971, southeast Alaska Natives ultimately would receive 
title to just 1 percent of land returned to Alaska Natives under ANCSA, 
ostensibly because the taking of Native lands in southeast Alaska had 
been dealt with by the Court of Claims. The Tlingit and Haida people 
thus led the fight for Native land claims, and lost a majority of our 
land as a consequence.
    As documented in ``A New Frontier: Managing the National Forests in 
Alaska, 1970-1995'', discussed below, the Forest Service opposed the 
recognition of traditional Indian use and aboriginal title in the 
Tongass National Forest for decades prior to the passage of ANCSA. As 
late as 1954, the Forest Service formally recommended that all Indian 
claims to the Tongass be extinguished because of continuing uncertainty 
affecting the timber industry in southeast Alaska. The logging of 
``public'' lands proceeded over the objection of Alaska Natives, with 
the 1947 Tongass Timber Act explicitly authorizing the Secretary of 
Agriculture to sell ``timber growing on any vacant, unappropriated, and 
unpatented lands within the exterior boundaries of the Tongass National 
Forest in Alaska, notwithstanding any claim of possessory rights.''
    In hearings leading to the passage of ANCSA, the Forest Service 
opposed most selections near Native villages because the selections 
would conflict with existing public timber contracts. The Forest 
Service publicly acknowledged their interest in limiting the extent of 
Native land selections to protect two 50-year timber supply contracts 
between the Forest Service and Ketchikan Pulp Company and Alaska Lumber 
and Pulp Company, agreed to in 1951 and 1957.

    In 1969, in a letter submitted for the record to the House 
Committee on Interior and Insular Affairs, U.S. Forest Service 
Associate Chief Arthur Greeley made the following argument opposing the 
conveyance of land to Native people in the Tongass for the specific 
purpose of supporting economic development in Native villages:

        * * * Such [land] grants would alter the management objectives 
        of valuable commercial forest lands now committed to the 
        growing pulp industry. Although provision might be made so that 
        individual [pulp industry] contracts can be adjusted to meet 
        specific contract requirements, these lands would be removed 
        from the National Forests. They would thus be removed from the 
        larger whole that attracted the pulp industry to Alaska. 
        Removing these lands from long-term National Forest management 
        would serve to dilute the base on which this industry has been 
        established.

    Alaska Native Land Claims, Part I: Hearing before the H. Comm. on 
Interior and Insular Affairs, 91st Cong. 333 (1969) (statement of 
Arthur W. Greeley, Associate Chief of the Forest Service, U.S. 
Department of Agriculture) (emphasis added).
    Sealaska ultimately would be authorized to recover about 365,000 
acres of land under ANCSA. However, under the terms of ANCSA, and 
because the homeland of the Tlingit, Haida and Tsimshian people had 
been reserved by the U.S. Government as a national forest, the 
Secretary of the Interior was not able to withdraw land in the Tongass 
for selection by and conveyance to Sealaska. Only the Village 
Corporations were permitted to select land near the villages, and each 
Village Corporation in southeastern Alaska was limited to just one 
township of land. The only lands available for selection by Sealaska in 
1971 were slated to become part of the Wrangell-St. Elias National Park 
or consisted essentially of mountain tops.
    Faced with strong opposition from the U.S. Forest Service to Native 
land ownership in the Tongass, Sealaska had no choice but to request 
that Congress amend ANCSA to permit Sealaska to select lands near its 
villages. Sealaska made this request with the understanding, based on 
Bureau of Land Management (BLM) estimates, that its entitlement would 
be just 200,000 acres and that land available near the villages would 
be sufficient for Sealaska selections. See Amendments to Alaska Native 
Claims Settlement Act, Part I: Hearing before the S. Comm. on Interior 
and Insular Affairs, 94th Cong. 184 (1975) (statement of John 
Borbridge, President, Sealaska Corporation).
    Congress concurred, amending ANCSA in 1976 to allow Sealaska to 
make its selections from within some of the 10 withdrawal boxes 
established under ANCSA for the 10 southeast Native villages recognized 
under that act. Today, however, we know that Sealaska's entitlement 
under ANCSA is approximately 365,000 acres, not the 200,000 acres BLM 
had originally estimated. Sealaska has now received just over 290,000 
of the acres to which it is entitled from inside the withdrawals 
authorized by Congress. The remaining selections, as discussed 
throughout this testimony, are not appropriate for development, and 
would require Sealaska to select community municipal watersheds, and 
from areas with exceptional fisheries values.
    Sealaska agreed to select land from within the withdrawal boxes 
because, in 1976, we had no other place to go. With two large pulp 
mills holding contracts to cut timber throughout the Tongass at the 
time, and the Forest Service favoring the timber industry over Native 
land claims, the political reality was such that Sealaska had no true 
ability to ask for a fair settlement. Did Sealaska ask to select land 
from within the withdrawal boxes? Yes. But the suggestion that we, 
Alaska's Native people, invited our own exclusion from our own Native 
homeland is an idea that any witness to our history should find both 
reprehensible and nonsensical. For us, it was a choice between 
something limited, or nothing at all. It was hardly a choice.
    H.R. 740 addresses problems associated with the unique treatment of 
Sealaska under ANCSA and the unintended public policy consequences of 
forcing Sealaska to select its remaining land entitlement from within 
the existing ANCSA withdrawal boxes. The legislation presents to 
Congress a legislative package that will result in public policy 
benefits on many levels.
    Observers unfamiliar with ANCSA sometimes suggest that the Sealaska 
legislation might somehow create a negative ``precedent'' with respect 
to Alaska Native land claims. This seems odd in the context of the 
history of the Tongass and its impact on the Southeast settlement. 
Clearly, there were different circumstances in Southeast Alaska that 
resulted in disparate treatment that must be rectified. Congress has, 
on multiple occasions, deemed it appropriate to amend ANCSA to address 
in an equitable manner issues that were not anticipated by Congress 
when ANCSA passed. Congress continues to amend Federal law to include 
more protected conservation acreage without debate about whether or not 
it is a negative precedent.

Sealaska's Land Settlement in the Context of Southeast Alaska's History

    Two documents attached to this written testimony present an 
historical perspective on the long struggle to return lands in the 
Tongass to Native people: (1) the draft document funded by the Forest 
Service and authored by Dr. Charles W. Smythe and others, ``A New 
Frontier: Managing the National Forests in Alaska, 1970-1995'' (1995) 
(``A New Frontier''); and (2) a paper by Walter R. Echo-Hawk, ``A 
Context for Setting Modern Congressional Indian Policy in Native 
Southeast Alaska (``Indian Policy in Southeast Alaska'').
    The findings and observations summarized below are to be attributed 
to the work of Dr. Smythe and Mr. Echo-Hawk. For the sake of brevity, 
we have summarized or paraphrased these findings and observations.
    Dr. Smythe's research, compiled in ``A New Frontier'', found, among 
other things:

    <bullet>  By the time the Tongass National Forest was created in 
1908, the Tlingit and Haida Indians had been marginalized. As white 
settlers and commercial interests moved into the Alaska territory, they 
utilized the resources as they found them, often taking over key areas 
for cannery sites, fish traps, logging, and mining.
    <bullet>  The Act of 1884, which created civil government in the 
Alaska territory, also extended the first land laws to the region, and 
in combination with legislation in 1903, settlers were given the 
ability to claim exclusively areas for canneries, mining claims, 
townsites, and homesteads, and to obtain legal title to such tracts. 
Since the Indians were not recognized as citizens, they did not have 
corresponding rights (to hold title to land, to vote, etc.) to protect 
their interests.
    <bullet>  For decades prior to the passage of ANCSA, the Forest 
Service opposed the recognition of traditional Indian use and 
aboriginal title in the Tongass National Forest. As late as 1954, the 
Forest Service formally recommended that all Indian claims to the 
Tongass be extinguished because of continuing uncertainty affecting the 
timber industry in southeast Alaska.
    <bullet>  The policy of the Roosevelt Administration was to 
recognize aboriginal rights to land and fisheries in Alaska. Following 
hearings on the aboriginal claims related to the protection of 
fisheries in the communities of Hydaburg, Klawock and Kake, Secretary 
of the Interior Harold Ickes established an amount of land to be set 
aside for village reservations. This was troubling to the Forest 
Service. The Department of Agriculture supported the efforts of the 
U.S. Senate to substantially repeal the Interior Secretary's authority 
to establish the proposed reservations in southeast Alaska.

    Walter Echo Hawk's paper, ``Indian Policy in Southeast Alaska'', 
observes, in part:

    <bullet>  The creation of the Tongass National Forest was done 
unilaterally, more than likely unbeknownst to the Indian inhabitants.
    <bullet>  The Tongass National Forest was actually established 
subject to existing property rights, as it stated that nothing shall be 
construed ``to deprive any persons of any valid rights'' secured by the 
Treaty with Russia or by any Federal law pertaining to Alaska. This 
limitation was essentially ignored.
    <bullet>  A Tlingit leader and attorney William Paul won a short-
lived legal victory in the Ninth Circuit Court of Appeals in Miller v. 
United States, 159 F. 2d 997 (9th Cir. 1947), which ruled that lands 
could not be seized by the Government without the consent of the 
Tlingit landowners and without paying just compensation. To reverse 
this decision, Federal lawmakers passed a Joint Resolution authorizing 
the Secretary of Agriculture to sell timber and land within the 
Tongass, ``notwithstanding any claim of possessory rights'' based upon 
``aboriginal occupancy or title.'' This action ultimately resulted in 
the Tee-Hit-Ton Indians v. United States decision, in which the U.S. 
Supreme Court held that Indian land rights are subject to the doctrines 
of discovery and conquest, and ``conquest gives a title which the 
Courts of the Conqueror cannot deny.'' 348 U.S. 272, 280 (1955). The 
Court concluded that Indians do not have 5th Amendment rights to 
aboriginal property. The Congress, in its sole discretion, would decide 
if there was to be any compensation whatsoever for lands stolen.

 H.R. 740--A Balanced Solution With Significant Public Policy Benefits

    Alaska's congressional delegation has worked hard to ensure that 
the fair settlement of Sealaska's Native land claims is accomplished in 
a manner that may have the greatest benefit to all of southeast Alaska 
while balancing the interests of individuals, communities, Federal and 
State land management agencies, and other interested stakeholders.
    Thanks to the hard work of Alaska's congressional delegation, this 
legislation largely is in symmetry with the Obama Administration's 
goals for the Tongass, while also allowing Sealaska to apply to receive 
cultural sites that are sacred to our people as well as land for 
sustainable economic development, supporting local jobs and 
communities.
Sacred Sites
    <bullet>  H.R. 740 would permit Sealaska to select up to 127 
cultural sites, totaling 840 acres. In previous version of the 
legislation, Sealaska would have been permitted to select more than 200 
cultural sites, totaling 3,600 acres.
    <bullet>  Sites will be selected and conveyed pursuant to the terms 
of ANCSA Section 14(h)(1) and Federal regulations.
Small Parcels of Land
    <bullet>  H.R. 740 permits Sealaska to select 16 parcels totaling 
2,050 acres, near Native villages. The land offers cultural, 
recreational, and renewable energy opportunities for the villages.
    <bullet>  More than 50 small parcels sites were considered in 
previous version of the legislation. Sites heavily used by local 
communities were removed from H.R. 740.
    <bullet>  Sealaska will seek partnerships with local tribes, clans, 
businesses and residents to enhance the indigenous and recreational 
experience on these parcels of land and to share local character and 
knowledge.
Large Parcels of Land
    <bullet>  Most of Sealaska's entitlement lands will be conveyed as 
large parcels of land, comprising approximately 67,185 acres.
    <bullet>  These lands were identified in consultation between 
Alaska's congressional delegation, Sealaska, tribes, the State, local 
communities, the Forest Service, local conservation groups, and other 
regional stakeholders, avoiding ecologically sensitive areas, the 
``backyards'' of local communities, conservation areas, and community 
watersheds.
    <bullet>  These lands are generally roaded, and contain significant 
second growth stands of timber, supporting Sealaska's efforts to 
develop a sustainable forestry economy on Native lands in southeastern 
Alaska.

    We believe this legislation is in symmetry with the goals of the 
Administration. H.R. 740 will:

    <bullet>  Protect roadless areas and accelerate the transition away 
from forest management that relied on old growth harvesting;
    <bullet>  Help struggling communities in rural Alaska by promoting 
economic development; and
    <bullet>  Finalize Sealaska's Native entitlement in an equitable 
manner, including the conveyance of important cultural sites.

    Without legislation to amend ANCSA, Sealaska will be forced either, 
to select and develop roadless old growth areas within the existing 
withdrawals or, to shut down all Native timber operations, with 
significant negative impacts to rural communities, the economy of 
southeast Alaska, and our tribal member shareholders.
    The public benefits of this legislation also extend far beyond 
Sealaska Corporation and its shareholders. Pursuant to a revenue 
sharing provision in ANCSA, Sealaska distributes 70 percent of all 
revenues derived from the development of its timber resources among all 
of the more than 200 Alaska Native Village and Regional Corporations.
    Finalizing Sealaska's ANCSA land entitlement conveyances will also 
benefit the Federal Government. This legislation allows Sealaska to 
move forward with its selections, which ultimately will give the BLM 
and the Forest Service some finality and closure with respect to 
Sealaska's selections in southeast Alaska.

    Seeking Sustainable Solutions by Selecting Outside the ``Boxes''

    Unlike the other 11 Regional Native Corporations, Sealaska was 
directed to select the entirety of its entitlement lands only from 
within boxes drawn around a restricted number of Native villages in 
southeast Alaska. Forty-four percent of the 10 withdrawal areas is 
comprised of salt water, and multiple other factors limit the ability 
of Sealaska to select land within the boxes.
    To date, Sealaska has selected approximately 290,000 acres of land 
under ANCSA from within the withdrawal boxes. Based on BLM projections 
for completion of Sealaska's selections, the remaining entitlement to 
be conveyed to Sealaska is approximately 70,000 acres. The only 
remaining issue is where this land will come from. Of the lands 
available to Sealaska today within the ANCSA withdrawal boxes:

    <bullet>  270,000 are included in the current U.S. Forest Service 
inventory of roadless forestland;
    <bullet>  112,000 acres are comprised of productive old growth;
    <bullet>  60,000 acres are included in the Forest Service's 
inventory of old growth reserves; and
    <bullet>  Much of the land is comprised of important community 
watersheds, high conservation value areas important for sport and 
commercial fisheries and/or areas important for subsistence uses.

    The Sealaska legislation allows Sealaska to move away from 
sensitive watersheds and roadless areas, to select a balanced inventory 
of second growth and old growth, and to select most of its remaining 
ANCSA lands on the existing road system, preserving on balance tens of 
thousands of acres of old growth, much of which is inventoried 
``roadless old growth''.

    Local Impact of H.R. 740--Saving Jobs in Rural Southeast Alaska

    While jobs in southeast Alaska are up over the last 30 years, many 
of those jobs can be attributed to industrial tourism, which creates 
seasonal jobs in urban centers and does not translate to population 
growth. In fact, the post-timber economy has not supported populations 
in traditional Native villages, where unemployment among Alaska Natives 
ranges above Great Depression levels and populations are shrinking 
rapidly.
    We consider this legislation to be the most important and immediate 
``economic stimulus package'' that Congress can implement for southeast 
Alaska. Sealaska provides significant economic opportunities for our 
tribal member shareholders and for residents of all of southeast Alaska 
through the development of an abundant natural resource--timber.
    Our shareholders are Alaska Natives. The profits we make from 
timber support causes that strengthen Native pride and awareness of who 
we are as Native people and where we came from, and further our 
contribution in a positive way to the cultural richness of American 
society. The proceeds from timber operations allow us to make 
substantial investments in cultural preservation, educational 
scholarships, and internships for our shareholders and shareholder 
descendants. Our scholarships, internships and mentoring efforts have 
resulted in Native shareholder employment above 80 percent in our 
corporate headquarters, and significant Native employment in our 
logging operations.
    We are also proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and our local communities to run a community 
firewood program. We contribute cedar logs for the carving of totems 
and cedar carving planks to schools and tribal organizations. We are 
collaborating with our village corporations and villages to develop 
hydroelectric projects. We do all of these collaborative activities 
because we are not a typical American corporation. We are a Native 
institution with a vested interest in the well-being of our 
communities.
    ANCSA authorized the return of land to Alaska Natives and 
established Native Corporations to receive and manage that land so that 
Native people would be empowered to meet our own cultural, social, and 
economic needs. H.R. 740 is critically important to Sealaska, which is 
charged with meeting these goals in southeast Alaska.

            Sealaska's Sustainable Forest Management Program

    Sealaska has a responsibility to ensure the cultural and economic 
survival of our communities, shareholders and future generations of 
shareholders. Sealaska also remains fully committed to responsible 
management of the forestlands for their value as part of the larger 
forest ecosystem. At the core of Sealaska's land management ethic is 
the perpetuation of a sustainable, well-managed forest, which supports 
timber production while preserving forest ecological functions. 
Sealaska re-plants, thins and prunes native spruce and hemlock trees on 
its lands, thereby maintaining a new-growth environment that better 
sustains plant and wildlife populations and better serves the 
subsistence needs of our communities. Significant portions of 
Sealaska's classified forest lands are set aside for the protection of 
fish habitat and water quality; entire watersheds are designated for 
protection to provide municipal drinking water; and we set aside areas 
for the protection of bald eagle nesting habitat. The decision to cut 
trees is not taken lightly, and is always based on the best science and 
best forest practices.

   The Forest Service's Plans for the Tongass: Impact of H.R. 740 on 
                           Tongass Management

    We believe Sealaska's offer to leave behind roadless old growth 
timber in the Tongass is significant; it is a proposal we believe this 
Administration should support based on its goals to protect these types 
of forest lands. We also believe that the lands proposed for conveyance 
under H.R. 740 conflict minimally with and may ultimately benefit the 
Forest Service's Transition Framework for the Tongass.
    Sealaska and the Forest Service agree that to achieve a successful 
transition to second growth, the Forest Service needs Sealaska to 
remain active in the timber industry in the Tongass, because Sealaska's 
operations support regional infrastructure (including roads and key 
contractors), development of markets (including second growth markets), 
and development of efficient and sustainable second growth harvesting 
techniques.
    Sealaska has 30 years of experience developing and distributing 
southeast Alaska wood to new and existing markets around the world. 
Sealaska recently has pioneered second growth harvesting techniques in 
southeast Alaska and is active in this market. By partnering with the 
Forest Service, harvesting in proximity to each other, and 
collaborating to build new markets based on second growth, we will all 
have a better chance of success.

                Conservation Considerations and H.R. 740

    This legislation is fundamentally about the ancestral and 
traditional homeland of a people who have lived for 10,000 years in 
southeast Alaska. For more than 200 years, people from across the 
western world have traveled to southeast Alaska with an interest in the 
rich natural resources of the region--an area the size of Indiana. We 
have endured Russian fur trade, whaling, gold miners and fishing 
interests over time. We had large fishing industry activity and two 
large pulp mills with significant access to our resources. In the 
meantime, Natives were ignored, marginalized or relocated to central 
locations, in part for federally-mandated schooling.
    More recently, some conservation-minded groups, like industrialists 
before them, introduced new ideas about how best to serve the public 
interest in the Tongass. The conservation community writ-large has long 
fought to preserve the Tongass for its wilderness and ecological 
values, and we have often worked with them to seek appropriate 
conservation solutions for the forest. Our resource development 
practices have evolved over 30 or more years to better ensure the 
preservation of the Tongass' ecological values.
    We support conservation, but there must be a recognition of the 
human element--that people have to live in this forest, and that people 
rely on a cash economy to survive. Industrial tourism, ecotourism, and 
fishing provide limited employment to the residents of our Native 
villages. But these jobs are scarce and short-term, and have not 
prevented widespread outmigration from our communities.
    We also want those expressing an interest in the Tongass to 
recognize that the Tongass is a Native place, and that Native people 
have a right to own Native places and to promote economic development 
on Native lands while seeking to balance the needs of our tribal member 
shareholders, our neighbors, and the forest itself. We welcome people 
to our homeland--but we have a right and an innate desire to exist and 
subsist in the Tongass.
    There are groups that consistently agree with us that we should 
have our land, but wish to decide--to the smallest detail--where that 
land should be. Native people have always been asked to go second, 
third or last. Let's not forget that H.R. 740 addresses the existing 
land entitlement of the Native people of southeast Alaska.
    Some groups have claimed that ``the lands that Sealaska proposes to 
select . . . are located within watersheds that have extremely 
important public interest fishery and wildlife habitat values.'' H.R. 
740 will result in net benefits for watersheds, anadromous streams, 
public hunting and fishing and recreation, the preservation of roadless 
old growth forests, sensitive species, and the Forest Service's 
conservation strategy for the Tongass. We agree that all lands in our 
region are valuable, and we believe our Federal lands and our Native 
lands should be managed responsibly. We acknowledge the need for 
conservation areas and conservation practices in the Tongass. This bill 
meets all of those goals.

               Technical Amendments to the TFPA and NHPA

    Section 7(d)(1) of H.R. 740 would permit Native Corporations to 
work with the Secretary of Agriculture under the Tribal Forest 
Protection Act (TFPA) to address forest fire and insect infestation 
issues on Forest Service lands that threaten the health of the adjacent 
Native lands. Section 7(d)(2) of H.R. 740 would allow Native 
Corporations, as owners of Native cemetery sites and historical places 
in Alaska, to work with the Secretary of the Interior to secure Federal 
support for the preservation of such lands under the National Historic 
Preservation Act (NHPA).
    Prior to the reintroduction of legislation on Sealaska's behalf in 
the 112th Congress, these amendments were re-drafted to clarify only 
that Native Corporations are ``eligible'' to participate in the 
respective Federal programs established under the TFPA and NHPA. The 
amendments also included language that explicitly states that they do 
not create ``Indian country'' in Alaska.

                   A New Bill for the 113th Congress

    In the 113th Congress, Congressman Don Young introduced new 
legislation that incorporates a number of changes, all intended to 
resolve the outstanding concerns of the Obama Administration. H.R. 740 
incorporates the following changes, among others:

    <bullet>  Final entitlement acreage identified: In the 112th 
Congress, the Sealaska bill did not finalize Sealaska's entitlement 
upon enactment. Instead, the bill provided for finalization of 
entitlement by allowing Sealaska to identify its remaining entitlement 
lands from within a pool of lands. H.R. 740 identifies with finality 
the land Sealaska will receive.
                <bullet>  BLM has estimated Sealaska's final 
                entitlement at approximately 70,075 acres. H.R. 740 
                establishes Sealaska's final entitlement as 70,075 
                acres.

    <bullet>  Forest Service concerns addressed: H.R. 740 ``squares 
up'' the boundaries of Sealaska's economic parcels so the boundaries 
can more easily be managed by the Forest Service, removes some lands 
that conflicted with the Forest Service's Tongass National Forest 
conservation plan and/or timber harvesting plan, and removes parcels of 
land on Prince of Wales Island, Tuxekan Island, and Kosciusko Island 
that raised local concerns.
    <bullet>  Cemetery sites and historical places removed: In the 
112th Congress, the bill would have allowed Sealaska to use 3,600 acres 
of its existing entitlement to select cemetery sites and historical 
places, consistent with Section 14(h)(1) of ANCSA.
                <bullet>  H.R. 740 would allow Sealaska to select up to 
                127 cemetery and historical sites, and will limit the 
                acreage available for those sites to just 840 acres.

    <bullet>  Small parcel sites removed: In the 112th Congress, the 
Sealaska bill would have conveyed 30 small parcels to Sealaska to be 
used for cultural or economic activities.
                <bullet>  To address some local concerns, H.R. 740 will 
                reduce the number of small parcel sites to 16--about 
                half of which are located within the original 
                withdrawal boxes.

                         Time is of the Essence

    Timing is critical to the success of the legislative proposal 
before you today. Without a legislative solution, we are faced with 
choosing between two scenarios that ultimately will result in dire 
public policy consequences for our region. If H.R. 740 is stalled 
during the 113th Congress, either Sealaska will be forced to terminate 
all of its timber operations within approximately one year for lack of 
timber availability on existing land holdings, resulting in job losses 
in a region experiencing severe economic depression, or Sealaska must 
select lands that are currently available to it in existing withdrawal 
areas. The timing is the reason for H.R. 1306, which is a vehicle to 
more quickly transfer two parcels of land currently included in H.R. 
740, just in case H.R. 740 is held up and not passed in 2013.

                     Our Future in Southeast Alaska

    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. The Tongass is the heart and soul of our 
history and culture. We agree that areas of the region should be 
preserved in perpetuity, but we also believe that our people have a 
right to reasonably pursue economic opportunity so that we can continue 
to live here. H.R. 740 represents a sincere and open effort to meet the 
interests of the Alaska Native community, regional communities, and the 
public at large.
    It is important for all of us who live in the Tongass, as well as 
those who value the Tongass from afar, to recognize that the Tlingit, 
Haida and Tsimshian are committed to maintaining both the natural 
ecology of the Tongass and the Tongass as our home. We therefore ask 
for a reasoned, open, and respectful process as we attempt to finalize 
the land entitlement promised to our community more than 40 years ago. 
We ask for your support for H.R. 740.
    Gunalcheesh. Thank you.
                                 ______
                                 
    Mr. Young. Thank you, Byron. Senator?
    Ms. Hanabusa. So, Byron, what is the correct pronunciation 
that he keeps butchering?
    Mr. Mallott. I will not remark on how he addresses you, 
Congresswoman.
    [Laughter.]
    Mr. Mallott. He, from time to time, has called me 
``Brian.'' He has called me ``hey, you.'' He has called me 
``his good friend'' as he wraps his arms around me. He and I 
have incredibly close friends and family, whose pictures hang 
on his wall.
    He will say to me sometimes, ``hey, you, you know Morris 
almost as well as I do,'' talking about his friend as he 
struggles to capture my name after 40 years of friendship.
    Thank you.
    [Laughter.]
    Ms. Hanabusa. Is it Mallott?
    Mr. Mallott. Yes, Mallott.
    Ms. Hanabusa. Did you hear that? It is Mallott.
    [Laughter.]
    Ms. Hanabusa. First of all, Mr. Chair, I would like to also 
share with you that Mr. Mallott and his son are very much a 
part of Hawaii because he sits on the Board of what we call the 
Polynesian Voyaging Society, and he and his son, I think his 
son is going to be on seven of the legs as we take what is 
traditionally called ``Hokulea,'' and it is how we believe the 
Native Hawaiians came, and then ``voyage.'' It is navigation by 
stars.
    They have rebuilt the Hokulea. They are going to go around 
the world. He is going to be part of that. Do you want to join 
him?
    [Laughter.]
    Mr. Young. Well, if you take over the Majority, I might be 
able to do that.
    [Laughter.]
    Ms. Hanabusa. Thank you. Thank you very much for being so 
much a part of our culture as well. It always shows the 
closeness of Alaska and Hawaii, and we, of course, are trying 
our best. That is why I have to keep him straight on 
everything.
    Having said that, we have heard much, I believe it was in 
Mr. Pena's testimony in the other panel, about the fact that 
they are very close or negotiations have gone on, like the way 
you said. In his particular case, I think he referenced S. 340, 
which is the Senate version of this bill.
    When you said we have worked on it, and I know you have, 
are there any provisions in the Senate bill that you feel 
should be incorporated in this bill, because it explains or 
shows the amount of negotiations that have gone on, do not 
worry about offending either of us because we have signed on to 
the original, or is it the original bill you are here to push 
for?
    Mr. Mallott. Because the House of Representatives acted so 
forthrightly and so quickly and has by the full House passed 
this bill into what will be law if accepted by the other body, 
and because the current Federal Administration was relatively 
new in office during key recent moments of negotiations, most 
of the negotiations have concentrated on the Senate bill.
    There is no question that has been the focus principally of 
the Administration. It has been the focus principally of the 
environmental community that has been involved and other 
interests as well.
    Therefore, not necessarily speaking personally but speaking 
from the realistic perspective that much of the negotiation has 
taken place on the Senate side, and much agreement has been 
reached on the Senate legislation.
    With particularly the Administration and the environmental 
community, I think there is a general expectation that would be 
the principal vehicle.
    Speaking personally and not even necessarily as a Sealaska 
Board member, in my personal judgment, there is more equity and 
justice in the House bill, but I also know from long, long 
experience that what the Native community can easily and 
passionately feel is equity and justice for others as often is 
very hard to ultimately make possible.
    We are dealing with the fundamental reality here. I am not 
trying to fudge my answer, but I am trying to be as honest as I 
can be. Thank you.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair. I yield 
back, my time has expired.
    Mr. Young. Any questions?
    [No response.]
    Mr. Young. I know there has been talk they do not like the 
Young bill. I am pleased to hear you would like to have that 
bill. For the audience for anybody else, I am not going to take 
a Senate bill when it could be further negotiated. The real 
reason the Senate has been able to do anything is because my 
bill is out there to put a little prod into them. I want 
everybody to understand that.
    If it goes to conference, we can always figure out what we 
should do. Justice is something, madam, I have to tell you, the 
reason they could not select enough lands in Southeast, 
including the State, it was reserved at that time, and under 
the Statehood Act, we could not select the lands, it was the 
communities.
    Of course, the Alaska Native Land Claims Act came in, and 
they did select the land, but they still have not gotten 40,000 
acres of their land. That is really what this bill is trying to 
do. I do appreciate it.
    Andy, what are you going to do with this land once it is 
transferred? You said you were going to build a hotel or 
residing area?
    Mr. Teuber. Yes, Mr. Chair. Thank you for your question. As 
you will recall perhaps years ago, 2 years ago, I joined you on 
a tour of the Alaska Native Medical Center, and you were 
touring, among other departments, oncology and cardiology.
    Some of the information that you had gained from our 
providers were that they had worked very hard to accomplish a 
reduction in the backlog for services to our patients when they 
were able to finally get to Anchorage.
    However, for many of our patients, the constraint that 
exists is housing in Anchorage, affordable housing that will 
allow them to become patients when their appointments become 
available.
    The request that the Consortium is making through this H.R. 
623 is that there is a Federal conveyance by the IHS of land to 
the Consortium. The reason why we are going through this 
process is that although the IHS has already conceded to a 
quick claim deed for the property, which allows us right of 
entry, which allows the progress to begin, the financing for 
the construction, short and long term, is only going to be made 
available by diminishing or eradicating the other constraints 
or encumbrances that would exist under that quick claim deed, 
and so we approach you and this body for support in this H.R. 
623 for a warranty deed that would allow for the Consortium to 
leverage the property in the long term financing for the 170 
unit housing project that will begin construction this summer.
    Mr. Young. You heard the testimony of IHS. Do you dispute 
any of that? What about the revision clause? Does that bother 
you?
    Mr. Teuber. Thank you very much, I appreciate the question. 
First of all, we appreciate Deputy Director McSwain's support 
of this, and for the first time perhaps in my history, we have 
asked that the IHS slow down in this process. We have never 
been in that position before.
    They have been very supportive. The process as it exists 
today, Mr. Chairman, is that we have a process for re-platting 
the existing parcel in order to ensure the legal description is 
accurate, both in the quick claim deed, the warranty deed, and 
in this legislation.
    We support the legislation as it is written currently. We 
support the request by the IHS that the 30 day period be 
expanded or increased to 90 days. However, we object to the 
mild suggestion that was expressed by previous testimony around 
the reversionary clause because it is that very reversionary 
clause that we are seeking your support through this 
legislation to get away from.
    The reversionary clause exists with the quick claim date 
and we have already received that from the IHS. The purpose for 
my testimony and our request in support of this legislation is 
to get away from that so we can use the parcel for long term 
financing, it will collateralize the loan.
    Finally, Mr. Chair, if I can, there was a request that the 
Consortium accept responsibility for the environmental aspects 
of the parcel going back to 1999. We support the language as it 
is currently written in the legislation, keeping it as it is, 
that we would accept environmental responsibility from the time 
the conveyance occurs, rather than from an arbitrary date back 
to 1999, once that control was not ours.
    Thank you.
    Mr. Young. Thank you for the clarification. Do you have any 
questions?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Mallott, you 
made the case that the Natives of Southeast Alaska were treated 
differently from the other Native Corporations on how much land 
was conveyed. I think you pointed that out both in our oral and 
written testimony.
    Although Sealaska got fewer acres than the other regional 
corporations, it is my understanding the value of those acres 
were among the highest of any corporation. Because of some of 
the communications that we received, let me ask you the 
question.
    How do you respond to the argument that in terms of dollar 
value, Sealaska fared very well under the settlement terms?
    Mr. Mallott. Thank you. First of all, I would say that 
again, as a young person out there literally traveling from 
village to village during those years, seeing community leaders 
and tribal leaders and village leaders draw on sheets of paper 
the boundaries of the lands that they claimed and that they 
used and occupied, it was never about economic development.
    It was about retain our homelands, our Native lands, for 
future generations. Those lands that are precious to us.
    We also had as a strong principle in our aspiration and 
involvement with ANCSA, that we all share and share alike. We 
know that Alaska is really another country, and that the 
location of valuable resources are widely spread, but they also 
exist in known areas.
    There was a sense that all of the regions should share 
collectively in whatever wealth was generated off of our Native 
lands.
    In Southeast, while we had valuable timber, the law, ANCSA 
itself, required that 70 percent of all profits, to use 
shorthand, the actual law said revenues, and it took 10 years 
of litigation and negotiations to ultimately define what that 
meant, but we share 70 percent of our profits one with the 
other.
    The fact that Sealaska had valuable lands, we shared 70 
percent of that revenue with the other corporations, other 
corporations had ultimately, we found, far more valuable lands, 
and they shared with us.
    Mr. Grijalva. I appreciate that answer very much. Thank you 
for clarifying that. From the outset, in defining boundaries, 
the issue was territorial homeland as opposed to any other 
consideration? I think that was your comment.
    Mr. Mallott. Certainly from the perspective of particularly 
village leaders, the folks who lived on the land, that was very 
much the case; yes.
    Mr. Grijalva. Thank you. Chairman Leno, if I can ask you a 
question, and thank you for being here, sir, in your written 
testimony, you indicate that H.R. 841 does not have any 
opposition from tribes anywhere or counties in Oregon, but it 
has come to my office's attention that the Cowlitz Indian 
Tribe, and I hope I am saying that correctly, of Washington 
State, has issued a letter in opposition to your bill based on 
Grand Ronde's efforts to stop Cowlitz's land into trust efforts 
by invoking the Carcieri decision.
    Can you comment on this letter or on that situation?
    Mr. Leno. Really, sir, I just now got that information. I 
will say in kind of our litigation with Cowlitz, we actually 
met with the Cowlitz's about a week and a half ago, that was 
our request. They in turn when the record of decision came out 
last week requested a meeting with us. We will accommodate that 
meeting. Next Friday, we will be meeting with the Cowlitz's.
    Mr. Grijalva. Thank you, Chairman. I appreciate it, I yield 
back.
    Mr. Young. You can have a follow up question.
    Ms. Hanabusa. This is for Mr. Teuber. My colleague here, 
the Chair, says what great work you do, and I am sure you do. I 
am interested in the whole reversionary interest. I am just 
wondering, because that seems to be the hang up that we are 
having, now, on that particular situation, are the rest of your 
lands in trusts, that the facility sits on?
    Mr. Teuber. Thank you, Ranking Member Hanabusa, for that 
question. The Consortium, the Alaska Native Tribal Health 
Consortium, was formed in 1997. At that time, we took over the 
delivery of services from the Indian Health Service.
    However, the facility, the Alaska Native Medical Center, 
resides on Federal property to this day. In terms of trust 
lands, no. The private property that our organization resides 
on is not a conveyance. It does not derive from Federal 
conveyance. It was purchased as commercial property like any 
other commercial purchase.
    Ms. Hanabusa. Let me see if I can clear this up. I do not 
know anything about Alaska law, but I assume you are the 
equivalent of like a non-profit?
    Mr. Teuber. We are, indeed, yes, a 501(c)(3).
    Ms. Hanabusa. I can tell you under Hawaii law, for example, 
if you are a non-profit under Hawaii law, when and if you 
terminate, because it seems to be the interest of the 
reversionary component of it, what happens is you can only 
transfer those assets to a like type of corporation or like 
type of non-profit.
    Do you know if that also exists in Alaska's laws? For some 
reason, if you were not to exist any more, it would be similar 
to reversionary interest because--not to the Federal Government 
but to another entity that would do like purposes. Is that part 
of your laws? Do you know?
    Mr. Teuber. Thank you. I am not an attorney or expert in 
tax law, but I believe, and I could certainly request the 
assistance of my valued colleague, Ms. Valerie Davidson, to 
reinforce my response, but I believe that the description that 
you are providing is one of a Federal nature around 501(c)(3) 
status----
    Ms. Hanabusa. No, this is not 501(c)(3), which would be a 
tax exempt status. What this is under laws of a State, when you 
become incorporated as a non-profit, I use that word 
``incorporated'' because it is kind of contrary to what you 
think of as a non-profit, when that non-profit ceases to exist, 
some State laws require that the assets of the non-profit can 
only transfer to a like entity.
    That is what I am asking you, and if you do not know, you 
can provide it to me in writing after you have had the 
opportunity.
    It seems to me it would take care of this concern about 
reversionary interest.
    Mr. Teuber. Thank you. I appreciate the question and the 
concern. I am informed that Alaska law does not require that. 
We will confirm that for your benefit moving forward.
    However, I would say the Consortium is in fact a consortium 
of 229 Tribes that have coalesced their health care delivery 
system in the tertiary care and specialty arena with the 
Consortium, that in my estimation, there is little to no 
likelihood there will ever be a day when that property would be 
used for purposes other than delivery of health care to Alaskan 
Natives and American Indian people.
    Ms. Hanabusa. I tend to agree with you. I just thought that 
might take care of this particular issue. Thank you. Mr. Chair, 
I yield back.
    Mr. Young. Thank you. One statement to Byron. When you said 
they shared, all the tribes, and I agree with that, but I 
remember one time when my wife and I were upstairs in a Western 
Hotel with a bunch of like Jake Adams and Ollie Blevett and a 
few others. Jake was being a little funny. He said are you 
Athabaskan, do you share and share alike?
    He looked him right in the eye and says Jake, I am a savage 
Athabaskan, what is mine is mine, and what is yours is mine, 
too.
    [Laughter.)
    Mr. Young. I never forgot it. Boy, I thought it was the 
greatest put down in the world.
    Mr. Mallott. The only observation I would make very 
quickly, Congressman, is to ask the question whether that was 
before or after you and Ollie got down on the floor to Eskimo 
leg wrestle.
    Mr. Young. You are not supposed to tell that. That was 
before.
    Anyway, I want to thank the panel for the testimony, and we 
will work on these bills. I can assure the Members that maybe 
there will be a shorter period of time when the courts can 
review the other legislation that we were talking about.
    All right. You are excused.
    We will have the third panel up, Ms. Diane Enos, Salt River 
Pima Indian Community; Mr. Ned Norris, Chairman of the Tohono 
Nation; and Mr. Jimmie Rosenbruch.
    Jimmie, I think your chair is right in front of you, is it 
not?
    And we are going to reverse orders here because I 
understand Mr. Rosenbruch has to catch an airplane, and so you 
are going to be first up. I am sure that makes you happy. Push 
your button on the mic.

STATEMENT OF JIMMIE CANNON ROSENBRUCH, EDNA BAY COMMUNITY, INC. 
                AND TERRITORIAL SPORTSMEN, INC.

    Mr. Rosenbruch. Without starting the clock, could I please 
submit? I have five letters I would like to submit to the 
Committee. Could I do so please?
    Mr. Young. Without objection, they are submitted to the 
Committee.
    [The five letters submitted for the record by Mr. 
Rosenbruch have been retained in the Committee's official 
files:]
    Mr. Rosenbruch. There is a March 13 letter, Territorial 
Sportsman of 2013. There is a letter of 19 different Sportsman 
groups in Alaska, dated April 22, 2013. There is a letter from 
three previous Directors of Alaska Department of Fish and Game, 
dated April 28, 2010. There is the Alaska Outdoor Council, NRA 
Chapter, dated April 16, 2013, and an Audubon letter, dated 
April 22, 2013.
    Mr. Young. Without objection.
    Mr. Rosenbruch. Will these be in good custody if I leave 
them sitting right there?
    Mr. Young. Actually leave them there and they will be 
picked up.
    Mr. Rosenbruch. OK. Thank you.
    I would say the same thing. You and I have been friends 
about as long as we have with Mr. Mallott, and it is 
Rosenbruch.
    [Laughter.]
    Mr. Rosenbruch. So----
    Mr. Young. OK, Mr. Smith. Go ahead.
    [Laugher.]
    Mr. Rosenbruch. OK. I want you to know I do not hold that 
against you at all.
    Listen, I would introduce myself: Jimmie Rosenbruch. I 
would just take a moment please and maybe familiarize the group 
a little bit with what we have done.
    We moved to Alaska. We are 1 year short of a half a century 
we have been in Alaska. I received the SEI Professional Hunter 
of the Year Award, Weatherby Award. That is kind of the Oscar 
of hunting.
    When I first went to Alaska in 1965, I was a civil engineer 
for the Bureau of Indian Affairs, and I traveled literally to 
every single 104 native villages on assignment. So we got a 
good look at Alaska.
    I was also appointed by the Secretary of the Interior as 
staff civil engineer at the Alaska Land Use Planning Commission 
to help define rights-of-way through corridors, through the 
newly selected parks and such.
    I have a degree as a civil engineer, but I said I would 
like a little more time in the bush, and I started guiding. I 
have guided about as long as I have been in Alaska. In fact, as 
a master guide I received the very first permit that the Forest 
Service ever issued to any hunting entity.
    My wife received the very first master guide license from 
the State of Alaska.
    I would say that in Alaska it is a group of sportsmen. Most 
people are sportsmen. There is not one single sportsman group 
which has endorsed these bills. There are about 12,000 bona 
fide individuals who are opposed to the bill, comprised of the 
Alaska Outdoor Council, which is a NRA chapter, and Territorial 
Sportsmen down in Juneau.
    One serious issue or concern we have is the preemption 
precedent that section 4(e)(1) of the Senate bill has in 
regards to transferring Federal management onto private lands. 
It specifies in there, and this was brought up by Territorial 
Sportsmen and their attorneys, that this provision would, in 
fact, in this bill provide for Federal management on private 
lands. That would be a precedent I do not believe we want to 
set. That we might know could cause a little bit of grief.
    As far as my culture goes, I was very well acquainted with 
Georgian Jesse Dalton of Hoonah, and I and my wife were both 
introduced, in fact, inducted into the Tlingit Clan. I was as 
an Eagle, and she was a Raven.
    I can tell you that George would not be happy with what we 
are doing with his timberlands. This clear-cutting, as a 
culture he respected the forest and cherished it.
    Another issue is on Kuiu Island where, as you stated, we 
had many years of this industrial clear-cutting with the pulp 
mills, and what remains on Kuiu Island, that little bit of old 
growth is what in this newest bill proposal Sealaska has 
selected.
    Let me give you a little indication of what I am talking 
about. With the cutting that has taken place there, and we keep 
a log on our boat. When we are out every day, we log how many 
bears we see, the wildlife we see. We have kept that log for 
half a century. In 1988, it was a little stormy. So I took my 
wife and my daughter, went up a creek on Kuiu Island, and that 
day we counted 86 different black bear on one creek.
    Twenty years later, there are six. We have hunted there 
continually, but in that system we have berries of course, but 
the most we see in there is six bears. What has happened is we 
have cut this old growth timber off these islands. That is what 
deer have to survive on in the winter. When they get deep snow, 
if they do not have good cover, they cannot move around and 
they cannot forage. Black bears down low use it for hibernating 
areas, et cetera.
    So what is happening, in fact, is we are seeing these 
largest remaining stands of old growth, and old growth is not 
dead timber. It is old timber. It is trees that are the size of 
redwoods, not dead timber. They are all alive, very active. I 
can show you some pictures, et cetera.
    Also, it is kind of Sealaska to offer access for guides to 
utilize these lands for a 10-year period after their Forest 
Service permit expires. I do not know that it would be much 
benefit. Having access to clear-cut areas would not be worth 
anything. There is no wildlife there. They are d-o-n-e, 
finished.
    If by chance we got access into areas that had not been 
cut, it only goes for 10 years. I have got five children. Three 
of them work with us full time. I have got seven grandsons. I 
think they are going to want to do what I have done, have that 
opportunity for long after a period of 10 or 12 or 15 years has 
passed.
    Last, as you well know, some of the communities in the 
north end of Prince of Wales are going to be very significantly 
impacted by this and, in any case, it will not bode well for 
us.
    I appreciate standing before you.
    [The prepared statement of Mr. Rosenbruch follows:]
  Prepared Statement of Jimmie Cannon Rosenbruch, Edna Bay Community, 
                  Inc. and Territorial Sportsmen, Inc.
    My name is Jimmie Cannon Rosenbruch. I was born and raised in Utah. 
I was educated as an engineer and in 1966 moved to Alaska where I 
worked with the BIA. I was appointed by the Secretary of Interior as a 
Staff Civil Engineer for the Alaska Land Use Planning Commission in 
1972-1973.
    For close to 50 years I have been a Big Game Guide in SE Alaska, 
mostly as a Master Guide, the highest license issued by the State of 
Alaska. I hold the Safari Club International Professional Hunter of the 
Year Award and the Wheatherby Conservation and Hunting Award, an Oscar 
in the hunting world.
    My wife, who was the first woman Master Guide in Alaska, and I 
established Alaska Glacier Guides in 1974. Now a family business, AGG 
takes people from all over the world to islands in the Tongass National 
Forest where they hunt, kayak, fish, or photograph wildlife.
    During my close to 50 years in Alaska, we have cruised all of the 
waters in the Tongass National Forest stopping and going ashore in all 
the bays. I have had a chance to meet a cross section of the people in 
the Tongass and hear how they view the Sealaska Lands bills. These 
bills died in Congress in 2003, 2006-2007, 2008-2010, 2011-2012.
    Because of the few days notice for this hearing and the difficulty 
of contacting groups when they are hunting or in the bush, I represent 
only a few organizations that have had time to authorize me to 
represent them. Today I represent the Territorial Sportsmen, an 
organization of 1,600 members founded decades ago, and Edna Bay, a 
small community on an island way off the mainland.
    I note there is no sportsman's group in Alaska that has come out in 
support of H.R. 740 or H.R. 1306.
    It is unnecessary for the committee to pass this legislation, H.R. 
740 and H.R. 1306.

                          H.R. 740 Unnecessary

    A long list of national and regional hunting, sportsmen's, 
wildlife, conservation organizations, and scientists believe a new 
Sealaska bill is not necessary, because ANCSA (1971) should govern what 
Sealaska should get by requiring BLM to finalize the designations of 
land Sealaska sent it in 2008. In addition, there are nine towns in 
Alaska who object to this bill in the strongest terms and have valid 
reasons why Sealaska should not take its land near their towns.
    A partial list includes the 19 national wildlife groups who 
represent 2 million Sportsmen and Wildlife Managers as listed in the 
April 22, 2013 letter to Senator Wyden. In Alaska, the NRA chapter of 
Alaska, called the Alaska Outdoor Council, opposes this bill. They have 
about 10,000 members. We've mentioned the Territorial Sportsmen's 1,600 
members.
    I endorse the reasons for opposition found in the Alaska Outdoor 
Council's recent letter to the Congressional Sportsman's Caucus. Their 
first two reasons are no action is required to give Sealaska its final 
entitlement and there is no need, 
(http://tongasslowdown.org/TL/docs/
Sen.%20John%20Thune%20Chairman%20CSC%20%20R%20SD.pdf).
    The Wildlife Management Institute and the Dallas Safari Club, among 
the 17 others, think this bill is unnecessary:

    ``Legislation is not required. Sealaska is presently entitled to 
receive its full land entitlement under law within areas that the 
Corporation helped identify and actively supported in testimony before 
Congress at the time of deliberation. These areas were submitted to the 
Bureau of Land Management (BLM) in 2008 under the strong legal language 
of the Alaska Land Transfer Acceleration Act as ``final and irrevocable 
priorities''. With the prospect of gaining increased value via this 
legislation, Sealaska has subsequently asked BLM to halt conveyance. At 
this point, the Sealaska Corporation itself is the party solely 
responsible for not having received its full land entitlement under 
ANCSA.'' April 22, 2013 letter to Senators Wyden and Murkowski, Pg. 2, 
http://tongasslowdown.org/TL/docs/AWCP%20Sealaska%20letter%20final.pdf.

    The Alaska Guides Association also urged BLM to make the final 
selections under existing law. Feb. 1, 2013, http://tongasslowdown.org/
TL/docs/AGA%20Letter%20to%20BLM%20Sealaska%202013.pdf.
    And the Alaska Chapter of Safari Club International finds further 
delay in implementing existing law ``will only cause disruption''. Feb. 
3, 2013, http://tongasslowdown.org/TL/docs/
SCI%20Sealaska%20Letter%202013.pdf.
    There has been no independent appraisal completed by an independent 
party that indicates Sealaska cannot make a profit from the lands they 
wanted around their villages and agreed to take in 1975. The status quo 
imposes no hardship on Sealaska.
    It is only Sealaska's desire to make a bigger profit that drives 
this bill. There is no reason others should pay the penalty.
    Many times over the past years, Sealaska has asserted it will run 
out of timber if their bill is not passed. There is no need to pass an 
interim measure like H.R. 1306 to supply Sealaska with some timber to 
tide them over until H.R. 740 can pass. If H.R. 1306 passes, the 
precedents will already be in place making the precedent argument 
raised in opposition moot.
    An estimate was done showing Sealaska has tens of thousands of 
acres still uncut. There is also no proof whether Sealaska has 
accelerated the pace of their cutting. We do know Sealaska only cut 
133,073 acres from its inception to 2006 according to the USFS's 
Appendix E found on Numbers from Outer Space on this link: 
tongasslowdown.org/TL/action.html. At anytime, Sealaska can ask BLM to 
finalize a portion of its 2008 request to tide it over.
    If Sealaska is cutting at 10,000 acres a year, then in 6\1/2\ 
years, they will be out of timber again--raising the question, are they 
going to come back to Congress to ask for another 100,000 acres for 
what they call their landless?

                      Clarification of Basic Facts

How many acres Sealaska is entitled to under ANCSA?
    While Sealaska has obtained title to at least 456.25 square miles 
(292,000 acres) of timber land in the Tongass National Forest, how many 
more acres does Sealaska get?
    The exact acreage was not specified in ANCSA. Instead an ANCSA 
14(h) percentage was provided mandating BLM to make final acreage 
calculations.
    H.R. 740 discards this formula Congress devised in 1971, which all 
sides thought was fair and equitable at the time.

                         Numbers Keep Changing

    Chairman Young has stated Sealaska should get:

    <bullet>  60,000 (2007), http://www.youtube.com/watch?v=nOqHITx-uvY 
@ 1:24 min and 4:32 min
    <bullet>  85,000 (2009-10), http://www.youtube.com/watch?v=Q9Zr0-
rI7p8 @ 7:18 min
    <bullet>  77,000 (2012) floor speech House. http://www.youtube.com/
watch?v=t3rB8IYoKKo @:22 min. asking for ``77 million acres of land 
that's already been cut, there's no old growth timber involved in 
this.'' 1:01
    <bullet>  70,075 (2013) H.R. 740

    Assistant Secretary of Agriculture, Harris Sherman told Congress 
Sealaska should get:

    <bullet>  63,000 acres (Senate Testimony--May 25, 2011) http://
tongasslowdown.org/TL/docs/ShermanTestimonyonS730052511.pdf.

    Senator Murkowski said BLM told her Sealaska should get:

    <bullet>  70,000 acres (Lands Subcommittee Hearing--April 25, 
2013).

    But just saying so does not make it so absent correct data in black 
and white.
    BLM has no memo in the Congressional Record analyzing what Sealaska 
should get in 2013 even though ANCSA makes it the final calculator of 
the final amount.
    If BLM has a memo it has shown Congress behind closed doors, the 
public deserves to see the final calculations. Before this bill moves 
any further along, this memo should be revealed.
How much timberland is old growth or second growth?
    Mr. Young stated on the floor of the House (June, 2012) that ALL of 
the timberland Sealaska will get is SECOND GROWTH. His words were ``77 
million acres of land that's already been cut, there's no old growth 
timber involved in this.'' @ 22 seconds http://www.youtube.com/
watch?v=t3rB8IYoKKo.
    Only 8 percent of the acres in the 2012 bill were second growth if 
there were 85,000 acres actually in one of the two versions of that 
session's bill; 8 percent equals 6,900 acres of second growth out of 
the 85,900 acres in the bill. 6,900 acres was cited by the Under 
Secretary of Agriculture, http://tongasslowdown.org/TL/testimony.html.
    While there is a larger percentage of second growth in H.R. 740, 
than in last year's H.R. 1408, a majority of the land is still old 
growth in 2013.

                  Old Growth Significance for Wildlife

    The majority of lands Sealaska seeks are the very rarest of the 
biggest old growth trees in the Tongass Forest. These large trees are 
vital for healthy wildlife populations supporting deer, bear, wolf, and 
goshawk. The latter two at risk of being listed as endangered.
    This legislation would take a significant chunk of old growth 
stands in places where previous cutting makes the remaining stands 
vital for these species. This issue has been studied by the biologists 
at Alaska Audubon who found that the big tree stands in this 
legislation high grade the big trees far out of proportion to their 
distribution in the Tongass as a whole. See their April 22, 2013 
letter, http://tongasslowdown.org/TL/docs/Senator%20Wyden%20-
%20Sealaska%20S%20340%204-19-13%20final.pdf.
    I keep a ship's log of the bears observed over the years including 
Kuiu Island. Before the heavy cutting on the north end of the island 
occurred, I observed a significantly higher number of bears. This bill 
targets the remaining big tree stands and I am certain the wildlife 
will continue to decline. I've already observed the results. Today the 
Kiui the black bears are less than half their historical numbers 
according to our ship's log and the deer are virtually gone.
    In September 1988 on a single creek I counted 86 bear. Twenty years 
latter the most we have seen there is six.
    About 19 wildlife groups, representing millions of outdoor 
enthusiasts, signed onto a letter which states that 30 percent of the 
acreage in this legislation will be the largest trees, whereas these 
trees are now less than 3% of the forest, http://tongasslowdown.org/TL/
docs/AWCP%20Sealaska%20letter%20final.pdf.
    The Members of the House must weigh the consequences of liquidating 
these stands of giant old growth trees. In the past, Sealaska has taken 
all the trees on their land and there is little doubt they will do so 
again in their proposed selections in this legislation.
    Congress must take to heart these words of the biologists who 
collaborated on the drafting of the letter 19 national and regional 
wildlife organizations wrote about this legislation a month ago:

    ``Conveying the most productive lands from the Tongass National 
Forest to Sealaska will risk listing decisions for a number of species 
under the Endangered Species Act (ESA). Petitions have previously been 
filed with U.S. Fish and Wildlife Service for listing the Queen 
Charlotte Goshawk, the Alexander Archipelago Wolf, and the Prince of 
Wales Flying Squirrel. Loss of old-growth forest from logging is the 
primary basis for these petitions. Transfer of these important old-
growth areas for logging without prior agency assessment of the effect 
on a potential listing under ESA poses a significant and unwarranted 
risk.'' Page 2, http://tongasslowdown.org/TL/docs/
AWCP%20Sealaska%20letter%20final.pdf.

    Given that former Directors of the Alaska Department of Fish and 
Game originally raised an alarm about this ESA issue, Congress should 
disregard any back peddling on the issue by the USFS this year after 
sharing the same concerns last year. With 75 years of collectively 
managing wildlife on the Tongass, they wrote:

    ``If these reserves are conveyed to Sealaska by Congress it will 
almost certainly lead to a new petition to list the goshawk and wolf as 
endangered species and the distinct possibility that they will be so 
designated.'' Page 1

    These former ADFG Directors of Wildlife Management called for a 
careful assessment of the impact of the Sealaska selections on the wolf 
and goshawk. I do not believe the USFS has conducted such a rigorous 
assessment. Certainly, the USFS has not released a assessment into the 
record to ally the concerns of these wildlife officials. Page 3, http:/
/tongasslowdown.org/TL/docs/sealaska%20leg%20MURKOWSKI.pdf.
    Two years ago the Undersecretary of Agriculture for Natural 
Resources, Harris Sherman, shared the very same concerns as the former 
officials of the ADFG when he testified:

    ``. . . land selections as proposed in S. 730 will decrease the 
effectiveness of the Tongass' conservation strategy and could hamper 
the plan's ability to maintain viable populations of plant and wildlife 
species. This could lead to the need for USFWS to reconsider its 
previous determinations regarding the goshawk and gray wolf (not to 
list).'' Page 4, http://tongasslowdown.org/TL/docs/
ShermanTestimonyonS730052511.pdf.
    During the Senate hearing last month, an Associate Director of the 
USFS asserted that the ESA listing is not a problem. Let the record 
show that there are no studies the USFS has submitted for the record to 
back up his assertion.
    Were this ESA issue not a problem, organizations representing up to 
5 million Americans, as diverse as the Wildlife Management Institute to 
Audubon to the Dallas Safari Club would not be all telling Congress, 
take notice. They are stating that the ESA listing for the wolf and 
goshawk is a problem and don't pass the Sealaska Lands Bill.

                 Job Losses Would Follow an ESA Listing

    With ESA listings, logging on the Tongass will be drastically 
reduced. Job loss to loggers, saw mill workers, and support persons 
would result.
    This Bill is supposed to protect jobs but it has the clear 
possibility of destroying them for the year round Alaska residents in 
the towns around Prince of Wales who depend on a steady supply of logs 
out of the National Forest, http://tongasslowdown.org/TL/docs/
Senator%20Wyden%20-%20S%20340-Signed.pdf.
    If the ESA listing goes through after this legislation passes, all 
those Alaskan residents in the towns who passionately oppose this 
legislation may see reductions in fish and wildlife numbers which they 
harvest commercially or as sport.
    Sealaska says all places are precious to someone, so they are OK 
with the non native nine towns and many other businesses and others who 
use the Tongass to bear the lion's share of pain. Equity and fairness 
favors the status quo requiring Sealaska to take the land they 
designated in 2008 BLM letter. Equity and fairness will not occur from 
passage of these bills.

                      Bad Precedents in This Bill

    Senator Murkowski claimed at the hearing last month that this bill 
is ``unique'' and all the other corporations told her they would not 
ask Congress to use this bill as precedent when asking for further 
modification of ANCSA--the final, last, complete settlement for all 
claims for their lands.
    The statement of a Senator is not legally binding on future 
Congresses. In fact, year after year for over 40 years, there have been 
many of the 12 regional corporations coming back to Congress for 
modifications.
    Congress can and does do anything it chooses.
    There are several kinds of precedents which arise out of this 
legislation. As Harris Sherman noted in his testimony May 25, 2011, 
these are:

    <bullet>  Establishing cultural sites outside of the townships 
around Native towns;
    <bullet>  Establishing economic sites which do not exist in ANCSA; 
and
    <bullet>  Moving the logging from the original townships around 
Native towns.

    Territorial Sportsman described another preemption precedent exits 
in this bill that they believe will remove State of Alaska legal 
authority to manage wildlife on private land.
    BLM's written statement last month in the Senate stated:

    ``We note that if S. 340 is enacted other corporations might seek 
similar legislation for the substitution of new lands.'' Page 2, http:/
/tongasslowdown.org/TL/docs/BLM%20ConnellFINALS.340SealaskaDOI.pdf.

    Nor did Senator Murkowski's leading questions to BLM dislodge BLM's 
statement that no one can say absolutely that Congress will not use 
this legislation as a precedent.
    As the Alaska Outdoor Council noted:

    ``With hundreds of thousands of acres in ANCSA outstanding claims, 
and many millions of acres in a status of interim conveyance not yet 
patented, S. 340 is a nightmare for active sportsmen and guides; a 
virtual Pandora's Box of new no trespassing signs in cherry picked 
areas across the state. This is a very real threat to sportsmen.'' 
http://tongasslowdown.org/TL/docs/
Sen.%20John%20Thune%20Chairman%20CSC%20%20R%20SD.pdf.

    In effect, the small parcel or economic development sites as well 
as the cultural sites (which gives Sealaska a chance to reopen the 1976 
deadline for filing cultural sites) may select outstanding fishing and 
hunting sites. The legislation does not tell us the location of the 
cultural sites. This legislation cannot bind future Congresses from 
giving Sealaska many more of the 2000 potential cultural sites 
affecting all other users.
Today it will be nine selections. Ten years from now . . . ?
    Because these sites will be at the mouths of salmon streams, 
sportsmen will be blocked from access. Because the locations are not 
listed in the bill, the public cannot scrutinize the impact of their 
locations. Numerous fishing and hunting operations will be severely 
impacted by this precedent and no one I have spoken to believes this is 
the final request for more. The history of ANCSA has seen claims of 
``this is the final unique request'' yield to another request years 
later.
    Pandora's Box must remain closed. The framers of ANCSA were wise 
and just to preclude such an outcome.

                          Preemption Precedent

    I have known Mr. Young a long time and know he bristles at the idea 
that the Federal Government can preempt State of Alaska Management of 
wildlife. As the Territorial Sportsmen noted after consulting with 
several lawyers in Juneau:

    ``The provision in this bill [in section 4 (e)(1)] which applies 
the subsistence definition found in Title 8 of ANILCA over private land 
in Alaska is unprecedented.'' March 2, 2013 letter, Page 2, http://
tongasslowdown.org/TL/docs/TS_BLM_Letter_03-21-13.pdf.

    For the first time, this legislation would apply ANILCA to the 
private property of Sealaska in Alaska. While H.R. 740 applies only to 
Sealaska's selections, precedent is set for all private land to have 
Federal management of wildlife resources. This conclusion is based I am 
told on consultation with leading lawyers in Alaska.
    Has Mr. Young read this section of H.R. 740 or the Territorial's 
letter or has he failed to see the far reaching and divisive 
consequences of this grand-daddy of all precedents?
    The preemption provision alone is grounds for Mr. Young to withdraw 
his sponsorship of this bill. Certainly the 1,600 members of the 
Territorial Sportsman are ringing the alarm bells on this provision.
    Territorial Sportsmen is opposed to the easement provisions as 
outlined on page 2 of their letter to Senator Wyden this year.

                                Edna Bay

    I received a notice on the eve of my flying back here that Edna Bay 
held a town meeting and voted to have me represent them before you. 
This is a town of loggers, lodge owners, fishermen, and retirees who 
were loggers. I know the postmistress is from a third generation 
logging family. I am humbled they held a meeting to give me this honor.
    The logging on their island was quite intense in the 1940s and 
1950s. Giant spruce went out to the world. There are still a few large 
stands of giant trees there, one of the best growing locations on the 
Tongass. Sealaska wants to take those remaining large stands and it 
will all be gone in a few years at the pace of cutting that has gone on 
in the past.
    Under the Forest Service plan, trees would be cut at a sustainable 
rate. Under a Sealaska ownership based on the pace of past logging, 
many in the town expect a boom and bust cycle that lasts a few years 
and illustrates most perfectly how this bill will kill the jobs of hard 
working woodsmen, saw mill operators, and most likely the nascent 
tourism operations based on sports fishing and whale watching.
    I'd like all of you to ask yourself this question. Do the deeply 
held grievances about lands claims we hear from Sealaska justify 
uprooting businesses and jobs not only in the nine towns but also the 
rest of SE Alaska? What happens in these small town when you lose the 
school or post office?
    This impact on the hard working people in Edna Bay is and the other 
eight towns and all of the sportsmen and business in SE Alaska who rely 
on healthy wildlife and access to these areas is unfair and unjust.
                                 ______
                                 
    Mr. Young. Thank you, Jimmie.
    Mr. Ned Norris.
    And you are excused if you would like to go. It is up to 
you.
    Mr. Rosenbruch. Thank you very much for accommodating me 
earlier. I would be delighted to sit here. I have got an hour 
and a half before I have got to be there, and I would stay 
here.
    Mr. Young. OK.
    Mr. Rosenbruch. I appreciate that. Thank you.
    Mr. Young. Mr. Ned Norris.

STATEMENT OF THE HON. NED NORRIS, JR., CHAIRMAN, TOHONO O'ODHAM 
                             NATION

    Mr. Norris. Mr. Chairman, before I start my time, I do not 
want to sit here and blame you for the misspell of my first 
name on the name tag over here.
    Mr. Young. Bless you, bless you. Some other body made a 
mistake.
    [Laughter.]
    Mr. Norris. It says Ted Norris here, but you named it 
correctly, Ned Norris.
    Mr. Young. It is Ned, is it not? OK.
    Mr. Norris. Good afternoon, Chairman Young, Ranking Member 
Hanabusa, and distinguished members of the Subcommittee on 
Indian and Alaska Native Affairs.
    My name is Ned Norris, Jr., and I am the Chairman of the 
Tohono O'odham Nation. I thank you for allowing me to testify 
today on H.R. 1410. I ask that my written statement be entered 
into the record.
    Mr. Young. Without objection, so ordered.
    Mr. Norris. Thank you, sir.
    In the late 1950s, the U.S. Army Corps of Engineers built 
the dam which flooded nearly the entire remaining 10,000 acres 
of Nation's Gila Bend Indian Reservation. Our members who live 
there had to be evacuated and crowded into a small, 40 acre 
parcel of land known as San Lucy Village, where they still live 
today.
    In 1986, the U.S. Congress enacted Federal legislation to 
settle the nation's land and water rights claims which stemmed 
from the Corps' unauthorized flooding and destruction of our 
land. In this settlement legislation, which is called the Gila 
Bend Indian Reservation Lands Replacement Act, or Public Law 
99-503, the United States made a solemn commitment to 
compensate the nation for the destruction of our land. The 
compensation included a solemn promise that the Nation would be 
able to acquire new land to replace the destroyed land, and a 
solemn promise that the new land would be treated, and I quote 
from the statute, ``as a Federal Indian reservation for all 
purposes.''
    This last promise was important to us since we needed 
replacement land that would have the same legal status as our 
destroyed land. In 2003, the State of Arizona also made a 
promise to the Tohono O'odham Nation when it entered into a 
tribal State gaming compact with the nation.
    The nation negotiated that compact in good faith, and the 
terms of that compact are clear on their face. The compact 
allows the nation to conduct gaming on land that meets the 
requirements of the Indian Gaming Regulatory Act, IGRA. IGRA 
expressly allows tribes to conduct gaming on lands acquired as 
part of a settlement of a land claim.
    Both the Department of the Interior and the Federal 
District Court of Arizona have confirmed that the land the 
nation acquires under its 1986 settlement statute is land 
acquired as a part of a settlement of land claim, as defined by 
IGRA.
    In 2012, the House of Representatives at the behest of the 
State of Arizona passed H.R. 2938. Its sole purpose was to 
prevent the nation from conducting gaming on replacement land 
located within a certain portion of Maricopa County, even 
though our 1986 Act allowed us to acquire replacement land in 
Maricopa County and even though it was allowed under our Tribal 
State Gaming Compact.
    If it had been enacted by the full Congress, H.R. 2938 
would have broken both the United States' 1986 Federal 
Settlement Act promise and the State of Arizona's 2003 State 
Gaming Compact promise.
    In 2013, the sponsors of H.R. 1410 are back with the new 
version of last year's bill. This bill clothed in new language 
to make it appear as if it is a law of general applicability, 
in fact, is solely applicable to the Tohono O'odham Nation. If 
enacted, H.R. 1410 will break the promises explicitly made by 
the United States in 1986 and explicitly made by the State of 
Arizona in 2003.
    The proponents of H.R. 1410 insist that it is necessary to 
force the nation to live up to an alleged promise not to game 
in the greater Phoenix area, but there was never such a 
promise.
    Let us understand what H.R. 1410 really is: special 
interest legislation which would create a non-competition zone 
for the Gila River Indian Community and the Salt River Indian 
Community, two wealthy tribes which now share a monopoly in one 
of the largest gaming markets in the United States.
    The claims that the proponents of H.R. 1410 have used to 
justify this bill have been litigated and rejected by the 
Federal courts on their merits not because the nation asserted 
sovereign immunity. The district court and Ninth Circuit held 
on the merits that the land the nation acquired under its 
settlement statute met the requirements of that statute. The 
District Court held on the merits that the nation's land was 
eligible for gaming under the Indian Gaming Regulatory Act, and 
the District Court held on the merits and not on sovereign 
immunity grounds that the tribal State gaming compact does not 
bar the nation from gaming in the Phoenix area.
    The court examined every bit of the plaintiffs' evidence, 
construed it in the light most favorable to the plaintiffs and 
still concluded that the plaintiffs' interpretation of the 
compact is entirely unreasonable. None of these conclusions 
were based in any way on the nation's sovereign immunity.
    H.R. 1410 is an ugly black mark on the United States and 
the State of Arizona's long relationship with the Tohono 
O'odham Nation. It is a return to the 19th century practice of 
breaking promises to Indian tribes when it is convenient for a 
non-Indian interest, but with a new twist. Now the United 
States is considering breaking the solemn commitments it and 
the State of Arizona made to my people to protect the monopoly 
of a couple of wealthy tribes.
    The title of the bill, the Keep the Promise Act, is deeply 
offensive to my nation, as is obvious from every single Federal 
and State Court decision, rejecting the arguments of the State 
and these two tribes. The Tohono O'odham Nation has followed 
applicable Federal and State law, and there are no loopholes, 
and yet the title of this proposed legislation suggests that I 
and my people are liars and cheats.
    As the great Supreme Court Justice Hugo Black famously 
said, ``Great nations like great men, should keep their word.'' 
With all due respect, I am asking the United States to be a 
great nation and to keep its word to the people of the Tohono 
O'odham Nation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Norris follows:]
  Prepared Statement of The Honorable Ned Norris, Jr., Chairman, The 
             Tohono O'odham Nation of Arizona, on H.R. 1410
    Chairman Young, Ranking Member Hanabusa, and distinguished members 
of the Subcommittee on Indian and Alaska Native Affairs, my name is Ned 
Norris, Jr. I am the Chairman of the Tohono O'odham Nation. I want to 
thank you for the opportunity to testify today on H.R. 1410, 
legislation offensively entitled the ``Keep the Promise Act of 2013''.
    Following is the testimony of the Tohono O'odham Nation. I ask that 
it be entered into the record. We respectfully request that the full 
text of the following federal court decisions also be entered into the 
record: Gila River Indian Community, et al. v. United States and Tohono 
O'odham Nation, 776 F.Supp.2d 977 (D. Ariz. 2011); aff'd, 697 F.3d 
(9thCir. 2012); Gila River Indian Community et al. v. Tohono O'odham 
Nation, No. 11-cv-296-DGC (Order dated May 7, 2013)

   Executive Summary--A Long History of Broken Promises to the Nation

    In 1986 the United States made a promise to the Tohono O'odham 
Nation when Congress enacted land and water rights settlement 
legislation, the Gila Bend Indian Reservation Lands Replacement Act, 
Pub. L. 99-503 (Lands Replacement Act)--legislation that the Department 
of the Interior has described as ``akin to a treaty.'' Tohono O'odham 
Nation v. Acting Phoenix Area Director, Bureau of Indian Affairs, 22 
IBIA 220, 233 (1992). This settlement legislation was intended to 
compensate the nation for the Army Corps of Engineers' unauthorized 
destruction of the nation's Gila Bend Indian Reservation. Among other 
things, the United States promised in that settlement legislation that 
the nation could acquire new reservation land in Maricopa County to 
replace its destroyed Gila Bend Reservation land (which also was 
located in Maricopa County). The United States also promised that the 
new land would be treated as a reservation for all purposes.
    In 2003 the State of Arizona made a promise to the Tohono O'odham 
Nation when it entered into a tribal-state gaming compact with the 
nation. The nation negotiated that compact in good faith and the terms 
of that Compact are clear on their face. The Compact allows the nation 
to conduct gaming on land that meets the requirements of the Indian 
Gaming Regulatory Act (IGRA). IGRA expressly allows tribes to conduct 
gaming on land acquired as part of the settlement of a land claim. Both 
the Department of the Interior and the Federal District Court of 
Arizona have confirmed that the land the nation acquires under its 1986 
settlement statute is land acquired as part of the settlement of a land 
claim as defined by IGRA.
    In 2012, the House of Representatives, at the behest of the State 
of Arizona and two extraordinarily wealthy Indian tribes, passed H.R. 
2938, legislation that, if it had been enacted by the full Congress, 
would have broken both the United States' 1986 Federal settlement act 
promise and the State of Arizona's 2003 tribal-State gaming compact 
promise to the nation because its sole purpose was to prevent the 
nation from conducting gaming on replacement land located within a 
certain portion of Maricopa County.
    In 2013, the sponsors of H.R. 1410 are back with a new version of 
H.R. 2938. This bill, clothed in new language to make it appear as if 
it is a law of general applicability, in fact is effectively applicable 
only to the Tohono O'odham Nation. H.R. 1410, if enacted, will break 
the United States' 1986 promise to the nation and break the State's 
2003 promise to the nation. Like last year's bill, H.R. 1410 is special 
interest legislation which would create a no-competition zone for the 
wealthy tribes, including the Salt River Indian Community, which now 
have a monopoly on one of the largest gaming markets in the United 
States.
    Every allegation that has been made about my nation, every 
falsehood and every accusation about the integrity of how the nation 
has conducted itself in the pursuit of its replacement lands has been 
soundly rejected by the Federal courts. These courts have considered 
all the evidence--thousands of pages of deposition testimony and 
thousands of pages of contemporaneous documents--and they have 
concluded, over and over and over again, that the nation has at all 
times acted in accordance with the law. And, most importantly for the 
purposes for which we are gathered together here today, the Federal 
district court for the District of Arizona has ruled that the 
``promise'' on which H.R. 1410 is predicated simply did not exist. With 
these court decisions, the lies and slander about my nation must now 
stop.
    H.R. 1410 is an ugly black mark on the United States' and the State 
of Arizona's long relationship with the Tohono O'odham Nation. It is a 
return to the 19th century practice of breaking promises to Indian 
tribes when it is convenient for a non-Indian interest--but with a new 
twist. Now the United States is considering breaking the solemn 
commitments it and the State of Arizona made to my people to protect 
the monopoly of a couple of wealthy tribes.
    As is obvious from every single Federal court decision rejecting 
the arguments of the State and the wealthy tribes, the Tohono O'odham 
Nation has followed applicable Federal and State law every step of the 
way. Yet the sponsors of this legislation have entitled the bill the 
``Keep the Promise Act''. This title suggests that I, and the Tohono 
O'odham people, are liars and cheats. We are deeply offended by this.
    As the great Supreme Court Justice Hugo Black famously said in 
Federal Power Commission v. Tuscarora Indian Nation, ``Great nations, 
like great men, should keep their word.'' With all due respect, I am 
asking the United States to be a great nation, and to keep its word to 
the Tohono O'odham. And I am asking the Gila River Indian Community, 
the Salt River Indian Community, and the State of Arizona to stop, 
finally, the cruel and dishonorable campaign of lies and misinformation 
which has caused so much harm to the Tohono O'odham Nation, and so much 
harm to the people of the West Valley who have waited for so long for 
the new economic development and the new jobs which the nation has been 
prevented from creating.

  A Federal Court has Confirmed That the Nation's Tribal-State Gaming 
       Compact Allows it To Operate a Gaming Facility in Phoenix

    ``[N]o reasonable reading of the Compact could lead a person to 
conclude that it prohibited new casinos in the Phoenix area.'' Gila 
River Indian Community et al. v. Tohono O'odham Nation, No. 11-cv-296-
DGC (Order dated May 7, 2013) at 25.
    The nation first entered into a gaming compact with the State of 
Arizona in 1993. The nation's compact confirmed the nation's right to 
conduct Class III gaming pursuant to IGRA, anywhere on the nation's 
Indian Lands, including land acquired as part of a settlement of a land 
claim under IGRA's Section 20 exception to the general prohibition on 
gaming on after-acquired land, 1993 Tohono O'odham-State of Arizona 
Gaming Compact, Sec. Sec. 2(s) and 3(f). This confirmation of the 
nation's rights was reached after the nation explicitly advised the 
State's gaming negotiators that it had the right to acquire ``up to 
9,880 acres of additional trust land'' under the Lands Replacement Act, 
and that ``[n]ot all of the land has been purchased yet, so there is a 
possibility of additional trust land to be acquired.'' 7/15/92 Tohono/
Arizona Reps. Mtg. Tr. at 3. The State was thus fully aware of the 
nation's rights to game on land to be acquired in Pima, Pinal, or 
Maricopa Counties under the Lands Replacement Act.
    The initial terms of the 1993 tribal-State gaming compacts were set 
to expire in 2003. Accordingly, in 1999 the tribes began to negotiate 
among themselves and with the State for a new gaming compact. The 
resulting 2003 tribal-State gaming compacts (authorized via State 
Proposition 202 at A.R.S. Sec. 5-601.02(A)) import virtually the same 
language as in the 1993 compacts concerning the tribes' rights to 
conduct Class III gaming on Indian lands:

        SECTION 3. NATURE, SIZE AND CONDUCT OF CLASS III GAMING

         (j) Location of Gaming Facility.

        (1) All Gaming Facilities shall be located on the Indian Lands 
        of the tribe. All Gaming Facilities of the tribe shall be 
        located not less than one and one-half (1\1/2\) miles apart 
        unless the configuration of the Indian Lands of the tribe makes 
        this requirement impracticable. The tribe shall notify the 
        State Gaming Agency of the physical location of any Gaming 
        Facility a minimum of thirty (30) days prior to commencing 
        Gaming Activities at such location. Gaming Activity on lands 
        acquired after the enactment of the Act on October 17, 1988 
        shall be authorized only in accordance with 25 U.S.C. 
        Sec. 2719.

    Tribal-State Compact, Sec. 3; A.R.S. Sec. 5-601.02(I)(6)(b)(iii) 
(emphasis added).

    As recently confirmed by the Federal district court for the 
District of Arizona in litigation brought by H.R. 1410's proponents, 
land acquired under the Lands Replacement Act qualifies as lands 
acquired as part of the settlement of a land claim under IGRA's section 
20 exception and under Section 3(j)(1) of the Compact. Gila River 
Indian Community et al. v. Tohono O'odham Nation, No. 11-cv-296-DGC 
(Order dated May 7, 2013) at 7. The court further held that the Compact 
``does not prohibit the nation from building a new casino in the 
Phoenix area.'' Id. at 2.

 Federal and State Courts Have Confirmed That the Nation's Land Meets 
    Both the Requirements of the Gila Bend Indian Reservation Lands 
          Replacement Act and the Indian Gaming Regulatory Act

    In July 2010, the Secretary of the Interior determined, despite 
lengthy arguments submitted in opposition by the City of Glendale and 
the Gila River Indian Community, that the nation's land meets the 
requirements of the Lands Replacement Act and that the Secretary has an 
obligation to take the land in trust. Accordingly the Secretary issued 
a decision to take the land in trust in August of 2010. 75 Fed. Reg. 
52,550 (Aug. 26, 2010). The Gila River Indian Community, the City of 
Glendale, and other plaintiffs challenged the decision in Federal 
district court in Arizona, but both the district court and the Ninth 
Circuit Court of Appeals upheld the Secretary's decision. Gila River 
Indian Community, et al. v. United States and Tohono O'odham Nation, 
776 F.Supp.2d 977 (D. Ariz. 2011); aff'd, 697 F.3d (9thCir. 2012). The 
plaintiffs continue to press their appeals.
    Having failed to convince either the Secretary, the Federal 
district court, or the Ninth Circuit Court of Appeals that the nation 
was not entitled to have its West Valley property taken into trust, the 
City of Glendale and the Gila River Indian Community lobbied the 
Arizona State legislature for special legislation to allow the City of 
Glendale to annex the nation's land--without notice and without any of 
the procedural requirements usually required for annexation under 
Arizona law--hoping that annexation would make the land ineligible for 
trust status under the Lands Replacement Act. The nation challenged 
that State law, and the Federal district court in Arizona ruled for the 
nation. Despite the fact that the State legislation did not mention the 
nation, the Lands Replacement Act, or the nation's West Valley property 
by name, the Court found that the law's ``clear purpose and effect 
would be to block [the Department of the Interior] from taking the land 
into trust, contrary to the express command of Congress.'' Tohono 
O'odham Nation v. City of Glendale and State of Arizona, No. 11-cv-279-
DGC (D. Ariz.) (Order dated June 30, 2011) at 15. The City of Glendale 
and the State of Arizona also have appealed that decision to the Ninth 
Circuit and the appeal is pending.
    Undaunted, the Gila River Indian Community, joined by the Salt 
River Pima Maricopa Indian Community and the State of Arizona's 
Attorney General, again brought suit in district court, this time 
challenging the eligibility of the nation's West Valley property for 
gaming. Gila River Indian Community et al. v. Tohono O'odham Nation, 
No. 11-cv-296-DGC. Following a lengthy and voluminous discovery 
process, the nation's opponents were again rebuffed by the district 
court, which on May 7, 2013 ruled that the nation's West Valley land is 
indeed eligible for gaming under the nation's Compact as land acquired 
in trust as part of a land claim settlement under IGRA. Gila River 
Indian Community et al. v. Tohono O'odham Nation, No. 11-cv-296-DGC 
(Order dated May 7, 2013) at 25.
    Discovery in this litigation has in fact revealed that, not only 
was there no agreement concerning a limitation on gaming in the Phoenix 
area, but the 17 Arizona tribes that negotiated the compacts rejected 
such a prohibition, leaving the terms of the tribal-State gaming 
compacts to govern this issue. As explained by witnesses who are not 
aligned with either side of the litigation, the concept of ``no new 
casinos in Phoenix'' was simply never a theme or a deal point in the 
negotiations over the gaming compacts and Proposition 202:

    <bullet>  W.M. Smith Dep. 32 (Cocopah Tribe representative) ``Q. Do 
you recall the concept of no new casinos in Phoenix ever being broached 
in the negotiations? A. No.''
    <bullet>  Clapham Dep. 35-36 (Navajo Nation representative) ``Q. 
There was not a single event, to the best of your recollection, that 
could constitute a request for a tribe to waive its rights to build a 
casino in the Phoenix area? A. There were discussions about reducing 
the number of authorized facilities in exchange for transfer of machine 
rights. But I don't remember any specific request to deal with not 
putting another facility in Phoenix.'').
    <bullet>  Ochoa Dep. 25 (Yavapai Prescott Tribe representative) 
``Q. So until this lawsuit came about, though, you had never heard 
anybody talking about how Prop 202 would permit no new casinos in the 
Phoenix area and only one in Tucson? A. Absolutely not. No. It wasn't 
discussed at the meetings I attended.''

    In fact, when presented with proposals by the representatives of 
the State and the Gila River Indian Community to include a provision in 
the compacts to prohibit gaming on after-acquired lands, the tribes 
universally rejected these proposals, allowing the compacts terms to 
govern.
    What is more, discovery has revealed that representatives of the 
Gila River Indian Community, the Salt River Pima Maricopa Indian 
Community, and the State each were aware of the nation's rights to 
conduct gaming on Lands Replacement Act lands, and had expressed no 
objection to the nation's rights. As noted above, negotiation sessions 
during the 1993 gaming compact negotiations revealed that the nation 
explicitly informed the State about its rights under the Act and its 
ability to acquire new land in Pima, Pinal, and Maricopa Counties. 
Later, during the mid-1990s, a representative of the nation similarly 
informed the former president of the Salt River Pima-Maricopa Indian 
Community (and key 2002 compact negotiator) of the Lands Replacement 
Act and the nation's right to conduct gaming on land acquired under the 
Lands Replacement Act and in 2001, one of the Gila River Indian 
Community's compact negotiators was presented with a copy of a tribal 
council resolution from the nation describing the nation's rights under 
the Lands Replacement Act.
    In short, the litigation and all related court decisions have fully 
supported the Department of the Interior's decision to acquire in trust 
the nation's West Valley land under the Lands Replacement Act, as well 
as the nation's right to conduct gaming on that land under IGRA and its 
tribal-State gaming compact, and have rejected the claims of the 
proponents of H.R. 1410.

  Enactment of H.R. 1410 Exposes the United States to New Liabilities

    H.R. 1410 deprives the nation of rights it has under its land and 
water rights settlement act, IGRA and its tribal-state gaming compact--
rights that have been confirmed by the courts. Interference with these 
rights will have real consequences for the United States and ordinary 
taxpayers in terms of creating substantial liability for the breach of 
contract, takings claims, and water rights claims that the nation will 
have against the United States for breaching the settlement agreement 
entered into under the Lands Replacement Act. Accordingly, there is no 
question that enactment of H.R. 1410 effectively will put American 
taxpayers in the position of subsidizing the monopoly achieved by the 
Gila River Indian Community and the Salt River Indian Community.
Enactment of H.R. 1410 Will Cause Real Harm to the Tohono O'odham 
        Nation
    In addition to the injustice of changing the law enacted to 
compensate the nation and on which the nation has relied in acquiring 
land for gaming-related economic development, the enactment of H.R. 
1410 would have a devastating effect on the Tohono O'odham Nation and 
its people. More than 32 percent of the nation's households have annual 
incomes less than $10,000, over 46 percent of the nation's families 
live below the poverty line, and there is a greater than 21 percent 
unemployment rate among tribal members on the reservation. The nation 
has devoted an enormous amount of time and financial resources to its 
West Valley project in reliance on existing Federal law; if H.R. 1410 
is enacted, all the effort and resources the nation has invested to 
reduce its dependence on Federal monies and to become self-sufficient, 
as Congress intended in the Lands Replacement Act, would be wasted.

  H.R. 1410 Will Cause Real Harm to the West Valley--It is Job-Killer 
                              Legislation

    Enactment of H.R. 1410 would kill off 9,000 new construction and 
operation jobs for the West Valley, as well as countless thousands of 
other jobs that would result from new local spending generated by both 
the resort and the people who work there. If Congress takes affirmative 
action to prevent this non-taxpayer funded economic stimulus from 
becoming a reality, Congress effectively withholds these thousands of 
jobs from West Valley residents.

                               CONCLUSION

    Mr. Chairman and Subcommittee members, I thank you again for giving 
me an opportunity to speak to this Subcommittee on this legislation. In 
sum, I must reiterate that enactment of H.R. 1410 would break the 
United States' promise, as that promise was set forth in a contract and 
in settlement legislation, to compensate the nation for the destruction 
of the Gila Bend Indian Reservation. Enactment of H.R. 1410 also would 
interfere with the express contract terms to which the nation and the 
State of Arizona agreed when we entered into our tribal-state gaming 
compact. And enactment of H.R. 1410 flies in the face of several 
Federal court decisions which have resolved, in the nation's favor, the 
allegations that have been wrongly made against the nation.
    But it is not just the nation that will be adversely affected by 
enactment of H.R. 1410. This legislation will prevent the creation of 
9,000 new jobs for the West Valley area. Enactment of H.R. 1410 will 
also create new breach of contract, takings claims, and water rights 
claims against the United States, thereby exposing American taxpayers 
to unnecessary financial risk. And finally, enactment of H.R. 1410 
would add yet another black mark to the United States' long history of 
breaking its promises to Native Americans. This Subcommittee should 
uphold the United States' promise to the nation, reject H.R. 1410, and 
let the ongoing litigation run its course.
    I thank you for your time today, and I would be happy to answer any 
questions you may have.

 APPENDIX--Background on the Flooding and Destruction of the Gila Bend 
            Indian Reservation and the Lands Replacement Act

    The Tohono O'odham Nation has approximately 30,000 members. Our 
reservation lands are located in central and southern Arizona in three 
counties--Maricopa County, Pinal County, and Pima County. Historically, 
the nation's lands included four separate areas, one of which was known 
as the Gila Bend Indian Reservation. Originally comprising 22,400 acres 
located on the Gila River near the town of Gila Bend in Maricopa 
County, the Gila Bend Indian Reservation was created for the nation in 
1883. Then known as the Papago, the nation's Gila Bend Indian 
Reservation residents lived along the banks of the Gila River for 
centuries; extensive ruins located on the reservation date to about 500 
A.D.
    The sad and shameful history of the United States' treatment of the 
Gila Bend Indian Reservation and its members is well documented in the 
House Report accompanying the Lands Replacement Act, H.R. Rep. 99-851 
(September 19, 1986). In 1909, by Executive Order, the United States 
cut the Gila Bend reservation nearly in half and deprived the nation's 
members of access to much of their fertile agricultural lands in the 
Gila River basin. Id. at 4. Despite these setbacks, the nation's 
members persevered, maintaining, in the words of a 1949 Department of 
the Interior report, a ``precarious livelihood from subsistence 
farming, small cattle enterprises, woodcutting, and increasingly from 
seasonal off-reservation employment at low wages.'' Id. The 
Department's report, the ``Papago Development Program,'' recommended 
the development of irrigated agriculture for the nation's members, 
including 1,200 acres for the nations' Gila Bend Reservation. Id. 
Instead of seeing these plans come to fruition, the Secretary of the 
Interior signed a letter to the U.S. Corps of Engineers expressing no 
objection to the Corps' proposal to construct the Painted Rock Dam on 
the Gila River to provide flood protection for nearby non-Indian 
agricultural operations. The Secretary's letter failed to make any 
mention of the Gila Bend Reservation or the dam's potential effect on 
the reservation. Id. Less than a year following the forgotten Papago 
Development Program report, Congress enacted the Flood Control Act, 
Pub. L. 81-516, 64 Stat. 176 (1950), authorizing the construction of 
the Painted Rock dam. Id. As Congress and the Department of the 
Interior later recognized, the Flood Control Act of 1950 did not 
authorize the flooding or condemnation of the nation's lands.
    Nevertheless, in the 1950s, the U.S. Army Corps of Engineers began 
construction of the Painted Rock Dam 10 miles downstream from the Gila 
Bend Indian Reservation. Construction was completed in 1960. Despite 
the Bureau of Indian Affairs' and the Corps' repeated promises that 
periodic flooding caused by the dam would not harm the nation's 
agricultural use of its reservation lands, and despite a 1963 U.S. 
Geological Survey report asserting that the long range effects of 
flooding would be ``unimportant,'' the Gila Bend Indian Reservation 
sustained almost continual flooding throughout the late 1970s and early 
1980s. Id, at 5. Most of the nation's members living there had to be 
relocated to a small 40-acre village known as San Lucy. Id. The 
flooding caused pronounced economic hardship, destroying a 750-acre 
tribally owned and operated farm that had been developed at tribal 
expense, and rendering the remaining acreage unusable for economic 
development. Id. at 5-6.
    In 1982, pursuant to the Southern Arizona Water Rights Settlement 
Act (SAWRSA), Pub. L. No. 97-293, 97 Stat. 1274, Congress instructed 
the Secretary of the Interior to conduct studies to determine which of 
the nation's lands had been rendered unusable for agriculture. Congress 
also authorized the Secretary, with the consent of the nation, to 
exchange public domain lands for those reservation lands that had been 
ruined. H.R. Rep. No. 99-851 at 6. A study of the reservation lands 
carried out in 1983 under SAWRSA determined that the flooding had 
rendered almost the entire Gila Bend Indian Reservation, nearly 10,000 
acres, unusable for either agriculture or livestock grazing purposes. 
Id. A later 1986 study to identify replacement lands within a 100-mile 
radius of the reservation concluded that none of the sites identified 
were suitable replacement lands, from either a lands and water 
resources or a socio-economic standpoint. Id.
    The destruction of nearly 10,000 acres of the nation's lands gave 
rise to a number of land and water rights claims against the United 
States. The House Report accompanying the Lands Replacement Act 
detailed some of these claims:
    The tribe has pursued a legislative remedy to its urgent dilemma at 
Gila Bend rather than litigation on a variety of potential legal claims 
against the United States. Such actions could include claims for the 
taking of tribal trust lands by condemnation without express authority 
from Congress; for payment of unjust compensation for the flowage 
easement; for damages to their land and water resources resulting from 
construction of both Painted Rock Dam and Gillespie Dam and other dams 
upstream; and for breach of trust for failure to prosecute claims 
against third parties for damages to their land and water resources.
    H.R. Rep. No 99-851 at 7. Congress also recognized that the 
nation's water rights claims to the surface and underground flow of the 
Gila River comprised a significant component of these claims that could 
amount to more than 30,000 acre-feet with an 1882 priority date, and 
that damage claims against the United States and third parties could be 
in excess of $100,000,000 (in 1986 dollars). Id. at 6-7. Indeed, the 
following year, the United States filed a claim in the Gila River 
Stream Adjudication on behalf of the nation and its destroyed Gila Bend 
Indian Reservation for nearly 36,000 acre-feet of water. See Statement 
of Claimant United States on Behalf of the Gila Bend Indian 
Reservation, Tohono O'odham Nation, No. 39-35090 (January 20, 1987).
    The United States was unable to redress the harm to the nation by 
providing replacement lands for agriculture. So, in 1986, more than a 
quarter century after the dam was built, Congress created an 
alternative settlement mechanism to address the wrong done to our 
people and to settle our claims against the Federal Government. That 
was the origin of the Gila Bend Indian Reservation Lands Replacement 
Act.
    The House Committee considering enactment of the Lands Replacement 
Act concluded that the nation had a reservation ``which for all 
practical purposes cannot be used to provide any kind of sustaining 
economy. Significant opportunities for employment or economic 
development in the town of Gila Bend . . . simply do not exist.'' H.R. 
Rep. No. 99-851 at 7. As a result, Congress explicitly directed the 
Secretary of the Interior in the Lands Replacement Act to accept into 
trust the same number of acres that had been taken from us, and 
explicitly contemplated that the lands would be for non-agricultural 
development. Congress specifically stated in the Act that the intent 
was to ``facilitate replacement of reservation lands with lands 
suitable for sustained economic use which is not principally farming.'' 
Pub. L. 99-503, sec. 2(4); see also H.R. Rep. No. 99-851 at 9.
    The Lands Replacement Act provides funds for land acquisition, and 
if certain requirements are met, it directs the Secretary to accept 
into trust up to 9,880 acres of replacement land within the three 
counties (Pima, Pinal, and Maricopa) in which our other reservation 
lands are located. Pub. L. 99-503, sec. 6(c) and (d). The lands may not 
be incorporated into any city or town. Also, the lands must consist of 
no more than three areas of contiguous tracts, including one area 
contiguous to San Lucy Village, unless the Secretary waives this 
requirement. Pub. L. 99-503, sec. 6(d). If these statutory requirements 
are met, then, at the request of the nation, the Secretary of the 
Interior must accept the lands in trust and the lands thereafter will 
be ``deemed to be a Federal Indian Reservation for all purposes.'' Pub. 
L. 99-503, sec. 6(d).
    Section 4(a) of the Lands Replacement Act required the Secretary to 
pay the nation $30 million in three installments of $10 million if the 
nation agreed to assign to the United States ``all right, title and 
interest'' to 9,880 acres of its land within the Gila Bend Indian 
Reservation. The act also required the nation to execute a waiver and 
release of ``any and all claims of water rights or injuries to land or 
water rights with respect to all lands of the Gila Bend Indian 
Reservation from time immemorial to the date of the execution by the 
nation'' of that waiver. Pub. L. 99-503, sec. 9(a). In October 1987, 
less than a year after enactment of the Lands Replacement Act, the 
nation executed an agreement that contained this waiver and release, as 
well as the nation's assignment of all right, title, and interest to 
the Gila Bend Indian Reservation.
    In short, Congress: (i) enacted the Lands Replacement Act to 
compensate the nation fairly for the nearly 10,000 acres of its lands 
that were lost due to the flooding caused by the Painted Rock Dam, and 
to allow the nation to acquire replacement lands for economic 
development purposes that were not principally farming; and (ii) 
required in exchange that the nation transfer property and rights to 
the United States and release the nation's claims against the United 
States, both of which the nation did years ago.
                                 ______
                                 
   Questions Submitted for the Record by The Honorable Paul A. Gosar
  Questions Submitted for the Record to The Honorable Ned Norris, Jr.
    Question. You testified that the State of Arizona and other tribes 
were aware that the Tohono O'odham Nation may purchase lands within the 
``Phoenix Metropolitan Area'' (as that term is defined in H.R. 1410) 
pursuant to the 1986 Gila Bend Act during the negotiations of the model 
compact and Proposition 202. If that was the case, why did the Tohono 
O'odham Nation wait approximately seven years before having the 
Glendale lands transferred to you and informing the other tribes of 
your acquisition? Why not have the lands transferred to you in 2004 and 
inform the other tribes at that time? Did Tohono purposefully wait to 
ensure that the applicable statute of limitations within which to 
challenge the compact approval would have elapsed?
    Answer. The planning and due diligence associated with the filing 
of an application for trust acquisition are both time-consuming and 
resource-intensive. The same is true for tribal gaming facility 
projects. In this case, the nation took great care in conducting due 
diligence and preparing its application for the trust acquisition of 
its West Valley property to ensure that the property met the 
requirements of the nation's land claim settlement act (the Gila Bend 
Indian Reservation Lands Replacement Act, Pub. L. 99-503), the nation's 
tribal-State gaming compact with the State of Arizona, and the Indian 
Gaming Regulatory Act, 25 U.S.C. Sec. 2701 et seq. (IGRA). A long 
string of administrative and Federal court decisions have now rejected 
opponents' arguments that the nation's West Valley property may not 
legally be acquired in trust and that gaming on the property would 
violate the law or the tribal-State compact. These decisions 
demonstrate the wisdom of the nation's thorough due diligence and 
preparation.
    The nation does not understand what you mean by your reference to 
the applicable statute of limitations within which to challenge the 
compact approval, but notes that no claim raised in the legal 
proceedings to date has been barred by any statute of limitations. 
Moreover, the timing of the nation's filing of its trust application 
had nothing to do with any statute of limitations or other time period 
for challenging the approval of the nation's tribal-State gaming 
compact.
    Question. Has the Tohono O'odham Nation, either directly or 
indirectly, purchased or set aside funds for the purchase of any 
additional lands (other than the 54 acre parcel near Glendale) within 
the Phoenix Metropolitan Area (as that term is defined in H.R. 1410)?
    Answer. It is commonplace for tribes in Arizona and across the 
country to own property outside of their existing reservation 
boundaries. Indeed, an online search of public real estate records 
reveals numerous parcels of property in the Phoenix Metropolitan Area 
(as defined in H.R. 1410) are owned in fee by various tribes (including 
the Gila River Indian Community and Salt River Pima-Maricopa Indian 
Community), some of which have existing reservation lands in this area 
and some of which do not. The nation is no exception. The nation's 
Economic Development Authority currently owns land in the town of Queen 
Creek, which is located within the Phoenix Metropolitan Area as defined 
in H.R. 1410, but that property is not eligible to be acquired in trust 
under the nation's settlement act and could not be eligible for gaming. 
The nation's West Valley property is the only real property owned by 
the nation (directly or indirectly) in the Phoenix Metropolitan Area 
(as defined in H.R. 1410) that meets the requirements of the nation's 
settlement act and, therefore, would be eligible for gaming. As the 
Subcommittee is aware, the nation's West Valley property comprises 134 
contiguous acres, 54 of which are referenced in the above question. 
Other than as noted above, the nation does not own, directly or 
indirectly, any parcel of real property in the Phoenix Metropolitan 
Area as defined in H.R. 1410, nor has the nation, directly or 
indirectly, set aside funds for the purchase of such land.
    Question. Is the 54 acre parcel of land within the former 
reservation boundaries of the Tohono O'odham Nation or any other tribe?
    Answer. The nation's West Valley property, like its destroyed Gila 
Bend Indian Reservation, is located on the historical lands of the 
Hohokam, the ancestors of the nation, the Gila River Indian Community, 
the Salt River Pima-Maricopa Indian Community, and the Ak Chin Indian 
Community. Despite their opposition to the nation's project, both the 
Gila River Indian Community and the Salt River Pima-Maricopa Indian 
Community have publicly acknowledged this. Although the Gila River 
Indian Community and the Salt River Pima-Maricopa Indian Community 
claim that the nation's West Valley property is within their aboriginal 
territory, under these circumstances, the concept of ``aboriginal 
lands'' is of limited value among tribes with a shared history. For 
example, the nation's Gila Bend Indian Reservation also was located 
within what the Gila River Indian Community and the Salt River Pima-
Maricopa Indian Community claim are ``their'' aboriginal lands.
    As part of the nation's settlement with the Federal Government 
under the Gila Bend Indian Reservation Lands Replacement Act, the 
nation gave up all right, title, and interest to 9,880 acres of its 
flooded and destroyed reservation land. The nation thus necessarily had 
to acquire replacement lands outside the boundaries of its former 
reservation. In accordance with Congress' explicit instructions for 
replacement lands, the nation acquired its West Valley property in 
Maricopa County, the same county in which the Nation's destroyed Gila 
Bend Indian Reservation was located. As to whether the nation's West 
Valley property is located within the former reservation boundaries of 
any other tribes, the nation defers to the Department of the Interior, 
to which the Committee has posed a similar question.
    Question. In your testimony, you state ``the nation negotiated [the 
tribal-State gaming compact] in good faith.'' Why won't the nation 
waive their ``sovereign immunity'' so that the internal conversations, 
during the negotiations of the compact and during your efforts to 
convince the Arizona voters to support Prop 202, can be considered as 
part of evidence to resolve this issue either legally or via the 
legislative process? The failure to do so implies to this body that the 
nation has something to hide.
    Answer. As I have testified, the claims that the nation's opponents 
have used to justify this bill have been litigated and rejected by the 
district court on their merits. The nation has never contested that 
IGRA permits the State to bring suit against the nation to enjoin Class 
III gaming activity located on Indian lands and conducted in violation 
of any tribal-State compact that is in effect. The district court 
considered all of plaintiffs' arguments and evidence and held on the 
merits--not on sovereign immunity grounds--that the nation's land was 
eligible for gaming under IGRA. And the district court held, on the 
merits--not on sovereign immunity grounds--that the tribal-State gaming 
compact does not bar the nation from gaming in the Phoenix area.
    The nation takes allegations concerning its integrity very 
seriously. Far from ``hiding something,'' the nation has, as part of 
the court process, willingly participated in extensive, expensive, and 
time-consuming discovery lasting well over a year, including producing 
more than 130,000 pages of documents and permitting plaintiffs to 
depose every witness they sought--20 in all. The district court 
examined every bit of plaintiffs' evidence gleaned in discovery, 
including thousands of pages of the ``internal conversations'' 
referenced in the above question, construed this evidence in the light 
most favorable to plaintiffs, and still concluded that plaintiffs' 
interpretation of the compact is ``entirely unreasonable.'' And the 
court also concluded, after reviewing all of that evidence, that there 
was no way that an agreement not to game in Phoenix would naturally 
have been omitted from the compact. None of these conclusions were 
based in any way on the nation's sovereign immunity. The nation's 
transparency has been amply demonstrated time and time again in this 
process and time and time again, the nation's actions have been 
vindicated.
    The district court did hold that sovereign immunity barred 
plaintiffs' claim for promissory estoppel, because IGRA abrogates 
tribal sovereign immunity only for claims of breach of tribal-State 
compacts. By definition, promissory estoppel seeks to enforce a promise 
made in the absence of a contract. For that reason, plaintiffs' 
promissory estoppel claim could not have succeeded on the merits in any 
event. The district court also dismissed plaintiffs' extracontractual 
fraudulent inducement and material misrepresentation claims as falling 
outside the scope of IGRA. But none of those holdings in any way 
limited the scope of discovery or prevented the court from considering 
all the evidence that plaintiffs sought to introduce, before holding 
that the parties' agreement did not bar the nation from gaming in 
Phoenix. Rather, the district court's decision clearly shows that the 
motivation behind the plaintiffs' claims is the same as the motivation 
underlying H.R. 1410--a cynical attempt to protect the interests of a 
few wealthy tribes.
                                 ______
                                 
    Mr. Young. Thank you, sir.
    And now we will have Ms. Diane Enos, President of Salt 
River Pima Indian Community.

 STATEMENT OF DIANE ENOS, PRESIDENT, SALT RIVER PIMA-MARICOPA 
                        INDIAN COMMUNITY

    Ms. Enos. Mr. Chairman and members of the Committee, thank 
you for the opportunity to testify in support of H.R. 1410.
    Again, in 1960, Justice Hugo Black reminded us all ``Great 
nations like great, men should keep their word.'' With that 
solemn reminder in mind, I ask the Committee to focus on three 
things today.
    First, in 2002, 17 Arizona tribes agreed upon a gaming 
compact largely built around the demand of the Arizona 
Governor: no expansion of gaming, no additional casinos in the 
Phoenix metro area until the compacts expire.
    Second, during compact negotiations, Tohono leadership and 
its representatives repeatedly promised that their fourth 
unbuilt casino would be in the Tucson market or in a rural 
location. Tohono hid its efforts to buy land in the City of 
Glendale until 2009.
    Third, the court has not resolved all claims regarding the 
proper interpretation of the compact, and other claims based on 
fraud and misrepresentation have been dismissed not on the 
merits, but because Tohono raised sovereign immunity.
    In 2011, this Subcommittee held a hearing on H.R. 2938, a 
bill that sought to address the same concerns we bring today. 
While the genesis of both bills is the same, we believe that 
the bill before you today is improved. This bill simply 
reaffirms the agreement of all Arizona tribes reached with the 
voters of our State that there would be no additional casinos 
in the Phoenix metro area and only one additional casino in the 
Tucson area. This bill also applies to Salt River.
    Each Phoenix metro tribe gave up the rights to one unbuilt 
casino in order to secure the State's support for all tribes. 
Tohono would not give up its claim to a fourth casino. After 
the Governor and all 17 tribes agreed on the compact, we took 
it to the voters for approval through Proposition 202.
    It should be understood that the proposed gaming land is 
ancestral to the Pima in Maricopa, not Tohono, and is located 
about 100 miles from Tohono's government center. If you look at 
your monitors, you will see that the proposed casino would be 
within a dense residential area and directly across the street 
from Kellis High School attended by 963 students.
    Tohono's proposal twists the law to make the 100-mile 
journey. Senator John McCain said in response to a question 
about this proposal that when drafting IGRA he did not envision 
casinos off reservation. He said, ``So now we have case after 
case of Indian tribes parachuting into metropolitan areas and 
buying up land in metropolitan areas and setting up casinos. 
That was not the intent of IGRA.''
    The 1986 Gila Bend Act did not contemplate the construction 
of multiple casinos in the Phoenix metro area. Tohono now 
claims that it can do so without State or local government 
input, despite widespread opposition. Who would not understand 
why a city would oppose a casino directly across from a high 
school?
    The uncomfortable truth is that Tohono's actions were 
intentionally hidden from public view. Documents reveal that 
Tohono was actively searching for casino land in west Phoenix 
during the Proposition 202 negotiations using a Delaware shell 
corporation to hide the true ownership of the land and worked 
to keep its plan secret from the State and the 16 other tribes 
until it filed its land inter-trust application in January of 
2009.
    Chairman Norris would have you believe that the Governor 
and the 16 tribes knew about Tohono's secret plans for a 
Phoenix casino and essentially lied to the voters. That is 
patently false.
    Finally, we are here today because we have no other venue 
to find relief. The courts cannot hear our claims of deception 
and fraud. Congress is the only entity that can provide 
justice.
    In response to our legal challenge, Tohono continues to 
shield its conduct from scrutiny by asserting its sovereign 
immunity. On that basis alone, the court has dismissed our 
three claims of fraud, misrepresentation, and promissory 
estoppel. These claims are directed to Tohono's secret conduct, 
all of which would be addressed by H.R. 1410. In fact, the 
court recently noted that ``the evidence would appear to 
support a claim for promissory estoppel'' but for Tohono's 
claim of sovereign immunity.
    While we respect their political decision to assert 
sovereign immunity, Congress does not have to sanction the 
conduct of Tohono and should act to preserve Arizona Indian 
gaming.
    I am not here alone today. Many tribes oppose what Tohono 
is trying to do with all reservation gaming. With me today are 
elected leaders of the Cocopah Tribe, the Hualapai Tribe, Fort 
McDowell Yavapai Nation, Gila River Indian Community, and the 
Pueblo of Zuni.
    Thank you. I look forward to answering any questions that 
you may have, and I respectfully ask that my statements be put 
into the record.
    [The prepared statement of Ms. Enos follows:]
 Prepared Statement of Diane Enos, President, Salt River Pima-Maricopa 
                            Indian Community

                H.R. 1410--``The Keep the Promise Act''

    In 1960, Justice Hugo Black reminded us all that, ``Great nations, 
like great men, should keep their word''.
                           executive summary
    The Salt River Pima Maricopa Indian Community (``Community'') would 
like to thank the bipartisan coalition of Members, Representative 
Franks along with Representatives Gosar, Salmon, Schweikert, 
Kirkpatrick and Kildee for sponsoring this important legislation, H.R. 
1410, the ``Keep the Promise Act of 2013.'' We also want to thank 
Representative Pastor, long a champion of tribal rights in Arizona, for 
his co- sponsorship of this bill. This bill will protect the promises 
that the tribes of Arizona made to each other and the State and voters 
of Arizona and protects the current Indian gaming structure in Arizona. 
Specifically, the bill will prohibit any tribe from conducting gaming 
on lands acquired into trust after April 9, 2013 for the duration of 
the existing gaming compacts which begin to expire in 2026. Thus, the 
bill does not target any one tribe and still allows for lands to go 
into trust status for tribes. But, the bill also ensures that the 
commitments and statements relied upon during the gaming compact 
negotiations are protected for the term of the existing compacts.
    While the need for this bill is necessitated by the current actions 
of one tribe, it will prevent any other tribes, including my own tribe, 
from trying to renege on the commitments and promises relied upon by 
the voters when they authorized tribes in Arizona to conduct Las Vegas-
style gaming in 2002.
    In the current instance, the Tohono O'odham Nation (``Tohono 
O'odham'' or ``Tohono'') is trying to utilize a 1986 law to acquire 
lands more than 100 miles from its seat of government, outside its 
aboriginal territory and within my tribe's former reservation 
boundaries, in our aboriginal lands to develop a casino. This land is 
located across the street from Kellis high school in the City of 
Glendale, one of the Phoenix suburbs. This action by the Tohono O'odham 
directly contradicts commitments and statements it made, and which were 
relied upon by others, that there would be no additional casinos built 
in the Phoenix metropolitan area if the voters approved tribes 
continuing to conduct Las Vegas-style gaming in the State.
    The current actions of Tohono O'odham also contradict long-term 
statements that they and all other tribes have consistently made to the 
Governor and State Legislature that there could not be off-reservation 
gaming in Arizona without the Governor's consent. The State of Arizona 
and Arizona voters have always worried about tribes trying to develop 
casinos off their existing reservations and in neighborhoods. To allay 
these concerns, tribes in Arizona have consistently said that they 
would not develop casinos off their reservations without the State's 
approval. The initial gaming compacts in Arizona were developed in 
1992-1993 based on statements and agreements that the tribes would not 
seek to conduct off-reservation gaming without first obtaining the 
consent of the Governor. When the voters re-approved tribes conducting 
Las Vegas-style gaming in 2002, they did so based on promises and 
statements by tribal leaders that casinos would be kept out of 
neighborhoods and that the number of casinos in the metropolitan areas 
would be limited.
    Tohono O'odham is now asking that the Secretary of the Interior 
take a 53 acre site within the City of Glendale, Arizona into trust 
status for the purpose of developing a Las Vegas-style casino. Tohono 
argues that the 1986 law mandates the Secretary to do so, and to do so 
without any consultation with the local communities, the State, or 
other American Indian tribes in Arizona despite the promises that it 
made to the State of Arizona and other tribes. While the Secretary of 
the Interior has not yet opined on whether these lands would be 
eligible for gaming, he has issued a decision to take the lands into 
trust status, although the action has not yet occurred.
    On this point, we have met with the Department of Interior 
(``Department'') to discuss our concerns. The Department has indicated 
its belief that it has a trust responsibility to Tohono O'odham to 
allow them to take the land into trust. We want to stress the similar 
trust responsibilities that exist between the Department and all of the 
other tribes in Arizona who depend on the revenue sharing streams that 
exist under the current compacts and gaming framework in Arizona. This 
trust responsibility cannot be trumped by the concerns of a single 
tribe wanting to build a casino across the street from a public high 
school. The responsibilities that the Department has to the other 
tribes and to sound public policy for all citizens of Arizona cannot be 
dismissed so lightly. While we recognize the Department may have a 
trust responsibility to take lands into trust for Tohono O'odham, we do 
not believe the Department has any such responsibility with respect to 
the use of Glendale lands for gaming, particularly to the detriment of 
other tribes to whom the Department also has a trust responsibility, 
consistent with the 2002 Compact.
    In addition to seeking to sidestep the limits of the Indian Gaming 
Regulatory Act, the efforts of Tohono O'odham also jeopardize a well-
balanced system of gaming in Arizona. The State of Arizona is unique in 
that it has a system of gaming that was jointly negotiated amongst the 
tribes and the State, and then approved by the citizens of Arizona in a 
State-wide referendum. The Arizona system prohibits any additional 
casinos in the Phoenix metropolitan area, but allows Tohono O'odham to 
develop a fourth casino (it currently operates three successful 
casinos) in the Tucson metropolitan area, where it has historically 
been located.
    Tohono O'odham, along with 16 other tribes, financially and 
publicly supported the development of the current gaming system in 
Arizona. However, unbeknownst to the other tribes, the State and the 
voters of Arizona, Tohono was entering into a confidential agreement 
with a realtor to buy land in the Phoenix area for a casino at the same 
time that it was advertising to the voters and other tribes that there 
would be no new casinos in the Phoenix area.
    Eleven American Indian tribes in Arizona and New Mexico oppose the 
efforts of Tohono O'odham to develop a casino in the Phoenix 
metropolitan area; as does the Governor of Arizona and the cities of 
Glendale, Tempe Scottsdale and many others.
    The State of Arizona and the voters of Arizona never intended this 
type of situation to occur when the gaming compacts were written and 
approved in a State-wide referendum. H.R. 1410 would bring some common 
sense to this situation and clarify that no tribe may conduct gaming on 
lands taken into trust after April 9, 2013, as was promised by the 
Arizona tribes. H.R. 1410 would not make amendments to any Federal law. 
The bill would not take any lands away from Tohono O'odham, nor will it 
prevent any lands from going into trust status. The bill will merely 
prohibit any tribes from breaking the promises made to voters--``no 
additional casinos in the Phoenix metropolitan area''--and it will 
protect the Arizona Indian gaming and State revenue structure.
I. Efforts During the 112<SUP>th</SUP> Congress To Protect the 
        Structure of Gaming in Arizona
    In 2011, the Subcommittee on Indian and Alaska Native Affairs held 
a hearing on H.R. 2938, a bill that sought to address the same concerns 
we bring to you today. While the intent of that legislation remains as 
the basis of the bill before you this year, we believe that the Keep 
the Promise Act is improved and we hope that it too can be passed with 
similarly overwhelming bipartisan support.
    Where H.R. 2938 imposed limitations on one tribe, the Tohono 
O'odham Nation, and the underlying law being exploited in support of 
its request to be able to game in Glendale, this bill simply seeks to 
reaffirm, through Federal law, the promise of ``no additional casinos 
in the Phoenix metropolitan area.'' H.R. 1410 does not attempt to amend 
any existing statute, but rather holds each of the signatory tribes of 
the 2002 compact to the terms agreed upon at that time.
II. H.R. 1410
    As its title makes clear, H.R. 1410 keeps the promises that the 
tribes of Arizona made to the State of Arizona and the voters of 
Arizona that there would be no additional casinos for the duration of 
the negotiated and voter approved tribal-State gaming compacts. H.R. 
1410 is a simple bill that merely ratifies the agreement that the State 
and tribes of Arizona reached when they established a limited structure 
of Indian gaming in Arizona. This bill does not amend Federal law, 
target any specific tribe, or prevent Tohono O'odham from placing lands 
into trust. H.R. 1410 is limited in geographic scope to the Phoenix 
metropolitan area, is limited in temporal scope and applies only until 
the expiration of the current compacts, and applies uniformly to all 
Arizona tribes.
    H.R. 1410 recognizes tribal sovereignty by affirming what tribal 
sovereigns committed to each other and does not create negative 
precedent for Indian Country. H.R. 1410 merely ensures that the tribes 
of Arizona keep the promise that we made to the State of Arizona and 
the voters of Arizona that there would be no additional casinos in the 
Phoenix area throughout the duration of the existing gaming compacts 
which begin to expire in 2026. After that time, all interested parties 
within Arizona can negotiate what gaming scheme should exist in the 
State. In fact, this type of clarifying legislation is extremely common 
in Indian Country. Congress routinely includes various restrictions on 
legislation involving Indian land, particularly gaming. For instance, 
it is not unusual for Congress to revisit existing statutes to clarify 
the party's intent, so long as the legislation is narrowly tailored.\1\ 
This is a proper and necessary role for Congress.
---------------------------------------------------------------------------
    \1\ See e.g., the Rhode Island Indian Claims Settlement Act, 
ratifying an agreement between the State of Rhode Island and the 
Narrangansett Tribe, and settling the Tribe's land claims, was enacted 
in 1978 without a provision regarding gaming. 25 U.S.C. Sec. 1701 et 
seq. Congress subsequently amended the Rhode Island Indian Claims 
Settlement in 1996 to explicitly prohibit gaming pursuant to IGRA. See 
25 U.S.C. Sec. 1708(b) (``For purposes of the Indian Gaming Regulatory 
Act (25 U.S.C. 2701 et seq.), settlement lands shall not be treated as 
Indian lands''). See also, the Colorado River Indian Reservation 
Boundary Correction Act, to clarify or rectify the boundary of the 
Tribe's reservation while also including a provision prohibiting gaming 
(``Land taken into trust under this Act shall neither be considered to 
have been taken into trust for gaming nor be used for gaming (as that 
term is used in the Indian Gaming Regulatory Act (25 U.S.C. 2701 et 
seq.)''), Pub. L. 109-47 (Aug. 2, 2005); Congress passed legislation to 
waive application of the Indian Self-Determination and Education 
Assistance Act to a parcel of land that had been deeded to the Siletz 
Tribe and Grand Ronde Tribe in 2002 but also included a gaming 
prohibition provision (``Class II gaming and Class III gaming under the 
Indian Gaming Regulatory Act (25 U.S.C. 2701 et seq.) shall not be 
conducted on the parcel described in subsection (a)'') Pub. L. 110-78 
(Aug. 13, 2007); Congress clarified the Mashantucket Pequot Settlement 
Fund, 25 U.S.C. Sec. 1757a to provide for extension of leases of the 
Tribe's land but provided that ``No entity may conduct any gaming 
activity (within the meaning of section 4 of the Indian Gaming 
Regulatory Act (25 U.S.C. 2703)) pursuant to a claim of inherent 
authority or any Federal law (including the Indian Gaming Regulatory 
Act (25 U.S.C. 2701 et seq) and any regulations promulgated by the 
Secretary of the Interior or the National Indian Gaming Commission 
pursuant to that Act) on any land that is leased with an option to 
renew the lease in accordance with this section.''), Pub. L. 110-228 
(May 8, 2008); Congress passed the Indian Pueblo Cultural Center 
Clarification Act which amended Public Law 95-232 to repeal the 
restriction on treating certain lands held in trust for the Indian 
Pueblos as Indian Country with the explicit clarification that although 
it was Indian Country it could not be used for gaming (``Gaming, as 
defined and regulated by the Indian Gaming Regulatory Act (25 U.S.C. 
2701 et seq.), shall be prohibited on land held in trust pursuant to 
subsection (b).'') Pub. L. 111-354 (Jan. 4, 2011).
---------------------------------------------------------------------------
    This continues to be a consistent practice of Congress. In the 
112th Congress, Congressman Grijalva introduced the Cocopah Lands Act 
(H.R. 1991), a bill to transfer land in trust to the Cocopah Tribe and 
included a provision restricting gaming. (``Land taken intro trust for 
the benefit of the tribe under this act shall not be used for gaming 
under the Indian Gaming Regulatory Act'').
    Accordingly, any arguments that the H.R. 1410 constitutes dangerous 
precedent are inconsistent with common Congressional practice.
    The Community supports H.R. 1410 because it is narrow in scope, 
does not impact tribal sovereignty and is the simplest solution to this 
current threat to Indian gaming in Arizona. This legislation makes 
express what had been the common understanding of the parties that 
negotiated the existing gaming compacts in Arizona.
III. H.R. 1410 Recognizes and Supports Tribal Sovereignty
    The Salt River Pima-Maricopa Indian Community, along with the 10 
other tribes who oppose Tohono O'odham's reservation-shopping efforts, 
know firsthand the importance of tribal sovereignty. As federally 
recognized tribes, we fight on a daily basis to protect tribal 
sovereignty and provide for our people. We would not support a bill 
that jeopardizes tribal sovereignty. Rather, we pride ourselves on 
working with our brethren on issues of common concern to Arizona tribes 
because it strengthens our collective sovereignty and helps us fulfill 
our responsibilities to our individual tribal communities.
    We are here today in support of H.R. 1410 because in our view, H.R. 
1410 explicitly recognizes and respects tribal sovereignty by upholding 
the commitments that we, including Tohono O'odham, all made during the 
compact process and that were memorialized through passage of 
Proposition 202.
    To be clear, H.R. 1410 simply seeks to reaffirm that no additional 
casinos may be built in the Phoenix metropolitan area for the duration 
of the existing gaming compacts. As discussed above, this type of 
clarifying legislation is not uncommon in Indian Country. It is 
sometimes necessary for Congress to step in and clarify agreements to 
preserve the intent of the parties. This is a proper and necessary role 
for Congress.
    Here, H.R. 1410 is narrowly tailored to maintain the status quo and 
sustain the carefully negotiated gaming structure, voted on by the 
citizens of Arizona. Without H.R. 1410, Tohono O'odham will proceed on 
its path to circumvent existing gaming restriction, both under Federal 
and State law, conduct gaming far from their existing reservation, and 
most importantly jeopardize the other Arizona tribes' existing rights 
under Federal law that we all share. As sovereign nations, we cannot 
simply stand by and watch someone, albeit another Arizona tribe, 
threaten our gaming rights and unravel the comprehensive and inter-
connected gaming structure in Arizona. Accordingly, we urge passage of 
H.R. 1410 to uphold tribal sovereignty.
IV. The Promise of Limited Gaming in Arizona
    We and many other Arizona tribes believe the existing tribal-State 
gaming compact to be the model in the Indian gaming industry. It is 
regulated at all levels of government (tribal, State, and Federal), is 
limited in both the number of gaming devices and locations, benefits 
both gaming and non-gaming tribes alike, benefits local municipalities 
and charities throughout the State, and is beneficial to the State of 
Arizona. But most importantly, the Citizens of Arizona benefit because 
the tribal-State gaming compacts were the direct result of a voter 
approved ballot initiative in 2002.
    Today, the proposed casino development proposal by Tohono O'odham 
runs contrary to what the voters approved in 2002 and threatens the 
existing tribal-State gaming compacts. Prior to the passage of the 
voter approved ballot initiative (Prop 202) which culminated in the 
existing tribal-State gaming compacts, tribal leaders held extensive, 
hard negotiations on an acceptable framework for all tribes. 
Importantly, 16 tribal leaders, including Tohono O'odham, signed an 
Agreement in Principle (AIP) to make a good faith effort to maintain a 
collaborative relationship as to gaming matters and compact 
renegotiation.
    Specifically, the AIP stated that tribal leaders would make ``Good 
Faith'' efforts to share among themselves the details of compact 
renegotiations with the State of Arizona. Further, tribal leaders 
agreed to make ``Good Faith'' efforts to develop and maintain 
consistent positions and to notify other tribal leaders if they 
believed they could not abide by the AIP.
    We negotiated in good faith with all Arizona tribes and the 
Governor of Arizona to craft a tribal-State gaming compact that 
preserved tribal exclusivity for casino gaming, allowed for larger 
casinos and machine allotments with the ability to expand machine 
allotments through transfer agreements with rural tribes, and that was 
intended to limit the number of casinos in the Phoenix metropolitan 
area. In order to reach a deal with the Governor of Arizona all tribes, 
including Tohono O'odham, had to agree that no more than seven casinos 
could be located in the Phoenix metropolitan area.
    This meant that the Salt River Pima-Maricopa Indian Community and 
the three other Phoenix Metro tribes (Ak-Chin, Gila River & Fort 
McDowell) each had to give up their rights to build one additional 
casino. Tohono O'odham was aware of this concession on the part of 
other tribes and fully knew that this was a key deal point for the 
State of Arizona that needed to be made if negotiations were to move 
forward.
    However, it is clear that Tohono O'odham began actively seeking to 
purchase land in the Phoenix area for the sole purpose of establishing 
a casino, prior to the conclusion of compact negotiations and 
ratification of the tribal-State compacts.
    As a result, many Arizona tribes have opposed the actions of Tohono 
O'odham. Indeed, a chronology of events from the time of enactment of 
the original land settlement further clarify the intent of Congress, 
the State of Arizona and Indian tribes throughout the State.
    1986 October 20--Congress adopted the Gila Bend Act. The Gila Bend 
Act authorized Tohono O'odham to purchase, and the Secretary to add 
Tohono O'odham's reservation, up to 9,880 acres of land in Maricopa, 
Pinal or Pima counties. Under the Act, purchased land may not be within 
the corporate limits of any city and may not be purchased in more than 
three parcels.
    1988 October 17--Congress adopted the Indian Gaming Regulatory Act 
(IGRA). The Act authorized Tribes to conduct gaming, subject to 
requirements of the Act and the compact with the State. No provision 
grandfathering the Gila Bend Act was included in this act.
    1994 April 25--The Arizona legislature intended to prohibit off-
reservation casinos by adopting A.R.S. 5-601.C, which stated that the 
Governor of Arizona shall not concur in a so-called ``two part 
determination'' under IGRA regarding any proposed off-reservation 
casino. This State statute reflects Arizona's public policy towards 
off-reservation casinos.
    1999--Compact negotiations began. Sixteen tribes, including Tohono 
O'odham, signed the AIP under which each tribe agreed to ``make a good-
faith effort to notify other tribal leaders if they believe that they 
cannot abide by this agreement or that they must take positions or 
actions inconsistent with those of the other tribal leaders.''
    2000 January 25--Tohono O'odham asked the Secretary of the Interior 
to waive the three parcel limit under Gila Bend Act, which was needed 
in order to seek an off-reservation casino.
    2000 May 31--The Secretary approved Tohono O'odham's request, and 
allowed the Tohono to buy and transfer in trust 9,880 acres in up to 
five parcels instead of three.
    2002 February 20--State and Arizona tribes reach agreement-in-
principle on proposed new compact. The new compact would require that 
each Phoenix metro tribe (Gila River, Fort McDowell, Salt River, and 
Ak-Chin) give up its right under the then-existing compacts to operate 
one additional casino, so there would be no more than seven casinos in 
Phoenix metro area. (In 2002 there were only seven casinos in operation 
in the Phoenix metro area). After the agreement's announcement, the 17 
tribes and the Arizona Indian Gaming Association (AIGA) began efforts 
to get the Arizona legislature to approve the agreement. Governor Hull 
issued a News Release stating the ``Major points in the [negotiated] 
agreement include . . . Number of casinos . . . No additional casinos 
allowed in the Phoenix metropolitan area and one additional casino in 
the Tucson area.''
    2002 April 8--David LaSarte, AIGA Executive Director, testified 
before the Arizona legislature that one of the ``most important items 
within the agreement include[s] the limitation of facilities in the 
Phoenix-metro area to the current number and allows the possibility for 
only one additional facility in Tucson.''
    The legislature failed to adopt the compact. As a result, the 17 
tribes and AIGA began their political campaign seeking Arizona voter 
approval of the negotiated compact in Prop 202. AIGA published a 
campaign pamphlet for voters entitled ``Answers to Common Questions,'' 
with ``major funding'' provided by Tohono O'odham and three other 
tribes. Tohono O'odham contributed approximately $1.8 million in 
support of the campaign and was listed as a supporter of the Prop 202 
campaign materials. The voter pamphlet sponsored in part by Tohono 
O'odham stated:

        ``Question. Does Prop 202 limit the number of tribal casinos in 
        Arizona?
        Answer. Yes. In fact, Prop 202 reduces the number of authorized 
        gaming facilities on tribal land, and limits the number and 
        proximity of facilities each tribe may operate. Under Prop 202, 
        there will be no additional facilities authorized in Phoenix, 
        and only one additional facility permitted in Tucson.''

    The Secretary of State's official Voter Guide for the November 5, 
2002 General Election provided arguments for and against adoption of 
Proposition 202. Governor Hull argued for adoption of Proposition 202, 
stating:

    ``Voting `yes' on Proposition 202 ensures that no new casinos will 
be built in the Phoenix metropolitan area and only one in the Tucson 
area for at least 23 years. Proposition 202 keeps gaming on Indian 
Reservations and does not allow it to move into our neighborhoods.''

    Attorney General Napolitano argued for adoption of Proposition 202, 
stating: ``Most Arizonans believe casino gaming should be limited to 
reservations. I agree. . . . [Prop 202] also prevents the introduction 
of casino gaming, such as slot machines, by private operators into our 
neighborhoods.''
    2002 March 11--Tohono O'odham signed a ``Confidentiality and Non-
Circumvention Agreement'' with a realtor (Mr. Amavisca) to buy land for 
a casino in Maricopa County. In deposition, the realtor testified that 
Tohono O'odham ``did not want outside parties knowing they were 
interested in land along the interstate . . . for a gas station, cigar 
store, possible casino. . . . It was my understanding that a casino 
going in may get negative feedback in the area.'' Also in deposition, 
the Business/Finance Manager for a Nation--owned corporation (Mr. 
Chaston) testified that the purpose of the realtor's Confidentiality 
Agreement was that Tohono O'odham was ``trying to keep the seller from 
knowing who the ultimate buyer is.'' He also confirmed that the realtor 
was retained by Tohono O'odham to find land for a possible ``gaming 
facility'' and ``that was the original reason to have Mr. Amavisca 
looking for us.''
    2002 September 25--According to an Arizona Department of Gaming 
(ADOG) Memorandum by Mr. Rick Pyper dated October 2, 2002, a Town Hall 
Meeting was held in Tucson moderated by a representative from Governor 
Hull's office. The purpose of the Meeting was to discuss the pros and 
cons of the gaming propositions on the ballot. According to the ADOG 
Memorandum, Mr. Ned Norris represented the Tohono O'odham Nation and 
spoke against Prop 201, the competing proposition authored by the 
Colorado River Indian Tribes: ``Mr. Norris said that 201 will open 
gaming into cities and that the citizens of Arizona have, repeatedly 
over the years, expressed their desire to keep gaming on the 
reservation.''
    2002 November 5--Arizona voters approved ballot initiative 
Proposition 202. Between November 1999 and December 2002, AIGA and 
Arizona tribes met privately over 85 times on compact negotiations and 
the voter campaign. During the same period, AIGA tribes had over 35 
meetings with the State regarding compact negotiations and the voter 
campaign.
    2002 November 6--An Article published by the Tucson Citizen 
reported that Prop 202 was approved by the voters. Tohono O'odham 
Nation Chairman at the time, Edward Manuel, who signed the 1999 AIP 
among tribes, was quoted as saying: ``To us, this is a major victory. 
We stayed together. We stayed united. We will try to keep working on 
that to keep the unity together.''
    2002 December 4--One month after voters approved Proposition 202 
Tohono O'odham signed its Proposition 202 compact.
    2003 March 12--Three months later Tohono O'odham created a Delaware 
corporation in order to secretly buy land for a Phoenix metropolitan 
casino.
    2003 August 21--Tohono O'odham's secret Delaware Corporation bought 
the Glendale land, located in the Phoenix metro area, for a casino.
    2009 January--Tohono O'odham applied to Secretary to have the 
Glendale land added to Tohono O'odham's land base. In fact, Tohono 
O'odham told officials at the Department of the Interior that no 
Arizona tribes objected to this project when it submitted the 
application. This is not a true statement.
    2009--Upon hearing of Tohono O'odham's plan to open a casino in the 
Phoenix metro area many Arizona tribes passed resolutions opposing the 
plans. These tribes included the Ak-Chin Indian Community, Fort 
McDowell Yavapai Nation, Gila River Indian Community, San Carlos Apache 
Tribe, Tonto Apache Tribe, White Mountain Apache Tribe and Yavapai-
Apache Nation. The reasons given by all these tribes is that Tohono's 
plans violated the promises made to Arizona voters in Prop 202 and 
threatened tribes' exclusive right to operate casinos in the State.
    2011 April 29--The member tribes of AIGA passed a formal resolution 
to reaffirm AIGA's Proposition 202 promises.
    2011 June 29--Tohono O'odham filed Answer in Federal court to a 
complaint filed by the State of Arizona in State of Arizona v. Tohhono 
O'odham Nation. In its Answer, Tohono O'odham admitted that, in the 
midst of the Prop 202 campaign conducted by the 17 tribes including 
Tohono O'odham--a campaign for approval of a compact that would require 
other tribes to limit casinos in the Phoenix metro area--Tohono O'odham 
was concurrently trying to buy Phoenix metro land for a casino. Tohono 
O'odham also admitted that various parties ``characterized the 
provisions of Proposition 202 requiring most tribes to give up the 
right to one gaming facility as `no additional facilities authorized in 
Phoenix, and only one additional facility permitted in Tucson' and that 
Tohono O'odham did not contradict those statements.'' Tohono O'odham 
admitted ``that it participated in the negotiations that led to 
Proposition 202, supported Proposition 202, and entered into a new 
compact in 2002 after the voters approved Proposition 202.'' Finally, 
Tohono O'odham admitted ``that in 2002 it was considering the 
possibility of acquiring property in the Phoenix metropolitan area for 
gaming purposes; that it did not disclose that it was considering such 
an acquisition; and that it had no obligation to make such a 
disclosure'' to other tribes, to the State, or to the voters.
    Tellingly Chairman Norris has not denied, because he could not, 
that the 17 tribe coalition had made promises directly to the Arizona 
voters that there would be no additional casinos in the Phoenix 
metropolitan area. When confronted, his response to some of these 
tribes was, ``those are just words on a publicity pamphlet.''
    Arizona tribes overwhelmingly agree that the collaborative approach 
to crafting the current tribal-State compact has been a great benefit 
to tribal communities, local communities--such as our neighbors, the 
Cities of Tempe and Scottsdale, charities for the State, and the people 
of Arizona.
    However, not then and certainly not now, did we expect to be here 
today to say that one of our sister tribes did not act in ``good 
faith''. However, the record is clear there were ongoing efforts by 
Tohono O'odham government to purchase land, have it taken into trust 
status and develop a casino.
    It is not an easy thing to stand here and talk about a lack of 
``good faith'', and we do so reluctantly. However, we act today so that 
in future years, we will not have to look back and say to all, that 
``we should have done something.''
V. The Tohono O'odham Nation's Deceit is Calculated To Break Promises 
        Made to the State of Arizona and the Voters of Arizona and Prop 
        Up Their Thriving Gaming Enterprise
    Tohono O'odham's actions constitute the deliberate effort of one 
tribe to use deception and sovereign immunity as political tools to 
make and break promises for pecuniary benefit. The Tohono O'odham 
Nation already has very successful gaming enterprise. Tohono O'odham 
maintains two casinos in the Tucson metropolitan area and an additional 
casino in why, Arizona. Additionally, under the current gaming Compact, 
Tohono O'odham is allowed to develop a fourth casino on their existing 
reservation lands, including in the Tucson metropolitan area. H.R. 1410 
would not impact the tribe's existing three casinos or impact its 
ability to develop a fourth casino on its existing reservation or on 
its aboriginal lands.
    Tohono O'odham's success in gaming goes back to early 1992, when 
the State of Arizona and certain Arizona tribes, including Tohono 
O'odham were at a standoff regarding Indian gaming in the State. To 
overcome legal challenges and political opposition, the tribes 
repeatedly made statements that no gaming could occur outside of 
existing reservations without the concurrence of the Governor. During 
Federal District Court mediation with the State in 1993, Tohono O'odham 
submitted a document, ``Comparison of Compact Proposals,'' which argued 
that the State of Arizona's insistence on compact provisions requiring 
the Governor's concurrence for any off-reservation gaming was 
unnecessary because ``existing Federal law requires the Governor's 
concurrence. This is adequate protection to the State and local 
interests.'' Tohono O'odham Nation's Comparison of Compact Proposals at 
11, No 93-0001 PHX (D. Ariz. Jan. 19, 1993). Tohono O'odham now claims 
that a legal loophole allows it to unilaterally pursue a casino off 
existing reservation lands without the concurrence of the Governor of 
Arizona or any input from any of the local communities.
    Further, on June 8, 1993, tribal representatives met with staff for 
the State legislature and provided a handout entitled ``After Acquired 
Lands,'' which stated that ``[a]nother exception to the prohibition of 
gaming on after acquired lands is when the lands are taken into trust 
as part of a settlement of a land claim. This will not effect [sic] 
Arizona because aboriginal land claims in Arizona have already been 
settled pursuant to the Indians Claims Commission Act of 1946.'' The 
handout was distributed on behalf of all tribes present, including 
Tohono O'odham. After State officials had received these assurances, 
the Governor of Arizona entered into gaming compacts with the tribes to 
allow tribal gaming in Arizona.
    A 17-tribe coalition was formed in 1999 to negotiate new gaming 
agreements with the State. Leaders from each member of the tribal 
coalition, including then-Chairman Edward Manuel of Tohono O'odham, 
signed an Agreement in Principle (AIP), which required that each tribe 
act in ``good-faith'' and notify the other tribes if it could not abide 
by the agreement or must take ``positions or actions inconsistent'' 
with the other tribes. The tribal coalition ultimately agreed that the 
four Phoenix-metro tribes (Ak-Chin Indian Community, Fort McDowell 
Yavapai Nation, Gila River Indian Community and Salt River Pima-
Maricopa Indian Community) would each reduce their authorized casinos 
by one so there would be no more than seven casinos (the existing 
number at the time) in the Phoenix metro area. One Tucson-metro area 
tribe (the Pascua Yaqui tribe), agreed to give up a right to an 
additional casino, while Tohono O'odham refused to reduce its four 
casino allotment (Tohono O'odham already had three operating casinos, 
two in Tucson and one in an rural area) claiming it needed to keep its 
rural facility to provide jobs in that area, and that it would put the 
unbuilt casino in the Tucson area or the rural part of its reservation. 
The Governor and other tribes agreed to allow Tohono O'odham to keep 
its fourth casino allotment based on these commitments. Tohono O'odham 
is now trying to place its unbuilt facility in the Phoenix metro area 
and could, if allowed, relocate any of its other existing facilities 
there.
    The tribal coalition spent over $23 million on the campaign to pass 
Proposition 202, which would authorize the Governor to sign tribal-
State gaming compacts. Tohono O'odham provided approximately $1.8 
million. The campaign distributed a document entitled ``Answers to 
Common Questions'' stating that ``[u]nder Proposition 202, there will 
be no additional facilities authorized in Phoenix, and only one 
additional facility permitted in Tucson.'' Although Tohono O'odham has 
admitted that its funds were used to publicize these promises to the 
voters of Arizona, it now claims that these were misstatements to which 
Tohono O'odham had no obligation (legal or otherwise) to correct. 
Tohono O'odham has also disclosed, despite the promises contained in 
the AIP and those made to the State and voters, that it was 
``considering the possibility of acquiring land in the Phoenix area for 
gaming purposes, that it did not disclose that it was considering such 
an acquisition, and that it had no obligation to make such a 
disclosure.'' It has now come to light that Tohono O'odham was indeed 
planning to acquire land for gaming in the Phoenix metro area as early 
as 2001 and eventually did so through a Tohono O'odham-owned Delaware 
corporation ``in part to conceal its ownership'' of the property.
    Not only has Tohono O'odham manipulated Federal law and 
administrative policy to shoehorn a casino into a neighborhood against 
the wishes of local governments and its sister tribes, Tohono O'odham 
has also asserted, through its attorneys, its right to open all four of 
its authorized casinos in the Phoenix metropolitan area on land 
acquired under the Gila Bend Act. These brazen contentions demonstrate 
that Tohono O'odham intends to repeat its pattern of deception wherever 
advantageous, and will do so regardless of the promises made or the 
toll on all other Arizona tribes. This deliberate policy of deceit, 
which is calculated to avoid court review, leaves Congress as the only 
forum that can protect the promises made to the people of Arizona.
VI. Congress is the Only Institution That Can Provide Accountability on 
        This Matter
    Tohono O'odham's secretive and deceptive actions have resulted in 
litigation in the Federal courts from the District of Columbia to the 
State of Arizona and up to the Court of Appeals for the Ninth Circuit. 
Although these actions are still ongoing, Tohono O'odham made the 
calculated decision of using sovereign immunity as a shield to preclude 
review of its deceitful actions during the compact negotiations and 
Prop 202 campaigns of the early 2000's. While Tohono O'odham tells 
Members of Congress to let the court address this matter, in court, 
Tohono O'odham argues that the court does not have the jurisdiction to 
review its actions. Definitive action by Congress is therefore 
necessary to resolve, once and for all, the intent of the Arizona 
gaming compacts and more importantly, preserve the deal that was struck 
in 2002.
    The State of Arizona filed a complaint in Federal court against 
Tohono O'odham in 2011 alleging that Tohono ``had a secret plan at the 
time it was negotiating the Compact to build a gaming facility in the 
Phoenix metropolitan area . . ., notwithstanding its contrary 
representations'' to the State and the public. These ``representations 
induced the State to enter into the Compact, and the State would not 
have signed the Compact had it known of the Nation's plans.'' In 
another claim, the State alleged that the Nation ``materially and 
fraudulently misrepresented that it had no plans . . . to open a gaming 
facility in the Phoenix metropolitan area,'' and that the ``State's 
assent to the Compact was induced by the Nation's misrepresentations 
and intentional failures to disclose material facts.'' Several tribes 
support the State's allegations against TON.
    The district court dismissed the fraud and misrepresentation claims 
not on the merits, but because Tohono O'odham asserted that it was 
protected by the doctrine of tribal sovereign immunity. Since Tohono 
O'odham has refused to waive its sovereign immunity with respect to 
these claims, the court was unable to consider them. On May 29, 2013, 
the court found that the evidence supported a claim for ``promissory 
estoppel'' against Tohono O'odham but that ``such a claim is barred by 
[Tohono's] sovereign immunity. In dismissing the fraud in the 
inducement, material misrepresentation and promissory estoppel claims 
because of Tohono's sovereign immunity, the court noted that Congress 
only waived tribal sovereign immunity for claims arising from executed 
compacts. Therefore, the scope of this waiver does not include 
statements, commitments, and promises made prior to compact execution, 
which formed the basis of these deceit based claims against Tohono. 
While the commitment of the Arizona tribes not to build additional 
casinos in Phoenix was not written into the compact, that promise was 
the basis for Arizona's acceptance of the model compact and was an 
implicit tenet of the State's agreement to permit limited Class III 
gaming in Arizona. Congress is the appropriate entity to provide 
redress to the parties who relied on the statements made by the Arizona 
tribes. Because Tohono O'odham has refused to waive its sovereign 
immunity and the merits of those claims cannot be heard by a court.
    While the Arizona tribal community, the State, and the co-sponsors 
of the bill would welcome a resolution that ensures that there would be 
no casino gaming in Glendale, or other attempts to game on lands 
removed from Tohono O'odham's current reservation in the Tucson area, 
one cannot simply turn a blind eye to the fact that Tohono O'odham's 
current proposal to game in Glendale is illegal and violates the 
agreement that Tohono O'odham made with other Arizona tribes, the 
State, and with Arizona voters in 2002. It is therefore particularly 
ironic that Tohono O'odham claims the trust responsibility would be 
violated by this measure when in reality, the trust responsibility is a 
further reason to enact H.R. 1410--without it, the self-interested 
economic desires of one tribe would be advanced to the detriment of 
every other gaming tribe in Arizona.
    There are also important practical considerations that compel 
Congressional action now. Among them, taxpayers and other tribes in 
Arizona should not have to wait and continue to have to spend time and 
money to fight against the unfair and dubious actions by Tohono 
O'odham. The result is that this bill would clarify what everyone 
except Tohono O'odham understands, that the current Arizona gaming 
compacts were intended to prohibit the placement of an additional 
casino in Glendale Arizona, in an Arizona city, town or off-reservation 
setting.
    While the co-sponsors of H.R. 1410 and the Arizona tribes who 
support it, must reluctantly be critical of Tohono O'odham's conduct 
here, it is hard to avoid the fact that Tohono has repeatedly thwarted 
the normal process for obtaining Federal approval of Indian gaming, and 
used sovereign immunity as a shield to prevent the review of claims 
against it for fraud in the inducement, material misrepresentation, and 
promissory estoppel. It is the merits of these claims that the Keep the 
Promise Act is seeking to address and Congress is the only institution 
that can provide accountability in this matter.
VII. Conclusion
    The Salt River Pima Maricopa Indian Community urges Congress to 
pass H.R. 1410. It is needed to reaffirm the promise that the tribes of 
Arizona made to the State of Arizona and voters that there would be no 
additional casinos in the Phoenix metropolitan area for the duration of 
the existing compacts. The clarification does not interfere with Tohono 
O'odham's desire to have land taken into trust. It maintains the status 
quo in Arizona and does not adversely affect any tribe. Without this 
bill, the other Arizona tribes may suffer because the current gaming 
compact structure will certainly be compromised. We support this 
legislation.
                                 ______
                                 
    Mr. Young. I thank you again, Diane.
    I ask unanimous consent that Mr. Schweikert be able to sit 
and participate.
    Ms. Hanabusa, I think that is a good idea.
    You are up.
    Dr. Gosar. Thank you, Mr. Chairman.
    And first I would like to thank you for moving this bill 
forward, and I would also like to thank my friend, Congressman 
Franks, who introduced this bill last month, and I strongly 
believe that swift passage is critical to the future of gaming 
in my State.
    My support for H.R. 1410 is not rooted in the opposition to 
one casino. I support Indian gaming and gaming as a whole. In 
fact, I am a member of the House Gaming Caucus and a group of 
congressional leaders focused on educating members on gaming 
related issues and working to identify key policy areas that 
can be advanced at a Federal level to enhance the economic 
impact of gaming around the country.
    I simply believe gaming should be prohibited on the lands 
in Glendale at least through the life of the Arizona Compact. 
The key part of that compact was a tribal agreement, including 
the nation, that no casinos would be permitted in the 
metropolitan area for at least 23 years. The nation was very 
clear back when the compact was negotiated that if it operated 
a fourth casino, that casino would be located in rural Arizona, 
not metropolitan Phoenix.
    H.R. 1410 simply upholds the compact by prohibiting gaming 
on lands taken into trust by the Secretary within the Phoenix 
Metropolitan Area until January 1, 2027. It is supported by six 
of the tribes that took part in the Proposition 202 agreement, 
the Salt River Pima-Maricopa Indian Community, the Gila River 
Indian Community, the Hualapai Tribe, the Pueblo Zuni, the 
Cocopah, and the Fort McDowell Yavapai Tribe.
    I would like to submit an op-ed those tribes placed in the 
Arizona Republic, our State's largest newspaper, entitled 
``Tribal Leaders' Bill Would Safeguard Casinos Deal,'' for the 
record.
    Mr. Young. Without objection.
    Dr. Gosar. Additionally, I have letters of support from the 
Town of Fountain Hills, the City of Glendale, the City of 
Tempe, the Town of Gilbert, the City of Litchfield Park. These 
are all municipalities within the Phoenix Metropolitan Area 
concerned with the violation of the State compact.
    Mr. Chairman, I ask that those letters also be included in 
the record.
    Mr. Young. Without objection.
    [The article and letters of support submitted for the 
record by Dr. Gosar have been retained in the Committee's 
official files:]
    Dr. Gosar. One more comment before I get my questions. A 
government that is not accountable is no government at all. 
When we, and I think President Enos alluded to it, that the 
court's hands were tied when we claimed tribal immunity, and 
not to be able to fully disclose the underhanded dealings in 
which the tribe dealt with this, I find it offensive, not just 
on this level but on the tribal level, and I am one of the 
leading components of what we are seeing now in the U.S. 
Government.
    I am also aware very truly about what the U.S. House's, a 
legislative body, jurisdiction and treaty obligation is, and so 
with that I will start my questions.
    President Enos, the bill that does not prohibit the land 
from being taken into trust, what are your thoughts on that?
    Ms. Enos. My community and the other tribes, as far as I 
know, do not oppose the Federal Government taking land into 
trust for economic development purposes.
    Dr. Gosar. Now, I understand that non-gaming rural tribes 
are concerned about the proposal of off-reservation gaming 
proposal. What happens to them if this legislation does not 
pass?
    Ms. Enos. The Arizona Compact that the Governor entered 
into with all of us as tribes is a standard compact, and it 
provides for the transfer of machines for those tribes that 
have no market. For instance, Hualapai, who is here today, has 
no real market. So they get to transfer their machines to the 
tribes in the metro areas, Phoenix and Tucson.
    Also, you have rural tribes. Because Arizona tribes have 
exclusivity for gaming in the State of Arizona, they get a 
share of the market that they would not otherwise have. 
Currently, the threats to Indian gaming in Arizona continue, 
and they have for several years with increasing pressure.
    There is a bill that sits on the Speaker of the House in 
the State legislature, Speaker Tobin, which is a racino bill, 
which would provide slot machines to race tracks and other non-
Indian entities. That is the threat that we face. If Tohono is 
allowed to build a casino in the City of Glendale, those non-
Indian interests have already started to say, ``Look. You 
cannot trust the tribes,'' and they will demand that the 
exclusivity for tribes be broken and that all the tribes, 
including the rural tribes and the non-gaming tribes will lose 
out severely.
    Dr. Gosar. So let me get this straight. So Steve Wynn from 
Nevada could be in Scottsdale if this compact is broken; is 
that not true, President Enos?
    Ms. Enos. That is correct.
    Dr. Gosar. And if that so does happen, who loses? Do the 
tribes have the money to compete with somebody like Steve Wynn?
    Ms. Enos. The tribes do not, in my opinion. And you are 
looking at tribes that are way out in the rural areas. You are 
looking at tribes, for instance, the Havasupai that live at the 
bottom of the Grand Canyon, and this revenue that has come from 
transfer of machines has been huge for them. They do not have 
very many other sources for economic development, and tribes 
across the State of Arizona would be hard hit if the State went 
statewide gaming because of that provision in our compact. It 
is referred to as the ``poison pill provision,'' and it 
basically says that if a non-Indian entity gets Class III 
machines, technically speaking, the State is open to statewide 
gaming.
    Dr. Gosar. Well, I have run out of time. I will wait for my 
additional time.
    Thank you.
    Mr. Mullin [presiding]. I will now recognize the Ranking 
Member for any questions that she may have.
    Ms. Hanabusa. I am going to pass my time to Mr. Grijalva.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman. Thank 
you, Ranking Member.
    Chairman Norris, it is not even a point of responding. 
Legal decision, precedents, administrative hearings and 
decisions seem to be relevant in this discussion, chairman, and 
so far we are dealing with hyperbole. We are dealing with 
generalizations, Las Vegas to take over Phoenix being one of 
them, and your nation and fulfilling the decision by this 
Congress to replace to some level the land you lost in the 
flooding.
    I had the opportunity near Saint Lucy, and some of the 
elders there took me to what formerly used to be the community, 
and there is no amount of time that is ever going to make up 
that loss, but Congress felt that was not only a gesture, but a 
necessary, just thing to do, and they did. They put no 
restrictions on the land, and they called it reservation land.
    But you are being categorized, and anybody, I believe, that 
supports you, whether it is the City of Peoria, whether it is 
Chicanos por la Causa, whether it is the Glendale City Manager 
and some of the councilmen, whether it is Phoenix City 
councilmen, whether it is the City of Tolleson, whether it is 
the Hopi Tribe, the San Carlos Apache Tribe, the Hopi Tribe, as 
I mentioned, the mayor and city council of Surprise, that 
characterization would apply to them that they are part of some 
plot that is underhanded. What else? Fraudulent.
    And so, chairman, this legislation is particular to your 
nation, period. And the line that is drawn arbitrarily in this 
legislation is directed to limiting any options that you might 
have under the law to develop gaming in that reservation land. 
I am not a lawyer but disparate treatment seems to be the 
primary word here.
    So, is this issue about competition, because the last time 
that we hear somebody testify that if we did not pass that last 
piece of legislation, that the whole compact in Arizona would 
unravel. We are having that same discussion. The judge ruled 
that the compact is secure and safe, that is no potential to 
unravel, so, today, if the compact is indeed secure and safe, 
chairman, your explanation to me and to the members, what is 
the motivation then to rush this legislation, beat the court to 
a decision, beat Interior to a decision and therefore toward 
any effort to do due diligence and let the process work its 
will, the only way to pass this legislation is to categorize 
this as fraudulent, underhanded.
    Mr. Chairman, any response to what we have heard thus far?
    Mr. Norris. Mr. Chairman, Ranking Member Hanabusa, members 
of the Committee, Mr. Grijalva, thank you for that question. 
You know, my Nation has been litigating this issue with the 
opposition for close to 3 years, if not 3 years already. There 
have been volumes and volumes and volumes of deposition and 
statements that have been made and discovery that has taken 
place, and we continue to abide by the letter of the law, not 
only in our compact but also with respect to our land and water 
settlement, as well as the Indian Gaming Regulatory Act.
    Obviously, the courts thus far have agreed with the 
nation's arguments. The argument was whether or not we are 
going to violate the compact. The courts ruled no. The argument 
was whether or not we are going to violate the Indian Gaming 
Regulatory Act. The courts ruled no. The argument was whether 
or not this was a land settlement or not. The courts said no. 
This is in fact the land settlement. The arguments were that we 
were somehow being deceptive and whatnot, that there was a 
promise made. The courts realized that and said no. The primary 
motivation with these two wealthy tribes is the market share 
issue. Their primary effort here is to protect their market. 
And to suggest that my nation, the O'odham Nation, has no 
aboriginal ties to that area is really an insult. It is an 
insult to me as an O'odham and it is an insult to other O'odham 
as well. The driving force behind this legislation is two 
wealthy tribes trying to protect their market share.
    Mr. Mullin. The gentleman's time has expired.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Mullin. The Chair will now recognize the gentleman from 
Arizona. And, David, I am not going to try your last name 
because everybody keeps messing with the names around here. So, 
I am just going to leave that alone.
    Mr. Schweikert. Thank you. It is OK. I am quite used to 
that.
    Mr. Mullin. Thank you.
    Mr. Schweikert. Mr. Chairman and Committee members, thank 
you for giving me a moment to sit on the Committee. And, Raul, 
I thought you were a lawyer?
    Mr. Grijalva. No.
    Mr. Schweikert. And all this time. I am going to stop 
coming to you for my legal advice. I sit up here, and one of 
the reasons I had also requested to be part of this panel is I 
like to think I am one of the few people in this room that may 
have a somewhat unique view of what is going on here. In 1992, 
I was co-chair of the Indian Affairs Committee in Arizona. And 
one of the greatest years of my life because I learned so much 
I did not know. But in 1993, so we are going back 20 years, I 
was blessed. I became the Majority Whip in my State house. And 
I was the lead negotiator for the House in regards to the IGRA 
compacts with that administration, the Symington 
Administration, and I literally lost a year of my life bathing 
in IGRA. And I hoped I would never, ever have to go near this 
again and somehow it continues to haunt me.
    And so here we are back. And what breaks my heart is that I 
hear some of the fussing, but I sat hour after hour after hour 
after months after month, almost a year of this very part of 
this discussion of would gaming be restricted to aboriginal 
land. And we were assured over and over and over and over, and 
that is how we slowly moved a State that we came this close to 
ending Arizona's lottery, getting rid of the lottery so there 
would be none of this class gaming at all in the State. So I do 
understand what has gone on. There is a lot of history behind 
this.
    And there are a couple of questions I want to ask. 
President Enos, you happen to be one of those lawyer type 
people, aren't you? And my question, and I will ask everyone 
else also this, when a tribe is in Federal court on one of 
these issues, can they waive sovereign immunity?
    Ms. Enos. Yes, yes, we can. We are sovereigns.
    Mr. Schweikert. To my Chairman of the Tohono O'odham, would 
the community be willing to waive their sovereign immunity to 
actually get a straight up answer?
    Mr. Norris. The community?
    Mr. Schweikert. Would the Tohono O'odham tribe be willing 
to waive sovereign immunity in Federal court to get a straight 
court ruling?
    Mr. Norris. I am not a lawyer. President Enos is a lawyer. 
She did not answer you. She just sort of wiggled her hand.
    Mr. Schweikert. Well, this one is not about President 
Enos----
    Mr. Norris. I am not in----
    Mr. Schweikert. It is for you as your opinion for your 
community.
    Mr. Norris. I would have to yield to my attorney on that.
    Mr. Schweikert. Alright. President Enos, one of the reasons 
that I have actually stuck my nose into this is because I have 
the history of the fights with some of the horse tracks and 
then dog tracks and some of the others. And part of the 
education for everyone in the room is Arizona is a very easy 
initiative and referendum State. How long have you been hearing 
about that when this happens, our friends who want expanded 
gaming will be out there on the street with their petitions?
    Ms. Enos. For years, for several years, particularly there 
was, as I mentioned, the bill for the State legislature but 
also there has been talk of an initiative for the last 2 years 
or so. The Arizona Indian Gaming Association, of which we are 
all members here in this tribal representatives here and 
others, fends off outside non-Indian gaming interests.
    Mr. Schweikert. What happens to the compacts if tomorrow we 
had ``Racinos'' or community choice Class III gaming?
    Ms. Enos. The initiative that could be run by non-Indian 
interests could invoke what I just referred to as the ``poison 
pill.'' And according to the language of the compact, if a non-
Indian entity is eligible for gaming, whether it is by virtue 
of State legislation or an initiative or referendum type, then 
the State compact, the State of Arizona is open to Class III 
gaming.
    Mr. Schweikert. President Enos, at that point, compacts are 
blown up?
    Ms. Enos. That is exactly a good way to describe it.
    Mr. Schweikert. Remember, Arizona has what, 22 tribes, 21 
tribal communities or land-holding communities, correct?
    Ms. Enos. Yes.
    Mr. Schweikert. What happens to our rural tribes that right 
now have machine transfers in that situation?
    Ms. Enos. The tribes have gaming exclusivity in Arizona. 
And people like the Cocopah Tribe, which is in Mr. Grijalva's 
district, enjoys that exclusivity and is able to build a 
foundation of economic development through the gaming revenues. 
If the State went state-wide gaming, the tribes would no longer 
have exclusivity. We would have to compete with non-Indian 
interests, particularly those tribes that have very limited 
market in rural areas.
    Mr. Schweikert. Madam President. Thank you, for your 
tolerance, Mr. Chairman.
    Mr. Young. Mr. Grijalva.
    Mr. Grijalva. Let me, I have some more questions for 
President Enos and for Chairman Norris. We are dealing with a 
lot with conjecture. And the strength of the legislation before 
us is that it is conjecture. And so as a piece of legislation 
to undo another act of Congress and potential decisions by 
courts where conjecture, what if, and this will happen, and 
``Chicken Little will rule the world'' and ``the sky will 
fall,'' and we have to pass this legislation. In the decision, 
the court concludes that the parties did not reach such an 
agreement, and that the nations' construction of a casino in 
the Glendale area will not violate the compact. That is in a 
decision but it is still not valid enough for this discussion 
on the legislation.
    Mr. Norris, we are talking about tribal sovereign immunity. 
And the argument that often the nation uses sovereign immunity 
as a shield in the lawsuit so that Congress now needs to step 
in and pose its restrictions that says Arizona intended to 
impose on gaming in Arizona because of the evoking sovereign 
immunity. Did the State of Arizona insist on preserving its 
sovereign immunity in the tribal State compact, did any of the 
tribes involved in the litigation against you insist on 
retaining that?
    Mr. Norris. Mr. Chairman, members of the Committee, Mr. 
Grijalva, sovereign immunity is a right that is afforded to all 
governments regardless of whether you are a Federal Government, 
State government, tribal government, whatever. And it is 
virtually important, an important safeguard for true self-
determination. Having said that, the nation gave up its right 
to sovereign immunity when it entered into a tribal-state 
gaming compact for the purposes of allowing the enforcement of 
that compact. However, when it comes to frivolous claims based 
on non-legal arguments, not based on the plain language of the 
compact, we will not waive this right.
    Mr. Grijalva. And in your experience, based on the urging--
on the point that was being made about the O'odham Nation, is 
it your experience that tribal governments routinely evoke 
sovereign immunity against a suit over contract disputes or 
other issues?
    Mr. Norris. Sovereign immunity and the question of whether 
or not the tribe will waive sovereign immunity is a standard 
consideration amongst all tribes in contract disputes or 
contract negotiations.
    Mr. Grijalva. I think you mentioned the point that the 
immunity issue, sovereign immunity is the key to the concept of 
self-determination. So, it is kind of odd, and the precedents 
that are being set here, should be frightening not just to the 
decision on this particular case but to the precedents that are 
being set generally across the board. I am not a member of any 
nation regrettably, a native nation, but if I was, the issue of 
tribal immunity would be something that I would be protective 
of and never waive because in doing so, I am giving up the core 
driver of my self-determination. And to blatantly say that you 
have to give it up after the court has ruled against somebody I 
think begs the question about the kind of precedent and respect 
that we have for that concept.
    The other issue that I wanted to ask you about, Mr. Norris, 
before my time runs out is if we change the terms of the 
contract, which I think is being done by this legislation, what 
prevents water settlements, other tribal-State-Federal 
agreements land-use issues from being equally open to the 
interpretations and the limitations as H.R. 1410 is setting?
    Mr. Norris. Mr. Chairman and members of the Committee and 
Mr. Grijalva, thank you for that question. It is of grave 
concern not only to the Tohono O'odham Nation but it should be 
of grave concern to all tribes not only in the State of Arizona 
but all tribes nationally that this particular legislation does 
in fact set a dangerous precedent. It is a dangerous precedent 
because if someone out there dislikes certain language within a 
particular bill, in fact in our case our land and water 
settlement, and some 25, 30 years later, decides they do not 
like certain language, and they are going to go change that 
language against the settling tribe's wishes, that is stuff 
that goes on in the 19th century.
    That is the error of U.S. history when the United States 
violated treaties, violated agreements, violated agreements 
between tribal nations. If this bill passes, it would have that 
level of impact and precedent. And I think that we need to be 
extremely concerned about that because if the United States 
Government can change the law, a settlement of land and water, 
unilaterally against the settlement tribe's wishes, then how 
protected are other agreements with any other nation throughout 
the United States?
    Mr. Grijalva. I yield back, Mr. Chairman. Thank you. I 
appreciate the indulgence to go over time for the answer.
    Mr. Young. Thank you.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Young. You are up. I do not want to slaughter your name 
too.
    Mr. LaMalfa. Do you want me to help you. Italian, LaMalfa.
    Mr. Young. OK, LaMalfa.
    Mr. LaMalfa. LaMalfa.
    Mr. Young. Alright.
    Mr. Grijalva. Young, you have got to work on the vowels.
    Mr. LaMalfa. I just wanted to weigh in on this as I have 
studied this issue and have had a chance to meet with folks on 
it. And also we experienced in California my support for H.R. 
1410 in that it does keep the agreements and keeps within the 
spirit of how tribal gaming should be as envisioned by IGRA. 
And so, being from California, our neighboring State of 
Arizona, that this measure I think is very key to keep, I think 
essentially in the long term keep the peace but keep those 
agreements and not have an outbreak all over that State but 
also I think other States of what has been called the ``off 
reservation gaming moves.'' So it is very clear to me that this 
is the right direction to go.
    And I think if we want to have order to things here, that 
this is indeed a very important measure to keep the agreements 
that have been made and not have off reservation moves that I 
think are very detrimental to the tribes, to the agreements, 
what I think the people, the citizens, have in mind of how the 
gaming should appear. So I appreciate being able to weigh in.
    And, Mr. Chairman, with the back and forth of other 
committees, et cetera, I want to have an opportunity to pose a 
thought or a question on H.R. 841, a little bit later or right 
now.
    Mr. Young. Any time you want to.
    Mr. LaMalfa. OK, sir. Just more of a thought on this too, 
what I want to get out there is that on H.R. 841, there are 
some problems there with the way that one tribe has been kind 
of dealing with the others in the area as well with the Grand 
Ronde and up in that direction, but I think the bill could 
still be supportable if there was a commitment that the land 
involved would not be one that would be involved in gaming. Has 
that been established by this Committee earlier that limiting 
gaming from that or for its other uses would be a direction 
this Committee wants to go with H.R. 841?
    Mr. Young. We are keeping that under consideration at this 
time.
    Mr. LaMalfa. OK, alright, I just wanted to get that out 
there. Thank you, Mr. Chairman.
    Ms. Hanabusa. Mr. Chairman, when Mr. Grijalva was asking 
some questions, he mentioned my name along with Chairman 
Norris, but I did not have a chance to respond. May I do so 
now?
    Mr. Young. We are going to do another round of questions if 
you are ready to go.
    Mr. Rosenbruch. But, Mr. Chair, I apologize profusely. I do 
need to depart but if someone had a question for me, I would be 
delighted to remain a few more minutes.
    Mr. Young. I do not know if anybody has got a question, 
Jimmie. You made a good presentation. Do you have a question?
    Mr. Grijalva. Yes, but in the interest of collective time, 
I will submit them in writing.
    Mr. Young. Yes.
    Mr. Grijalva. And all of us can get an answer.
    Mr. Young. OK, good.
    Mr. Rosenbruch. Thank you.
    Mr. Young. OK, thanks, Jim.
    Mr. Rosenbruch. Thank you very much, glad to be here. We 
appreciate it.
    Mr. Hanabusa. Thank you for being here. Thank you, Mr. 
Chair. This is actually for both Mr. Norris and Ms. Enos. And 
what I would like for both of you to do is, if you disagree, to 
let me know. First of all, the issue that we have before us is 
really one regarding the Indian Gaming Regulatory Act. And it 
permits Class III gaming on Indian lands. But do we agree that 
part of that statute, 25 U.S.C. 2701 to 2721, basically says 
you can do it in conformance with a tribal-State compact? In 
other words, there has got to be an agreement between the tribe 
and the State, do we agree with that?
    Ms. Enos. That is right.
    Mr. Norris. Yes, Congresswoman.
    Ms. Hanabusa. OK. Now, given that, do we also agree since 
there has been issues of sovereign immunity and its waiver, and 
that is something that I also brought up with I believe it was 
the testimony of Mr. Black, that as a function of the Indian 
Gaming Regulatory Act, or IGRA, that you must also waive 
sovereign immunity as to the compact. And that is specifically 
found in 25, section 2710, subsection D, and it goes on. Do we 
agree with that?
    Ms. Enos. Yes, that is correct.
    Mr. Norris. Yes, correct.
    Ms. Hanabusa. So the issue of sovereign immunity, which I 
agree with my colleague, I believe is sacred for any native 
persons and nations. However, in the case when one exercises 
IGRA, what you have done is you have agreed in that process to 
waive it as to issues regarding the compact itself. We are in 
agreement on that, right?
    Ms. Enos. Yes.
    Mr. Norris. Yes, I agree.
    Ms. Hanabusa. And that is why we have so many of your 
lawsuits because you are suing on those issues which the 
Federal court has jurisdiction over, is that correct?
    Mr. Norris. Yes, correct.
    Ms. Enos. That's correct.
    Ms. Hanabusa. And I agree with Mr. Norris that what the 
court has found over the period of time is that the lands, if 
purchased or traded pursuant to the settlement, would then 
become or could become Indian country if so designated and if 
the Secretary of the Interior so accepts? We understand that to 
be a ruling, is that correct?
    Mr. Norris. Yes, Ranking Member.
    Ms. Enos. We don't approve.
    Ms. Hanabusa. I am not questioning whether you have a right 
to appeal, I am just saying that we have a preliminary ruling 
to that effect. And we all know everything that has been said 
so far has a right to appeal. Now, having said that, do we know 
whether the Secretary of the Interior has accepted those lands 
into Indian country.
    [Gavel.]
    Mr. Young. You know how I feel about cell phones in the 
room. And that is the second time that has gone off. The next 
time you are out of the room. Does everybody understand that? 
Anybody not understand it? Good. Shut it off. Go ahead.
    Ms. Hanabusa. He just interrupts whenever he wants. Mine is 
off. I just want you to know, mine is off. So has it been 
accepted, the purchase, the proposed property, has it been 
accepted by Interior as Indian country?
    Ms. Enos. No.
    Ms. Hanabusa. It has not?
    Ms. Enos. No.
    Ms. Hanabusa. Is that true, Mr. Norris? I am just trying to 
get the facts.
    Mr. Norris. Ranking Member Hanabusa, what has happened was 
back I believe in 2009, after the Department of the Interior 
was taken to court on their hesitation, reluctance, decision to 
not move forward and take this land into trust, my nation filed 
a lawsuit against the Department of the Interior essentially 
forcing them to do what the Federal law, statute, requires them 
to do. In the law it says, ``At the request of the tribe, the 
Department of the Interior shall take this land into trust.'' 
It is a mandatory acquisition.
    And so when they failed to do that, we filed a lawsuit. 
Just prior to the decision of that court, the Department of the 
Interior published in the Federal Register their decision to 
move forward and take that land into trust.
    Ms. Hanabusa. OK. Now, let me also understand that is it 
part of this compact, the consideration of this compact, the 
fact that only Native tribes will be able to game in Arizona?
    Ms. Enos. That is the status right now.
    Ms. Hanabusa. That is the status right now?
    Ms. Enos. Yes.
    Ms. Hanabusa. So when Proposition 202 went to the people, 
it was decided at that time that what would happen is that only 
the Native tribes would be able to game in Arizona. And, as a 
result of that, this compact was entered into?
    Ms. Enos. That is correct.
    Mr. Norris. That is correct.
    Ms. Hanabusa. And some tribes gave up another casino, and 
some tribes went in by having your gaming machines, as I 
understand it, become part of certain larger casinos so that 
tribes, smaller tribes, have an economic benefit from all of 
this, is that true?
    Ms. Enos. Every tribe was allocated after 2 years of 
negotiation a certain number of facilities, and that is 
correct. The metro tribes in Phoenix, four metro tribes gave up 
the rights that we had in the earlier compacts. And the 
agreement that you are referring to, the transfer eligibility 
of an allocated amount of machines by the non-gaming tribes, 
actually was part of the resolution.
    Ms. Hanabusa. Thank you, and I yield back. My time is up.
    Mr. Young. Mr. Gosar.
    Dr. Gosar. Yes, President Enos, you know you did not have a 
chance to answer my Arizona colleague's question, would you 
like to answer that question. You brought it up, and I want you 
to be able to answer a question. Chairman Norris had the 
opportunity.
    Ms. Enos. Mr. Grijalva was asking about the waiver of 
sovereign immunity, and it should be noted that tribes 
routinely waive sovereign immunity, for instance, in contract 
cases, in bank financing structures, agreements. And that is a 
limited waiver of sovereign immunity. For instance, we do it 
for those sorts of agreements. Otherwise, we would not be able 
to conduct business. No outside businesses would want to deal 
with us. And we do it through arbitration clauses and subject 
ourselves under the limited waivers of sovereign immunity to 
Federal court jurisdiction arbitration.
    Dr. Gosar. And this would definitively have financial 
implications, would it not?
    Ms. Enos. Absolutely.
    Dr. Gosar. Mr. Norris, are you aware of what happened in 
the IRS case here in which testimony was utilized in court or 
can be utilized in court?
    Mr. Norris. Mr. Chairman and members of the Committee, 
Congressman Gosar, I am not.
    Dr. Gosar. Things that you say in front of Congress are 
admissible into court. And my colleague here, David Schweikert, 
asked a question in regards to would you waive sovereign 
immunity. And what I would like for the record is I would like 
you to consult your attorneys, and I would like an answer back.
    Let me ask you a question: When we are dealing with this 
because you said ``frivolous lawsuits,'' I want to address the 
frivolous lawsuit. You purchased, you acquired this piece of 
property through a third entity, right?
    Mr. Norris. Yes, sir.
    Dr. Gosar. OK, and that is typical. I have no problems with 
that. But given the circumstances with this tribal agreement on 
the compact, do you think that knowledge of that piece of 
property being sold, you would actually have been able to 
purchase that contract or that property without that?
    Mr. Norris. I am not sure I understand your question.
    Dr. Gosar. So without a third party, and they knew that it 
was the Tohono O'odham Nation with this contract, that you 
would actually be able to purchase this contract, this piece of 
property, you would have caused a little bit more of a problem, 
wouldn't it?
    Mr. Norris. Mr. Chairman and members of the Committee, Mr. 
Gosar, the reason why the nation had a third party do the 
purchase for us is because it was public knowledge when 99503 
law was passed, the nation was also appropriated $30 million to 
purchase replacement land up to 9,880 acres.
    Dr. Gosar. But they did not know about this piece of 
property within Glendale, did they?
    Mr. Norris. Our experience has been that we were never--
there was a challenge in trying to obtain fair market value----
    Dr. Gosar. I understand.
    Mr. Norris [continuing]. For the property. And, in fact, 
one of the sellers of the piece of property wanted the full $30 
million that we were appropriated to do this.
    Dr. Gosar. Well, I am going to speed you up a little bit. I 
understand that, but it would have been a little harder to get 
this piece of property is what I am after. Now, let me ask you 
something in tribal councils, in consultations in the tribe, 
was there not a cover up in regards in the tribal dictations 
and in minutes taken by the tribal courts or tribal council in 
regards to trying to hide this piece of property from the rest 
of the tribes in regards to this gaming aspect?
    Mr. Norris. Not to my knowledge.
    Dr. Gosar. That is what sovereign immunity is trying to 
hide, is it not?
    Mr. Norris. Not to my knowledge.
    Dr. Gosar. President Enos, are we aware that there is this 
information in regards to council dictations poignantly?
    Ms. Enos. Yes, that is accurate. In the discovery process, 
we received documents and evidence that showed that VDI or VDG, 
a corporation of the Tohono O'odham Nation had discussions 
along with some council members, and the quotations from those 
tapes and transcripts indicate that they were discussing 
amongst themselves to keep this purchase secret from the other 
tribes, particularly Salt River and Gila River because, as they 
said, ``Don't you think they are going to jump on us?'' They 
also purposely, according to those documents, kept this from 
the State of Arizona. And those were not available to us until 
we engaged in the litigation with them.
    Dr. Gosar. There was a comment made, President Enos, that 
there was a compact between the Tohono O'odham and the U.S. 
Government. We also have an agreement with all the rest of the 
tribes, do we not, as Congress and the U.S. Government?
    Ms. Enos. Yes, there is a standard compact that Governor 
Hull wanted with the tribes in Arizona in about 2000. That is 
why we had to work together to come up with the standard 
compact.
    Dr. Gosar. I appreciate the inquiry of questions.
    Mr. Young. I want to thank the panel.
    Mr. Grijalva. Mr. Chairman?
    Mr. Young. Go ahead.
    Mr. Grijalva. One other turn on the merry-go-round, if I 
may? President Enos, and thank you for being here, one of the 
things that continues to puzzle me is that this issue of gaming 
in that metropolitan Phoenix area, it was so important to all 
the parties involved, the State, as my colleague mentioned, in 
those negotiations, the Governor, and obviously to the tribes 
in and around that area, and it was important, as somebody 
stated, to the successful passage of Proposition 202. In your 
expertise and knowledge, why was it not specifically spelled 
out in the compact, why was that such a critical piece of 
information, one that we keep conjecturing about and going on 
and on, why was it not spelled out in the compact?
    Ms. Enos. Because of trust that we had amongst each other 
as tribes and the agreement in principle that we entered into 
to work together as a coalition based on trust, and that we 
would rely on each other. And the Tohono O'odham Nation signed 
this document, along with the 17 other tribes and agreed that 
if a tribe had to take an action inconsistent with the 
interests of the coalition, that it would disclose that to us. 
And we went forward with trust in this coalition. And then we 
worked with the Governor and established negotiations with the 
Governor. And there were over 35 meetings. And out of those 
meetings, the Governor decided to support and endorse what the 
compact was finally arrived at. And we decided, with the State, 
and the tribes, to take that to the voters. And there were 
those meetings where all the tribes were involved in developing 
that message that we were going to take to the voters for 
Proposition 202. I have here a document, and I would ask that 
it be put into the record. It encompasses----
    Mr. Grijalva. If I may, let me ask Mr. Norris----
    Ms. Enos [continuing]. Many of the statements.
    Mr. Grijalva. Your subject is going to be in the record, 
correct? Their item?
    Mr. Young. Without objection, the document will be 
submitted for the record.
    [The information submitted for the record by Ms. Enos has 
been retained in the Committee's official files:]
    Mr. Grijalva. Thank you.
    Ms. Enos. Thank you.
    Mr. Grijalva. Chairman Norris, it was not necessary 
according to esteemed President Enos, it was not necessary to 
spell it out in the compact because there is a trust factor 
involved, and H.R. 1410, as I understand the logic, is a 
reaction to broken trust. This compact, I remember the 
campaigns around 202, all the advertising that went on, and 
part of it I think is that there was a leaflet that said, ``No 
gaming in the Phoenix area.'' I mean it is like some of my 
colleagues that run, ``I will never cut benefits or Social 
Security,'' and then 2 weeks later, they are voting for CPI or 
something else. It is just things that happen.
    Mr. Young. Just like the President.
    Mr. Grijalva. Nobody is immune from that, my friend. So I 
would say talk about trust, and I think also talk about the 
fact that as we have tried to define that decision through the 
courts and administrative hearings, the trust issue, and what 
role an understanding has had in the decisions that the courts 
have made, if there was an understanding?
    Mr. Norris. Mr. Chairman and members of the Committee, I 
would just respond by saying that much of the comments by my 
colleague in tribal leadership shared not only with Mr. Gosar's 
response but also to you, Mr. Grijalva, response were items as 
part of the volumes and volumes of deposition and discovery 
that occurred over the past 2\1/2\, 3 years or so. And those 
were volumes of documents that were considered by the court in 
the court's decision.
    What I would like to say about the agreement in principle 
is that the Federal courts ruled that the agreement in 
principle was not binding on any of the tribal members of the 
Arizona Indian Gaming Association. And I want to cite 
specifically that the agreement in principal explicitly states 
that, ``Nothing in this agreement shall be construed to impair 
the tribal leader's ability to take any action inconsistent 
with the actions or positions of other tribal leaders.''
    Salt River and Gila River and other tribal members of the 
Arizona Indian Gaming Association, and the State of Arizona 
were aware of the Gila Bend Indian Reservation Lands 
Replacement Act, and they were also aware that the Nation could 
acquire gaming eligible lands under that statute.
    Now, my final comment on your question, Mr. Grijalva, is 
that the courts concluded, and I will quote from the decision 
that, ``Plaintiffs could not reasonably have expected that the 
compact would ban new casinos in the Phoenix area. This is not 
only from the complete absence of any such ban in the compact 
language but also from the integration clause and its 
declaration that no other agreements or promises are valid or 
binding.''
    So there cannot be any sub-agreements. There cannot be--
IGRA does not authorize any back door agreements by anybody. 
The compact is the rule of law. IGRA is the rule of law. We 
have demonstrated time and time again that we have been abiding 
by not only our land and water settlement of 99503, we have 
been abiding by our compact. And we will continue to abide by 
it and the Indian Gaming Regulatory Act.
    Thank you, Mr. Chairman. Thank you, Mr. Grijalva.
    Mr. Young. I want to thank the panel and thank the 
Committee.
    Ms. Hanabusa. Mr. Chair, I have a housekeeping matter.
    Mr. Young. Housekeeping matter?
    Ms. Hanabusa. We have provided for the record certain 
materials that we would like to be included.
    Mr. Young. And that is without objection.
    [The information submitted for the record by Ms. Hababusa 
has been retained in the Committee's official files:]
    Ms. Hanabusa. Thank you.
    Mr. Young. Anybody else have anything for the good of the 
order? With that, the Committee is adjourned.
    [Whereupon, at 5:37 p.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

 Prepared Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources
  h.r. 740--southeast alaska native land entitlement finalization and 
                          jobs protection act
    H.R. 740 would allow the Sealaska Corporation, a regional 
corporation established under the Alaska Native Claims Settlement Act 
of 1971 (ANCSA), 43 U.S.C. Sec. Sec. 1601 et seq., to obtain its 
remaining land entitlement under ANCSA from portions of the Tongass 
National Forest outside of the withdrawal areas to which Sealaska's 
selections are currently restricted by law.
    This is the third Congress in which a bill benefiting Sealaska has 
been introduced and considered by the Natural Resources Committee. 
While H.R. 740 is an improvement over previous versions, reflecting 
some changes requested through weigh-in from constituencies in 
southeast Alaska, the U.S. Forest Service, and the Alaska congressional 
delegation, it continues to be unnecessary. Nothing but Sealaska is 
stopping Sealaska from finalizing its entitlement within the areas that 
the Corporation itself helped identify to satisfy the remainder of its 
ANCSA entitlement. Indeed, conveyance of those lands has been 
suspended, at Sealaska's request, while the Corporation pursues 
legislation allowing it to select lands from entirely new areas of the 
Tongass National Forest.
    H.R. 740 also continues to risk stalling the implementation of the 
U.S. Forest Service's future management goal of transitioning southeast 
Alaska's economy from old-growth logging to more sustainable management 
of the forest based on second-growth timber. Sealaska claims to share 
this goal, but many of the parcels targeted by Sealaska in H.R. 740 
contain a high percentage of the Tongass' rarest large old-growth 
trees. Conveying these lands to the Corporation for logging will 
severely limit the Forest Service's ability to complete this critical 
transition for the remainder of the forest.
    Furthermore, even though it is beyond dispute that logging 
activities near rivers and streams can lead to erosion and flooding 
that degrade water quality and harm fish populations, H.R. 740 does not 
provide any protections for salmon streams which support a valuable 
public resource or contain conservation areas to balance potential 
clear-cutting that Sealaska has been known to do. The Tongass' 5,500 
breeding salmon streams and rivers are a mainstay of the region's 
economy and its subsistence way of life. For example, Keete Inlet on 
North Prince of Wales Island, within which Sealaska has targeted over 
10,000 acres for conveyance under H.R. 740, is a nearly pristine 
watershed that has been identified as one of the highest salmon-
producing watersheds in the forest and determined to have a high 
wildlife value by Trout Unlimited, Audubon Alaska and the Nature 
Conservancy. Should H.R. 740 continue to ignore necessary protections 
to shield salmon streams from harm and fail to identify conservation 
areas, the local economy could be devastated, and a good portion of a 
national treasure lost.
    The Administration testified against H.R. 740 at a May 16, 2013 
Subcommittee on Indian and Alaska Native Affairs hearing, citing 
ongoing negotiations on a compromise bill, S. 340, that was introduced 
by Senators Murkowski and Begich. I understand extensive efforts have 
been made by the U.S. Forest Service, Sealaska, the environmental 
community, the Alaska congressional delegation, and impacted local 
communities to come to a balanced solution that works for all parties 
on the most controversial remaining issues, including providing for 
stream buffers and conservation areas under the bill. My hope is that, 
moving forward, any legislation for the Tongass should ensure that the 
U.S. Forest Service's transition goals can be met, and should provide 
long-term protection for the thousands of tourism and fishing jobs that 
rely on a healthy Tongass.
                                 ______
                                 
Prepared Statement of The Honorable Paul A. Gosar, a Representative in 
                   Congress From the State of Arizona
    Today I thank the Chairman and Ranking Member of this Subcommittee 
for giving swift consideration of the Keep the Promises Act (H.R. 
1410). I was an original cosponsor of this legislation when my friend 
Congressman Trent Franks introduced it last month, and I strongly 
believe its swift passage is critical to the future of gaming in my 
State.
    This Committee analyzed this issue in-depth last Congress, so I 
won't rehash the background of the issue extensively. In 2002, the 
voters of Arizona approved what was then known as Proposition 202, or 
the 17-tribe initiative. True to its name, the 17-tribe initiative 
reflected a meaningful consensus among the tribal and State governments 
present in Arizona, and established a balanced approach to gaming 
activity throughout the State that considers the interests of urban 
tribes, rural tribes, and Arizona's communities. Many tribes gave up 
the right to build their own casino in order to share in the revenues 
from gaming as a whole. In addition, a portion of tribal gaming 
revenues are now set aside to provide health care, education, and 
needed services to all tribes, not just the ones in major metropolitan 
areas. This compact, which was overwhelmingly approved by the people of 
Arizona, is the foundation of Indian gaming in my State.
    In 2003, under the name of a third party, the Tohono O'odham Nation 
purchased 134 acres of land very near the University of Phoenix Stadium 
in Glendale, Arizona. The nation has since transferred these lands to 
its own name and has asked the Secretary of the Interior to take these 
lands into trust. Tohono O'odham has made it very clear that once 
placed into trust status, they will seek to establish a Las Vegas style 
casino on parts of those lands.
    There is no doubt about the fact that the Federal Government 
compensated the Tohono O'odham Nation for the destruction of its land; 
the original 1986 Gila Bend Law allows not only for monetary 
compensation, but also for the purchase of additional lands to replace 
the lands that the Federal Government flooded. I support the nation 
asserting its very limited legal rights in this area. The controversy 
is centered around the proposed construction of a Vegas style casino on 
this land, in downtown Glendale.
    My support for H.R. 1410 is not rooted in opposition to one casino. 
I support Indian gaming, and gaming as a whole. In fact, I am a member 
of the House Gaming Caucus. The caucus is a group of Congressional 
leaders focused on educating Members on gaming-related issues and 
working to identify key policy areas that can be advanced at a Federal 
level, to enhance the economic impact of gaming around the country. I 
simply believe gaming should be prohibited on the lands in Glendale, at 
least through the life of the Arizona compact. The key part of that 
compact was a tribal agreement, including the nation, that states no 
casinos would be permitted in metropolitan Phoenix for at least 23 
years. The nation was very clear back when the compact was negotiated 
that if it operated a fourth casino that casino would be located in 
rural Arizona, not metropolitan Phoenix.
    H.R. 1410 simply prohibits gaming on lands taken into trust by the 
Secretary within the Phoenix metropolitan area, until January 1, 2027. 
It is supported by six of the tribes that took part in the Prop 202 
agreement--the Salt River Pima-Maricopa Indian Community, the Gila 
River Indian Community, the Hualapai Tribe, the Pueblo Zuni, the 
Cocopah Indian Tribe, and the Fort McDowell Yavapai Tribe. I would like 
to submit an op-ed those tribes placed in the Arizona Republic, our 
State's largest newspaper, entitled ``Tribal Leaders: Bill would 
safeguard casinos deal'' for the record.
    Additionally, I have letters of support from the Town of Fountain 
Hills, the City of Glendale, the City of Tempe, the Town of Gilbert, 
and the City of Litchfield Park. These are all municipalities, within 
the Phoenix metropolitan area, that are concerned with a violation of 
the State compact. Mr. Chairman, I ask that those letters also be 
included in the record.
    My support for the Keep the Promise Act is about protecting the 
integrity of my State's gaming compact and ultimately the future of 
gaming in Arizona. I am also concerned that if our legislation is not 
signed into law, a dangerous precedent could be set leading to the 
expansion of off-reservation casinos in Arizona and other States.
    I look forward to hearing from our witnesses, and I hope this 
committee will move H.R. 1410 quickly.
                                 ______
                                 
 Prepared Statement of The Honorable Trent Franks, a Representative in 
                   Congress From the State of Arizona
                h.r. 1410--keep the promise act of 2013
    Dear Mr. Chairman and members of the Subcommittee,
    I want to thank you for holding this hearing and allowing me to 
submit testimony on H.R. 1410, the Keep the Promise Act. This 
straightforward bill prohibits Indian gaming in the Phoenix 
metropolitan area until the expiration of the current State gaming 
compact in 2027.
    Mr. Chairman, this debate is not about jobs or economic 
development, or any of the other tangential points that some would like 
to use to distract from the real problem with the casino.
    Some who favor allowing construction to go forward seem to be 
missing the point: When Arizona's gaming compact was voted into law, 
both the voters and tribes of Arizona were promised one thing, while 
ultimately receiving something else entirely. This bill is not about a 
vendetta. Nor is it about ending gaming in Arizona. It is, very 
specifically, about ensuring that the limits on casinos specifically 
promised back in 2002 during debate on Proposition 202 are realized.
    Arizona tribes negotiated collectively through the Arizona Indian 
Gaming Association (``AIGA''). Tribal leaders in AIGA agreed among 
themselves and with the State that there would not be any additional 
casinos in the Phoenix metropolitan area beyond the seven that were 
then in operation by Salt River, Gila River, Ak-Chin, and Fort 
McDowell.
    The four Phoenix-market tribes made it clear in discussions with 
other tribes and the State that they agreed to a reduction in the 
number of facilities specifically for the purpose of ensuring that only 
the existing casinos in the Phoenix market would be allowed under the 
compacts.
    The drafting of the compact occurred in 2002 between the Governor 
and the AIGA tribes, which eventually became SB 1001 in the Arizona 
State legislature, and then a ballot initiative, Proposition 202.
    During the 2002 election, the Arizona Secretary of State published 
the Arizona Ballot Proposition Guide, a pamphlet containing arguments 
for and against Proposition 202. That pamphlet contained a statement of 
support for Proposition 202 by Governor Jane Dee Hull, in which she 
stated that ``[v]oting `yes' on Proposition 202 ensures that no new 
casinos will be built in the Phoenix metropolitan area and only one in 
the Tucson area for at least 23 years.'' The pamphlet also contained an 
argument in favor of Proposition 202 signed by tribal leaders, 
including Tohono O'odham Chairman Edward Manuel.
    Chairman Ned Norris, Jr., the nation's current chairman, publicly 
supported Proposition 202 in appearances on behalf of AIGA. In urging 
Arizona voters not to choose competing Propositions 200 or 201, Norris 
said that Proposition 202 would not open gaming into cities.
    Mr. Chairman, assuming for a moment that the casino weren't in 
violation of Proposition 202 and the intent of voters, many of the 
arguments being brandished by proponents of the casino still remain 
dishonest. These proponents like to claim the proposed casino would 
create many jobs for the West Valley. However, when the City of 
Glendale requested the data and methodology behind the numbers being 
repeated to the public, the request was denied by the tribe.
    On the other hand, when the City of Glendale, per State law, put 
together a plan in 2002 outlining possible uses for the land, estimates 
put the number of jobs created under the city's plan at 5,756 high-
quality jobs. That's excluding the construction jobs that would also be 
created. Furthermore, the city's plan, at build-out, would have created 
$10.89 million in construction sales tax and, more importantly, $5.6 
million annual recurring revenue. The casino, on the other hand, would 
result in NO sales tax revenue for the City of Glendale. It becomes 
easy to see the many reasons why the City of Glendale so strongly 
opposes the effort to forcibly build this casino in the heart of the 
City of Glendale.
    Mr. Chairman, the fallacious arguments used by casino supporters 
highlight the disingenuous nature of assertions that building the 
casino is really just about creating jobs and economic development for 
the surrounding area.
    Mr. Chairman, thank you again for holding this hearing today. It is 
my hope that at the conclusion of today's hearing, the members of this 
Subcommittee will appreciate the importance and necessity of this 
legislation.
                                 ______
                                 
List of Documents Submitted for the Record Retained in the Committee's 
                             Official files
ftr on h.r. 623 (young of ak), ``alaska native tribal health consortium 
                          land transfer act''
Submitted by witness, Andy Teuber Board Chair and President, Alaska 
        Native Tribal Health Consortium FTR:
    1. Exhibit A.--Map of Alaska illustrating the villages many 
hundreds of miles outside of Anchorage.
    2. Exhibits B and C.--Maps and illustrations of what the ANTHC is 
seeking to obtain title to (it is currently being used for parking).
     ftr on h.r. 740 (young of ak), ``southeast alaska native land 
           entitlement finalization and jobs protection act''
Submitted by Ranking Member Colleen W. Hanabusa FTR:
    1. David Beebe, Greater Southeast Alaska Conservation Community 
position paper.
    2. Dave Squibb, Chair, Point Baker Community Association.
    3. Donald Hernandez, Fisherman, Point Baker, Alaska.
    4. Andrew Thoms, letter to the editor.
    5. Andrew Thoms, Director, Sitka Conservation Society letter to 
IANA Subcmte Members.
    6. Bruce Baker, retired Deputy Director of AK Dept. Fish and Game's 
Habitat Division letter.
    7. Eric Myers, Policy Director, Audubon Alaska, letter to Chairman 
Young.
    8. Clarice Johnson, Sealaska Shareholder, letter to the editor from 
the Sitka Sentinel May 15, 2013.
Submitted by witness, Mr. Byron Mallott, Member, Board of Directors, 
        Sealaska Corporation:
    1. Draft document funded by the Forest Service and authored by Dr. 
Charles W. Smythe and others, ``A New Frontier: Managing the National 
Forests in Alaska, 1970-1995'' (1995) (``A New Frontier'').
    2. A paper by Walter R. Echo-Hawk, ``A Context for Setting Modern 
Congressional Indian Policy in Native Southeast Alaska (``Indian Policy 
in Southeast Alaska'').
Submitted by witness, Mr. Jimmie Rosenbruch FTR:
    1. Letter from Steven H. Perrins, Alaska Guides Association.
    2. Letter from Gary Gearhart, Safari Club International Alaska 
Chapter.
    3. Letter from 3 Alaska residents to Sen. Lisa Murkowski Re: S. 881 
(letter dated April 28, 2010).
    4. Letter from the Alaska Outdoor Council to Sen. Thune re: S. 340.
    5. Letter from multiple Alaska residents to Sen. Wyden Re: S. 340.
    6. Letter from Audubon Alaska to Sen. Wyden Re: S. 340.
    7. Letter from Territorial Sportsmen to Sen. Wyden Re: S. 340.
Various Submissions FTR:
    1. Judy Magnuson, Port Protection Community Association.
    2. Tim Bristol, Trout Unlimited.
    3. Letter from Phil Rigdon, President of the Intertribal Timber 
Council.
    4. Matthew D. Kirchhoff, Wildlife Biologist.
    5. Resolution from the City of Kupreanof, Alaska submitted by Becky 
Regula, City Clerk.
ftr on h.r. 841 (schrader), to amend the grand ronde reservation act to 
           make technical corrections, and for other purposes
Submitted by witness, Mr. Reyn Leno, Tribal Council Chair, The 
        Confederated Tribes of Grand Ronde FTR:
    1. Yamhill City Resolution.
    2. An Administrative History of the Coast Reservation.
    3. Polk County Resolution re Amendment to Grand Ronde Restoration 
and Reservation Acts 6-2-10.
    4. Letter to Ranking Member Colleen Hanabusa re: GR FTT bill, 
031813.
Various Submissions FTR:
    1. Letter from William Iyall, Chairman, Cowlitz Indian Tribe.
    2. Robert Garcia, Chairman of the Confederated Tribes of Coos, 
Lower Umpqua, and Siuslaw Indians w/multiple attachments.
ftr on h.r. 931 (schrader), to provide for the addition of certain real 
 property to the reservation of the siletz tribe in the state of oregon
Submitted by Lone Rock Strategies on behalf of the Siletz Indians 
        Tribe:
    1. Letter from the Confederated Tribes of Siletz Indians Tribal 
Council to Oregon delegation.
    2. List of historic references to the Siletz Reservation. 
Commissioner of Indian Affairs Reports.
    3. Chronological Summary of Historical Documentation regarding 
Siletz vs. Grand Ronde Agency Jurisdiction over Northern Portion of 
Siletz Coast Reservation.
    and Location and Tribal Affiliation of Salmon River, Clatsop, 
Nestucca, Tillamook and Nehalem Indians 1857--1890.
    4. Craig Dorsay (Siletz Tribal attorney) memo #1: Addresses the 
argument that Siletz is limited to take land into trust in Lincoln 
County.
    5. Craig Dorsay (Siletz Tribal attorney) memo #2: Addresses the 
legal and historic distinction between Coos/Lower Umpqua/Siuslaw 
Indians that confederated at Siletz and those that were later 
recognized by Congress.
Various Submissions FTR:
    1. Letter from William Iyall, Chairman, Cowlitz Indian Tribe.
    2. Robert Garcia, Chairman of the Confederated Tribes of Coos, 
Lower Umpqua, and Siuslaw Indians w/multiple attachments.
      ftr on h.r. 1410 (franks), ``keep the promise act of 2013''
Submitted by Ranking Member Colleen W. sHanabusa FTR:
    1. Written Testimony of the Honorable Adolfo Gamez on behalf of the 
City of Tolleson, AZ along with a resolution of the City Council.
    2. Tohono O'odham National Resolution 2129.
    3. Written Testimony of the Honorable Robert Barrett on behalf of 
the City of Peoria, AZ.
    4. City of Peoria, AZ Resolution 2013-41.
    5. Letter from the Mayor/City Council Office of Surprise, AZ.
    6. Map C of Impact of Proposed Amendment to the Tohono O'odham 
Nation's Land and Water Rights Settlement Act.
    7. Written Testimony of the Honorable Samuel U. Chavira, City of 
Glendale, AZ Yucca District Councilman.
    8. City of Phoenix, Councilmember Nowakowski, District 7 letter.
    9. Tribal Council Resolution, Hopi Tribe, H035-2013.
    10. Tribal Council Resolution, San Carlos Apache Tribe, No. MY-13-
116.
    11. Court cases affirming land-in-trust decision under Gila Bend 
Act.
        a. Gila River Indian Cmty. v. U.S., 776 F. Supp. 2d. 977 (D. 
        Ariz. 2011).
        b. Gila River Indian Cmty. v. U.S., 697 F.3d 886 (9th Cir. 
        2012).
    12. Court cases affirming gaming eligibility of land under the 
tribal-State compact and IGRA.
        a. State of Arizona v. Tohono O'odham Nation, 2:11-cv-00296-DGC 
        (D. Ariz. 2013).
Submitted by Rep. Paul A. Gosar of Arizona FTR:
    1. Arizona Republic Op-Ed: Tribal leaders: Bill would safeguard 
casinos deal.
    2. Press release from the City of Glendale, AZ.
    3. Letter to Rep. Sinema from the City of Tempe, AZ.
    4. Letter from the Town of Fountain Hills, AZ.
    5. Letter to Rep. Franks from the City of Litchfield Park.
    6. Letter to Rep. Franks from the Maricopa County Board of 
Supervisors.
    7. Letter to Rep. Franks from the Town of Gilbert.
    8. Letter to Chairman Young and Ranking Member Hanabusa from the 
Pueblo of Zuni, NM.
Submitted by Witness, Ms. Diane Enos, President, Salt River Pima-
        Maricopa Indian Community FTR:
    1. Map--proposed location for casino and proximity to a school.
    2. A bound series of letters/resolutions/news articles/
transcriptions, etc FTR titled Arizona Gaming Compacts Proposition 202 
``No additional casinos in the Phoenix metropolitan area''.
Various Submissions FTR:
    1. Statement of the Honorable Sherry Cordova, Chairwoman, Cocoah 
Indian Tribe.
    2. Letter from Reps. Markey and Grijalva to Chairmen Hastings and 
Young.
    3. Governor Arlen Quetawki, Sr., Pueblo of Zuni.
    4. Governor Mendoza, Gila River Indian Community.

                                 <all>

</pre></body></html>
